<html>
<title> - THE IMPACT OF INTERACTIVE VIOLENCE ON CHILDREN</title>
<body><pre>[Senate Hearing 106-1096]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 106-1096
 
             THE IMPACT OF INTERACTIVE VIOLENCE ON CHILDREN
=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation










                       U. S. GOVERNMENT PRINTING OFFICE
78-656                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
            Martha P. Allbright, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 21, 2000...................................     1
Statement of Senator Brownback...................................     1
    Prepared statement...........................................     3
Statement of Senator Dorgan......................................    24

                               Witnesses

Anderson, Dr. Craig A., Professor, Iowa State University, 
  Department of Psychology, Ames, Iowa...........................    32
    Prepared statement...........................................    35
Funk, Dr. Jeanne B., Ph.D., Department of Psychology, University 
  of Toledo......................................................    44
    Prepared statement...........................................    46
Provenzo, Jr., Eugene F., Professor, School of Education, 
  University of Miami............................................    39
    Prepared statement...........................................    42
Shimotakahara, Danielle, Student, North Bend, Oregon.............    17
    Prepared statement...........................................    20
Steger, Sabrina, Pediatrics Nurse, Lourdes Hospital, Paducah, 
  Kentucky.......................................................    11
    Prepared statement...........................................    14
Walsh, Dr. David, President, National Institute on Media and the 
  Family, Minneapolis, Minnesota.................................     5
    Prepared statement...........................................     8

                                Appendix

Goldstein, Jeffrey, Ph.D., Department of Social and 
  Organizational Psychology, University of Utrecht, The 
  Netherlands, prepared statement................................    63
Lowenstein, Douglas, president, Interactive Digital Software 
  Association, prepared statement................................    59
Video Software Dealers Association, prepared statement...........    71


             THE IMPACT OF INTERACTIVE VIOLENCE ON CHILDREN

                              ----------                              


                        TUESDAY, MARCH 21, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Sam Brownback 
presiding.
    Staff members assigned to this hearing: David Crane, 
Republican Professional Staff; Paula Ford, Democratic Senior 
Counsel; and Al Mottur, Democratic Counsel.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. I call the meeting room to order. Thanks 
for joining us this morning. I want to thank my friend and 
Commerce Committee Chairman, John McCain, for agreeing to hold 
this hearing and offering a forum to discuss what has become an 
important public issue.
    We are privileged to hear today from two distinguished 
panels of witnesses. I appreciate your presence this morning as 
well. Coming from a long distance, I understand even one of you 
forfeited your spring break and a trip to Mexico to come here 
to testify in front of the U.S. Senate Commerce Committee, and 
I appreciate that deeply.
    I think it is also important to note who is not here today. 
In putting together this hearing, we invited a wide variety of 
video, PC, and arcade industry executives to testify. We 
invited the leader of their trade association to testify, and 
when each of them claimed to have a terribly important meeting 
at this exact time, we extended the invitation to any member of 
their company who could represent them, and still in every case 
we were refused.
    It is disappointing that the executives of Sega, Hasbro, 
Hasbro Interactive, Nintendo, ID Software, Midway Games, the 
Video Software Dealers Association, the American Amusement 
Machine Association, and the Interactive Digital Software 
Association could not be here today. All of them represent 
powerful and profitable communications companies, but none of 
them apparently felt they needed to communicate with the U.S. 
Senate. Nor is this the first time that some of these companies 
have refused an invitation to testify. This is a shame, but 
more than that, it is shameful. It shows contempt for Congress. 
It cannot continue.
    We are here today to discuss the potential impact of an 
increasingly powerful entertainment medium. Over the past 
several years, the video, PC, Internet, and arcade industry has 
dramatically increased in terms of profitability and 
pervasiveness. Video games are no longer relegated to a corner 
of the pizza parlor. They are now the basis of movies, the 
inspiration for numerous toys, costumes, magazines, and 
electronic spin-offs, and are found in an increasing number in 
homes.
    A few months ago, a study was released by the Annenberg 
Institute of the University of Pennsylvania, which found that 
the average child in America spends more than 4\1/2\ hours a 
day in front of a screen watching television, playing video 
games and PC games, and surfing the Internet. Kids spend more 
time staring at a screen than they do in school or with their 
parents, which means that what they watch and what they play 
can have a profound influence on their young minds and young 
lives.
    When it comes to violent television and movies, literally 
thousands of studies have pointed to a negative link between 
watching violence and antisocial behavior, responses, and 
attitudes, but despite the skyrocketing popularity and 
profitability of violent video games, the impact and influence 
of these games has largely escaped public and parental 
attention.
    Of course, the majority of video and PC games produced are 
nonviolent. Many are educational as well as entertaining. Some 
teachers have praised certain games for their effectiveness in 
teaching math and motor skills, but there are many games sold 
in toy stores across the country, advertised in venues 
accessible to children, and demonstrably popular among young 
people, which celebrate killing, carnage, and cruelty.
    Consider just a few examples: The highly popular game Duke 
Nukem combines the graphic killing of aliens with images of 
scantily clad women. Advanced players get to murder naked 
female prostitutes, some of whom are tied to posts and beg the 
player to kill them. The games Carmageddon and Twisted Metal 
cast the player as a deranged motorist, whose aim is to run 
over as many pedestrians and other drivers as possible. The 
more bystanders you kill, the higher your score.
    In Grand Theft Auto 2, players can engage in drive-by 
shootings, drug-dealing, and car theft as they simulate 
gangster activity.
    These may seem over the top, but they are actually among 
the more popular games around. In fact, one survey of fourth to 
eighth graders found that almost half the kids said their 
favorite electronic games involved violence.
    Now, defenders of these games say that they are mere 
fantasy and harmless role-playing, but is it really the best 
thing for our children to play the role of a murderous 
psychopath? Is it all just good fun to positively reinforce 
virtual slaughter? Is it truly harmless to simulate mass 
murder?
    That is part of what this hearing is about. We want to take 
a hard look at these products and, more importantly, their 
impact. If a typical child spends up to an hour a day playing 
video and PC games, and I have two children of video-PC age, 
and they do play a lot of games, it simply stands to reason if 
they are playing that much of these games, that these 
experiences will have some impact on their thoughts and 
feelings. It is simply part of human nature that what we 
experience affects our attitudes and assumptions and, thus, our 
decisions and behavior.
    The way in which they affect us is bound to be complex and 
variable, but we need to start asking questions and getting 
answers. Raising children is a precious duty and a precarious 
task. It requires nurture, sacrifice, and lots of love, time, 
and attention, but even the most devoted parents may find it 
impossible to always know what their child is playing, or to 
shield their child from images and messages that surround them 
at school, the mall, at a friend's house, or at an arcade.
    Many devoted, loving parents may not know about the 
messages of these games. They may not know that their children 
can participate in murder simulations at the local arcade, and 
even if they do know, they cannot always shield them from the 
harmful influences. We can no more shield our child from a 
polluted culture than we can shield them from polluted air.
    Parents, of course, have primary responsibility to protect, 
raise, and care for their children, but it does not mean that 
the companies have carte blanche to confuse and to corrupt 
them. We all have a role to play in protecting and caring for 
children, and in doing what we can to make our country safer 
and our society more civil. I am hopeful that some of the 
testimony we will hear today will shed light on a subject that 
has generated so much heat.
    Let me say as well, before we go to our first panel, this 
has been an area of inquiry by the U.S. Senate for over a year, 
and we have been concerned that we have not had the depth of 
study on the impact of interactive violent games. There has 
been a thought that these have an impact. There has been a 
concern, a feeling that this is what is happening, but we did 
not have the studies.
    Today we will hear from a number of experts who are 
studying this issue, and look at the central issue of how does 
this impact a child? What does playing all of these violent, 
interactive games do to a child? What does it do to a child if 
they're playing a game where they commit mass murder, carnage 
on the road, and are rewarded points for shooting scantily clad 
prostitutes? What does it do to a child?
    That is going to be the central question we are asking. We 
hope to receive answers from today's hearing, and I am deeply 
troubled that the industry is not here to say, yes, we have 
studied this, and here is the impact. Rather, they seem more 
concerned just about profitability than how their products 
affect our children. I call on the industry to come forward and 
answer these questions. Tell us. Tell us what the impact is. If 
there is no impact, tell us that, and that you have studied 
this and that you know that to be the case, but do not just 
hide.
    [The prepared statement of Senator Brownback follows:]

   Prepared Statement of Hon. Sam Brownback, U.S. Senator from Kansas
    Good morning. I want to thank my friend and Commerce Committee 
Chairman John McCain for agreeing to hold this hearing, and for 
offering a forum to discuss what has become an important public issue.
    We are privileged to hear from a most distinguished panel of 
witnesses today. I appreciate your presence here.
    But I think it is also important to note who is NOT here today. In 
putting together this hearing, we invited a wide variety of video, PC 
and arcade industry executives to testify. We invited the leaders of 
their trade associations to testify. And when each of them claimed to 
have a terribly important meeting at this exact time, we extended the 
invitation to any member of their company who could represent them. And 
still, in every single case, we were refused.
    It is disappointing that the executives at Sega, Hasbro, Hasbro 
Interactive, Nintendo, ID Software, Midway Games, the Video Software 
Dealers Association, the American Amusement Machine Association, and 
the Interactive Digital Software Association could not be here today. 
All them represent powerful and profitable communications companies. 
But none of them apparently felt they needed to communicate with the 
United States Senate. Nor is this the first time that some of these 
companies have refused an invitation to testify. This is a shame, but 
more than that, it is shameful. It shows contempt for Congress. It 
cannot continue.
    We are here today to discuss the potential impact of an 
increasingly powerful entertainment medium. Over the past several 
years, the video, PC, Internet and arcade industry has dramatically 
increased in terms of profitability and pervasiveness. Video games are 
no longer relegated to a corner of the pizza parlor; they are now the 
basis of movies, the inspiration for numerous toys, costumes, 
magazines, and electronic spin-offs; and are found in an increasing 
number of homes.
    A few months ago, a study was released by the Annenberg Institute 
of the University of Pennsylvania which found that the average child in 
America spends more than four and a half hours a day in front of a 
screen--watching TV, playing video and PC games, and surfing the 
internet. Kids spend more time staring at a screen than they do in 
school, or with their parents--which means that what they watch, and 
what they play, can have a profound influence on their young minds, and 
young lives.
    When it comes to violent television and movies, literally thousands 
of studies have pointed to a negative link between watching violence 
and anti-social behavior, responses and attitudes. But despite the 
skyrocketing popularity and profitability of violent video games, the 
impact and influence of these games has largely escaped public and 
parental attention.
    Of course, the majority of video and PC games produced are non-
violent. Many are educational, as well as entertaining. Some teachers 
have praised certain games for their effectiveness in teaching math and 
motor skills. But there are many games, sold in toy stores across the 
country, advertised in venues accessible to children, and demonstrably 
popular among young people, which celebrate killing, carnage, and 
cruelty.
    Consider just a few examples:

        <bullet> The highly popular game ``Duke Nukem'' combines the 
        graphic killing of aliens with images of scantily clad women. 
        Advanced players get to murder naked female prostitutes, some 
        of whom are tied to posts and beg the player to kill them.
        <bullet> The games ``Carmageddon'' and ``Twisted Metal'' cast 
        the player as a deranged motorist, whose aim is to run over as 
        many pedestrians and other drivers as possible. The more 
        bystanders you kill, the higher your score.
        <bullet> In ``Grand Theft Auto 2,'' players can engage in 
        drive-by shootings, drug dealing, and car theft as they 
        simulate gangster activity.

    These may seem over the top, but they are actually among the more 
popular games around. In fact, one survey of fourth-to-eighth graders 
found that almost half the kids said their favorite electronic games 
involved violence.
    Defenders of these games say that they are mere fantasy, and 
harmless role-playing. But is it really the best thing for our children 
to play the role of a murderous psychopath? Is it all just good fun to 
positively reinforce virtual slaughter? Is it truly harmless to 
simulate mass murder?
    That's part of what this hearing is about. We want to take a hard 
look at these products, and their impact. If a typical child spends up 
to an hour a day playing video and PC games, it simply stands to reason 
that these experiences will have some impact on their thoughts and 
feelings. It is simply part of human nature that what we experience 
affects our attitudes and assumptions, and thus, our decisions and 
behavior. The way in which they affect us is bound to be complex and 
variable. But we need to start asking questions, and getting answers.
    Raising children is a precious duty and a precarious task. It 
requires nurture, sacrifice, and lots of love, time, and attention. But 
even the most devoted parents may find it impossible to always know 
what their child is playing, or to shield their child from images and 
messages that surround them at school, at the mall, at a friend's 
house, or at an arcade. Many devoted, loving parents may not know about 
the messages of these games. They may not know that their children can 
participate in murder simulations at the local arcade. And even if they 
do know, they cannot always shield them from harmful influences. We can 
no more shield our children from a polluted culture than we can shield 
them from polluted air.
    Parents of course have primary responsibility to protect, raise and 
care for their children. But that doesn't mean that companies have 
carte blanche to confuse and corrupt them. We all have a role to play 
in protecting and caring for children, and in doing what we can to make 
our country safer and our society more civil. I am hopeful that some of 
the testimony we will hear today will shed light on a subject that has 
generated so much heat.
    video, pc and arcade game industry executives invited to testify
Mr. Minoru Arakawa, President of Nintendo of North America, Nintendo of 
    America, Incorporated
Mr. Masahiro Aozono, Chief Executive Officer and Mr. Toshiro Kezuka, 
    Chief Operating Officer (U.S.), Sega of America, Incorporated
Mr. Neil Nicastro, President and Chief Executive Officer, Midway Games, 
    Incorporated
Mr. Tom Dusenberry, President and Chief Executive Officer, Hasbro 
    Interactive
Mr. Todd Hollenshead, Chief Executive Officer, Id Software, 
    Incorporated
Mr. Alan Hassenfeld, Chief Executive Officer and Chairman, Hasbro, 
    Incorporated
Mr. Doug Lowenstein, President, Interactive Digital Software 
    Association
Mr. Bo Anderson, President, Video Software Dealers Association
Mr. Robert Fay, President, American Amusement Machine Association

    Senator Brownback. Our first panel includes Dr. David 
Walsh, who is president of the National Institute on Media and 
the Family. He has done studies and is an expert on this topic. 
Mrs. Sabrina Steger is here with us as well, from Paducah, 
Kentucky. She had a child killed in a terrible tragedy that 
happened there. And we have a teenage expert with us, Danielle 
Shimotakahara from North Bend, Oregon, who is doing her own 
work to try to improve the situation, the plight of children 
and their education and their entertainment.
    We will open the panel up, Dr. Walsh, and go to you first, 
and we look forward to your testimony.

       STATEMENT OF DR. DAVID WALSH, PRESIDENT, NATIONAL 
        INSTITUTE ON MEDIA AND THE FAMILY, MINNEAPOLIS, 
                           MINNESOTA

    Dr. Walsh. Senator, before we begin testimony, we do have a 
couple of minutes of video clips, so that we have examples of 
the games that we are talking about that are of concern. I 
apologize in advance if some of these images are very 
offensive, because I think they are, so we are doing it so that 
people can see. One of the things in my testimony we will talk 
about is the knowledge gap, and we are trying to reduce the 
knowledge gap. The other thing is that you will see the advance 
in the technology.
    The first game is the one you mentioned, Duke Nukem. That 
is about 3 or 4 years old. The two other games, from which 
there are short, 1-minute clips, are Quake and Unreal. Quake is 
a game that also the player can put skins on. What that means 
is that the player can digitally superimpose images of people 
that they know, or places that are real places, into the game 
to customize it for their own use.
    [A video demonstration was played.]
    We actually made some attempts on Sunday, as we were 
putting this together, to superimpose some images, but we did 
not complete, so I am not sure exactly how much we did get 
done, but we were going to try to customize it and then just 
ran out of time before I had to come to Washington.
    If I can just make one comment, or two comments, Senator, 
that is, a 12-year-old child can walk into almost any store in 
the United States and buy one of those games.
    Senator Brownback. Any of those you displayed?
    Dr. Walsh. Yes. We have actually had kids do it. In very 
few stores would they have any trouble buying those games.
    Then the other point that I would like to make is that we 
watched that for a little over 3 minutes. Kids play these games 
for hours and hours.
    Senator Brownback. Please go ahead.
    Dr. Walsh. Computer and video games are the fastest-growing 
form of media in the lives of young people in the United 
States, especially boys. They are also the fastest-changing. 
The processing power of video game platforms has increased an 
astonishing 188-fold in the past 7 months alone. The goal of a 
virtual reality experience is right around the corner.
    Most producers of these games are using the technology 
positively to bring games to market that engage, challenge, and 
entertain. There is a sizable segment of the game industry, 
however, that produces games like we saw today that feature and 
glorify violence and antisocial behavior. In this segment, the 
``kill for fun murder simulators,'' that is the focus of 
concern.
    My comments are about these violent video games, not video 
games in general, and I would like to both share data that we 
have just completed and researched at the National Institute on 
Media and the Family, and then also make some comments putting 
the research in a larger context. We are releasing to you and 
to your fellow Senators today extensive data in written form, 
and I would like to just highlight some of the findings that we 
have just released.
    Many millions of teens are playing games, 84 percent 
overall. 92 percent of boys now play. They are spending more 
time playing games. Boys now average 10 hours a week. At-risk 
teenage boys spend 60 percent more time playing games, and they 
prefer the more violent games, than their other peers.
    The more time spent playing electronic games, the lower the 
school performance. Teens who play violent games do worse in 
school than teens who do not. Youth who prefer violent video 
games are more likely to get into arguments with their 
teachers, and are more likely to get into physical fist fights, 
whether they are boys or girls.
    The knowledge gap between youth and parents about games is 
enormous. Only 15 percent of the teens told us that they think 
that their parents know about the ratings. Only 2 percent said 
that their parents routinely check ratings. Eighteen percent of 
the boys, almost 1 in 5, reported to us that their parents 
would be upset if they knew what games they were playing.
    In terms of the larger context, Senator, next month we will 
observe the anniversary of the tragic murders at Columbine High 
School, and once again as a Nation we will be confronting the 
question, how could this have happened?
    As we try to sort this out, I believe that we should 
address the major role that media plays in shaping today's 
youth culture. By saying that, I am not suggesting that video 
and computer games directly caused the murderous rampage. I do 
not believe that it was their favored game, Doom, that led them 
to load up their guns. I do believe, however, that media shape 
the norms, and the norms shape the extremes.
    I doubt that anyone would argue against the statement that 
what happened at Columbine High School last April 20 was 
extreme. Unfortunately, there have always been, and there 
always will be, youth who are drawn to extreme behavior, but 
what qualifies as extreme depends on what's normal. If the 
entire norm changes, then the extremes change with it. If the 
norm is respect, then extreme might be a punch in the nose, but 
when the norm is already in-your-face, then the extremes get 
very, very tragic, and that is where media comes in.
    I believe that whoever tells the stories defines the 
culture. That is not new. It has been true for thousands of 
years. What is new is that during the 20th Century we have 
delegated more and more of the story-telling to mass media. 
Computer and video games have become very influential story-
tellers for this generation of children and youth.
    As I said earlier, most game producers take the story-
telling part to new heights. Others, however, do not. They 
specialize in dishing out heaping servings of violence, mayhem, 
and sexual degradation. Today, the average American child will 
see over 200 violent acts of television alone by the time high 
school graduation rolls around, and we have no idea how many 
simulated murders they will have participated in if they are 
playing video games like the three that we just saw.
    While the research linking electronic games with attitudes 
and behavior is in the early stages, the research on other 
forms of media is so overwhelming that few researchers even 
bother to dispute that screen bloodshed has an effect on the 
kids watching it.
    What do we think the effect of a steady diet of violent 
video games like Soldier of Fortune could be? Last week, a 15-
year-old boy sent to me, and I did not ask him to do this, sent 
to me an ad for Soldier of Fortune, a new game. Some of the 
copy reads, ``Each gore zone gets a different reaction to keep 
you from getting bored.'' In my judgment, the most insidious 
effect of a diet of this kind of media is not so much the 
violent behavior, but, rather, the culture of disrespect that 
it engenders.
    For every Eric Harris, Dillon Klebold, or Michael Carneal, 
there are millions of other kids who are not murdering their 
classmates, but they are putting each other down, pushing, 
shoving, and hitting with increasing frequency all the time. 
Games like these are redefining how it is that we are supposed 
to treat one another, from ``Have a nice day'' to ``Make my 
day.'' Too many of our kids are picking up the kinds of 
messages contained in the final line of the Soldier of Fortune 
ad, ``Now the only question is where your next target gets it 
first.''
    A Cree Indian elder said many years ago, children are the 
purpose of life. We were once children, and someone took care 
of us. Now it is our turn to care. We all, media leaders, game 
producers, and parents, have to do a lot better job of caring.
    Thank you.
    [The prepared statement of Dr. Walsh follows:]

Prepared Statement of Dr. David Walsh, President, National Institute on 
              Media and the Family, Minneapolis, Minnesota
Background
    Concern about video game violence is not new. There were calls to 
ban violent games as early as 1976 when Death Race, often acknowledged 
as the first violent video game, appeared on the market. Of course, the 
violence in Death Race seems tame in comparison with today's ``first 
person shooters.'' As technology advances, each generation of violent 
games became more graphic and extreme. The processing power of video 
game platforms has increased an astonishing 188 fold in the past seven 
months. The goal of creating virtual experiences draws ever closer. The 
addition of sexual material and crude language raises additional 
worries.
    As the annual report cards issued by the National Institute on 
Media and the Family have shown, the most violent games still find 
their way into the hands of millions of children and teens. Since these 
games have become implicated in the string of recent school shootings, 
concern has reached new heights. This testimony brings together some of 
the findings from research to determine if these concerns are 
justified. In addition it provides findings from ongoing research being 
conducted at the National Institute on Media and the Family.
Review of Research Literature
    The first thing we learn from the research is that it is the 
younger children who spend the most time playing games. According to 
one study, the time spent playing video and computer games peaks 
between the ages of eight and thirteen (Roberts, 1999). A study we 
completed at the National Institute on Media and the Family found a 
similar pattern with game playing time peaking between eight and 
fifteen (Gentile and Walsh, 1999). We also know that youth, especially 
boys, gravitate to the ``action games,'' which include the ``first 
person shooters.'' In one study 50% of boys listed violent games as 
their favorites (Buchman and Funk, 1996). A growing number of children 
and teens now have the technological skills to customize the computer 
games. A recent development is putting ``skins'' on the characters in 
the games. This means that the player can insert the images of real 
people and places thereby making the games even more realistic.
    Many pre-teens and young teenagers therefore spend a significant 
amount of time playing electronic games, with a preference for the 
violent ones. We also know that they have easy and frequent access to 
increasingly violent and realistic games. The next important question 
is, of course, ``What are the effects of this?'' Because the ultra-
violent games are relatively new, the research literature is just 
beginning to accumulate. Research findings appearing in the 1980s and 
early 1990s are irrelevant because those studies did not include the 
types of violent games that have proliferated in the past six or seven 
years. For the last few years most experts have pointed to the vast 
body of research on television violence. That research clearly shows 
that a heavy exposure causes negative effects on children (Walsh, 
Brown, and Goldman, 1996).
    Because there has been so little relevant research specifically 
focusing on electronic games, some state that there is no demonstration 
of harm to children. That, of course, was the same argument used to 
defend television violence for more than three decades. It was only 
after many years of research that that argument was abandoned. That 
argument, however, will become harder to maintain with regard to 
electronic games, because some important research findings are starting 
to appear that support the contention that the violence in computer and 
video games may indeed have a harmful effect.
    I would like to highlight the findings of two research projects 
that found similar results independently. The first project was done by 
our collaborator Paul Lynch at the University of Oklahoma Medical 
School. Lynch has been studying the physiological reactions of 
teenagers to video games for ten years. He found that violent video 
games caused much greater physiological changes than non-violent games. 
The changes were found for heart rate and blood pressure as well as the 
aggression-related hormones, adrenaline, noradrenaline, and 
testosterone. A very important finding in Lynch's research is that the 
effect was much greater for males who pretested high on measures of 
anger and hostility. In other words, the violent games do not seem to 
affect everyone the same. Angry youth react much more strongly to 
violent video games than do more easy-going kids (Lynch, 1999).
    This finding was confirmed in a sophisticated research project 
completed by Craig Anderson of Iowa State University and Karen Dill of 
Lenoir-Rhyne College. In my judgement, Anderson and Dill have executed 
the best study of video game violence to date. It will be published in 
its entirety in a forthcoming issue of the Journal of Personality and 
Social Psychology. They conducted two separate studies, one of which 
was an experiment.
    In the first study they found a positive correlation between real-
life aggressive behavior and violent video game play. In addition, they 
discovered that violent video game play was correlated with 
delinquency. Like Lynch, they also found that the correlation was much 
stronger for individuals who are characteristically aggressive. It is 
also noteworthy that Anderson and Dill found that the college students 
who spent the most time playing video games had the lowest grade point 
averages.
    Correlational studies are important but do not establish a causal 
link. It could be that aggressive people who get into more trouble 
prefer violent video games. To begin to address the causal question, 
the two researchers designed an experiment. They used games of the same 
difficulty thereby ruling out frustration as a reason for aggression 
that might result from playing a violent game. Those students randomly 
assigned to play a violent game showed increases in aggressive thoughts 
and aggressive behavior. The students assigned to a non-violent game 
did not.
National Institute on Media and the Family Study on Computer and Video 
        Games--Preliminary Results
    Douglas Gentile, Ph.D., Director of Research at the National 
Institute on Media and the Family in collaboration with Paul Lynch of 
the University of Oklahoma and myself have designed a program of 
research to determine the effects of video and computer games on 
children and teens. While the program of research will take a number of 
years and sufficient funding to complete, I am able to report 
preliminary findings in this testimony.
    These results are based on responses to a survey administered to 
137 teens in grades 8-12 in a large suburban school district near a 
large midwestern city. 94 were students in general classes. 43 were 
students in a special program for ``at risk students.''
Electronic Game Habits
<bullet> 84% of teens overall play electronic games. 92% of boys play 
    games.
<bullet> The average teen plays video games for 1 hour at a sitting 
    (does not include teens who don't play).
<bullet> Among boys only, the average length of game play at one 
    sitting is 84 minutes (almost 1\1/2\ hours).
<bullet> 25% of teens who play games say they understand all of the 
    ESRB ratings, with an additional 29% saying they understand some of 
    them.
<bullet> Only 15% of teens say that their parents understand the ESRB 
    ratings.
<bullet> 90% of teens say their parents ``never'' check the ratings 
    before allowing them to buy or rent video games (another 8 percent 
    say their parents ``rarely'' check the ratings).
<bullet> Only 1 percent of teens who play games say their parents have 
    ever kept them from getting a game because of its rating.
<bullet> Only 56% of teens who own their own games say that their 
    parents know all of the games they own. Only 46% of boys who own 
    their own games say that their parents know all of the games they 
    own.
<bullet> 14% of teens (18% of boys) who own their own games say they 
    have games their parents wouldn't approve of if they knew what was 
    in them.
<bullet> 32% of boys who play video games download video games from the 
    Internet.
<bullet> 25% of teens (41% of boys) say they have played so much that 
    it interferes with their homework.
<bullet> 13% of teens (21% of boys) say they have done poorly on a 
    school assignment or test because they spent too much time playing 
    video games.
<bullet> 89% of teens (91% of boys) say that their parents ``never'' 
    put limits on how much time they are allowed to play video games.
<bullet> 42% of teens (52% of boys) say that they sometimes try to 
    limit their own playing, but only 70% of them (67% of boys) are 
    successful in limiting their own playing.
<bullet> The average teen likes a moderate amount of violence in their 
    video games (median = 5 on a scale of 1 to 10). Among boys only, 
    the average teen likes a fair amount of violence in their games 
    (median = 7 on a scale of 1 to 10).
<bullet> Over three-quarters (77%) of boys who play video games at 
    least ``sometimes'' customize the video games they play.
<bullet> 41% of boys at least ``sometimes'' visit game sites on the 
    Internet, and 32% of boys at least ``sometimes'' play video games 
    over the Internet.
<bullet> 15% of teens (29% of boys) say they have felt like they were 
    addicted to video games.
<bullet> Among boys only, teens spend an average of 19 hours/week 
    watching TV, 10 hours/week playing video games (includes teens who 
    play zero hours), 18 hours/week listening to music, and 1 hour/week 
    reading for pleasure. (When teens who never play are removed, the 
    average time/week playing video games is 11 hours.)
<bullet> Among at-risk boys only, teens spend an average of 25 hours/
    week watching TV, 16 hours/week playing video games (includes teens 
    who play zero hours), 19 hours/week listening to music, and 
    slightly more than 2 hours/week reading for pleasure (138 minutes). 
    (When teens who never play are removed, the average time/week 
    playing video games is 16\1/4\ hours.)
<bullet> Boys expose themselves to more video game violence than girls, 
    and at-risk teens expose themselves to more video game violence 
    than general students (defined from violence levels of 3 favorite 
    games and frequency of playing each--based on Anderson & Dill 
    approach).
Effects: School Performance
<bullet> Amount of time playing video games has a negative impact on 
    school performance, by many different measures: Teens who play more 
    each week, play more yearly, and have played more over their 
    lifetimes perform more poorly in school (as self-reported) than 
    teens who play less.
<bullet> Teens who say they like to have more violence in their games 
    perform more poorly in school than teens who like less violence.
<bullet> Teens who named more violent games as their favorite three 
    games perform more poorly in school than teens who named less 
    violent games as their favorites.
<bullet> Teens who expose themselves to more violence in video games 
    perform more poorly in school than teens who expose themselves to 
    less violence in video games.
Effects: Arguments with Teachers
<bullet> Teens who prefer more violence in their video games get into 
    arguments with their teachers more frequently than teens who prefer 
    less violence in their video games.
<bullet> Teens who expose themselves to more violence in video games 
    argue more frequently with their teachers than teens who expose 
    themselves to less violence in video games.
Effects: Physical Fights
<bullet> Amount of time playing video games is positively correlated 
    with getting into physical fights, by many different measures: 
    Teens who play more each week, play more yearly, and have played 
    more over their lifetimes are more likely to have gotten into a 
    fight in the past year than teens who play less.
<bullet> Similarly, teens who say they are more familiar with video 
    games are more likely to have gotten into a fight in the past year 
    than teens who are less familiar with video games.
<bullet> Teens who prefer more violence in their video games are more 
    likely to have gotten into a physical fight in the past year than 
    teens who prefer less violence in their video games.
<bullet> Teens who named more violent games as their favorite three 
    games are more likely to have gotten into a physical fight in the 
    past year than teens who named less violent games as their 
    favorites.
<bullet> Teens who expose themselves to more violence in video games 
    are more likely to have gotten into a physical fight in the past 
    year than teens who expose themselves to less violence in video 
    games.
Significant Differences between General and At-Risk Teens
<bullet> At-risk teens perform more poorly in school.
<bullet> At-risk teens name more violent games as their three favorite 
    video games.
<bullet> At-risk teens get into arguments with parents, peers, and 
    teachers more frequently than general teens.
<bullet> Among boys only, at-risk boys are less likely to say they 
    usually feel ``positive'' after playing video games.
Some Significant Differences between Boys and Girls
<bullet> Boys are more familiar with video games than girls.
<bullet> Boys play more frequently than girls.
<bullet> Boys are more likely to own their own games than girls.
<bullet> Boys play longer at each sitting than girls (means = 84 and 40 
    minutes, respectively).
<bullet> Boys like more violence in their video games than girls.
<bullet> Boys play more each week than girls (means = 10 and 3 hours, 
    respectively).
<bullet> Boys name more violent games as their three favorite games 
    than girls.
<bullet> Boys expose themselves to more video game violence than girls.

    These sample sizes provide data accurate to <plus-minus>10% when 
generalizing to general populations of teens, and to <plus-minus>17% 
when generalizing to at-risk populations of teens.
    Additional studies will need to be completed before we can claim 
that there is a demonstrated cause effect relationship between video 
game violence and real life aggression. However, the recent research 
developments show that the concern about the impact of violent video 
games is justified. It should act as a spur for both more research and 
for greater vigilance over the video and computer game diet of children 
and youth.

    Senator Brownback. Could you hold that ad up again? Could 
you explain it?
    Dr. Walsh. That is an advertisement for a new game which 
was just released called ``Soldier of Fortune,'' and the torso 
is divided up into different segments called gore areas, gore 
regions, and it is to keep the player from getting bored. When 
you hit the different areas, then different things happen.
    The other reason I brought this is that the industry 
announced last fall that they were implementing an advertising 
code of conduct and would be cracking down on advertising which 
is inappropriate. I would submit that this is inappropriate in 
gaming magazines that kids subscribe to.
    Senator Brownback. I would, too. Thank you very much for 
your testimony, and I will look forward to asking some 
questions I have for you.
    We will next go to Mrs. Sabrina Steger. We are pleased you 
are willing to come and share your testimony with us. Mrs. 
Steger, the floor is yours.

  STATEMENT OF MRS. SABRINA STEGER, PEDIATRICS NURSE, LOURDES 
                  HOSPITAL, PADUCAH, KENTUCKY

    Mrs. Steger. I am the person that you do not want to be. I 
live a parent's worst nightmare. The nightmare does not go 
away, and the saying that time heals all wounds is greatly 
overrated. I looked into a casket and saw my little girl. There 
are no words to describe how it feels. Nothing looks the same 
or feels the same after seeing your own child lying in a 
casket.
    On December 1, 1997, the 14-year-old boy took the sum total 
of influence on his life and five guns into Heath High School. 
After watching students pray, he opened fire on them. Kayce, 
Jessica, and Nicole died that day. So did this country's belief 
that schools are a safe haven for our students.
    When I learned that my daughter, Kayce, might be involved, 
I rushed back to the hospital that I worked at for 20 years. As 
I approached the emergency room, arms held me back. Every time 
I tried to get close to Kayce, arms stopped me. Those arms were 
connected to familiar-sounding voices, but they were trying to 
stop me from doing the only thing that mattered, getting to my 
little girl. I still have nightmares about those arms.
    I am here today to ask you not to be an arm, an obstacle 
that makes it harder for parents to protect their children. We 
believe that the Heath shooter was influenced by the movies he 
watched, the video games he played, and the Internet sites he 
accessed. Video games are a common form of entertainment, and 
more and more often they are violent. Even before Kayce was 
killed, my kids did not play violent games, but I did not know 
how big the monster was.
    Despite what some parents think, these are not the games 
that we played. Today's games are so sophisticated that some 
even have recoil after a shot is fired. They are so real, the 
military uses them to train soldiers. But the soldiers are 
adults, and the simulations are carefully monitored. Yet the 
video games are as effective as the simulators. Just how 
deadly? The Heath shooter, despite practicing only once before 
the murders, did not miss a shot.
    The recent Diallo case involved police firing 41 rounds and 
hitting the man 19 times. Less than half the shots fired by 
trained policemen hit their target, but 100 percent of those 
fired by teenagers hit students in the kill zone, one shot per 
victim. He did not shoot until they fell. He had learned his 
games very well.
    My son Dustin was 9 years old when his sister was killed. 
He was at the hospital when she arrived, and he watched the 
paramedics take her off the ambulance doing CPR. He saw her 
lying lifeless on the stretcher. He looked at his parents, the 
ones who could not protect Kayce, and wondered if they could 
take care of him. He and his sister, Becky, saw their home 
change from one of laughter to one of tears. They saw their own 
childhoods end that day. Their lives and futures were forever 
changed the second the killer decided to pull the trigger.
    Dustin has a PlayStation, and he enjoyed racing and sports 
games. He wanted a skate-boarding game for a long time, but was 
disappointed when he got it. The tricks are ``sweet.'' For 
anyone without children, that means real good. But every time 
the skate-boarder falls, blood squirts. Dustin does not want to 
see the blood, but it cannot be turned off. My son does not 
have the choice of playing a game the way he wants to, without 
gore.
    Some ask if video games have that much influence. The 
advertising industry is built on 30 to 60-second spots that 
influence what soft drink or car we buy, or what candidate we 
vote for. How, then, can we deny that hours of repetitive video 
play does not have a gargantuan effect on impressionable 
children and adolescents?
    For months after Kayce died, I was in denial. My head knew 
she was dead, but my heart believed she would walk through the 
back door again. Denying the truth does not change the truth. 
As a nurse, I am in the business of recognizing signs of 
illness and promoting healing, and I see an America addicted to 
violence and in denial of that addiction. It permeates our 
homes, playgrounds, and schools. We try to tell ourselves that 
it is somebody else's problem, an isolated instance. Well, my 
isolated instance was 15 years old, with cute little dimples, 
and the dream of becoming a police officer. She had a heart, a 
soul, a face, and a name, Kayce Michelle Steger.
    Numbness helped me get through the first months after Kayce 
died, and frankly there are still times when I wish for the 
buffering numbness to protect me from the horrors of reality. 
Numbness helps me to function on a bad day. But when America is 
numb, more children die. Numbness prevents dealing with an 
issue. With violent video games, time is life.
    Studies show that one of the most common effects of violent 
interactive games is desensitization, a type of numbing. The 
studies since the 1960's show that children are affected both 
physically and emotionally by the violence. One recent study 
shows differences measured by scanners and the brain wave after 
exposure to violence. In these games violence is sterile, 
acceptable, and even desirable. Blood on the screen has no 
odor. It cannot be touched. Screams are controlled by the 
volume button, and slaughter by the on-off button. Too often, 
the volume is on high. Death is repeated each time the restart 
button is touched.
    My daughter's killer, who played ``Doom'' and ``Mortal 
Kombat,'' planned for months to take over the school. He 
dreamed of being in control at the loss of his classmates, and 
he intended to return to school the next day and be admired for 
his bravery. The game industry knows how to make cheap, easily 
produced, first-person games, and they market to kids who 
sometimes feel vulnerable during a time of many physical and 
emotional changes. The games promise them power and control. 
That is as intoxicating to some as drugs or alcohol.
    The industry also knows how to make a new, safer game, but 
it costs more to produce and market. It is time for a new 
generation of games that place value on human life. The United 
States is committed to the right to free enterprise, and I say 
bravo, and I say just as strongly hear, hear to the notion that 
with rights come responsibilities.
    We are suing the makers of the violent video games that so 
profoundly influenced Kayce, Nicole, and Jessica's killer. Our 
lawsuit is not about free speech. It is about product 
liability, plain and simple. Any person or company that makes a 
product is responsible for the harm that comes from its use. 
The same standards hold true if the product influences a person 
to harm himself or others. Car-makers like to make cars safer 
partly due to product liability cases. Let them make games 
however they wish, but when they do the equivalent of falsely 
yelling fire in a crowded movie theater, they have to accept 
the moral and legal obligations for their irresponsibility. 
Sometimes, the best way to make a company understand safety and 
responsibility is through their pocket-books.
    A few weeks after Kayce was killed, someone suggested we 
should quit talking about the murders, forget about the 
lawsuit, and get back to normal. It is normal for us to have 
three children at the dinner table, but there are only two. 
When my husband and I should have been discussing college 
choices for Kayce, we were discussing tombstone choices. When 
my daughter Becky asked, mom, how do I be older than my big 
sister, I did not find any answer from Dr. Spock. The shooter 
took normal away from my family, as all shooters do with every 
victim of gun violence.
    The person who wanted us to get back to normal was saying 
that we made him uncomfortable by reminding him of something 
bad. Video game makers want us to go away, too. They do not 
want us to demand changes that might affect their bottom line. 
They do not want us to make the world better. But our children 
are worth it.
    I live with the fact that I was powerless to prevent 
Kayce's death that morning. I would be letting her down, making 
her death even more senseless, if I did not do whatever I could 
to try to prevent the death of another child.
    I may not have much power, but the U.S. Senate does. Please 
help us prevent the death of innocent children, the victims of 
killers influenced by violent video games. First, ban the sale 
of games rated for mature audiences to minors. Do not let them 
have such easy access. Next, fund a public awareness campaign 
to educate Americans about the dangers of these games. As the 
gentleman said, parents do not know how bad these games are.
    And finally, help us hold accountable the makers of these 
dangerous products. Let accountability stand in the courtroom, 
and not be abridged by favoritism in the back rooms. Ending 
violence is a public health and a civil rights struggle. It is 
time to leave the comfort and stupor of denial and open our 
arms to balancing rights with responsibilities, and remedying 
our horrible national addiction to violence.
    Thank you. This is why I am here [holding picture].
    [The prepared statement of Mrs. Steger follows:]

     Prepared Statement of Mrs. Sabrina Steger, Pediatrics Nurse, 
                  Lourdes Hospital, Paducah, Kentucky
    I am the person you do not want to be. I live a parent's worst 
nightmare. The nightmare does not go away and the saying that time 
heals all wounds is greatly overrated.
    On December 1, 1997 a fourteen-year-old boy took his thoughts and 
feelings, the sum total of the influences in his life, and five guns 
into Heath High School. After watching students pray, he opened fire on 
them. Kayce, Jessica, and Nicole died that day. So did this country's 
belief that schools are a safe haven for its students.
    When I found out that my daughter, Kayce, might have been involved, 
I rushed back to the hospital I've worked at for 20 years. I had just 
finished a midnight shift. As I approached the emergency room, there 
were arms holding me back.
    Every time I tried to get a little closer to Kayce, arms stopped 
me. Those arms were connected to familiar-sounding voices, but the arms 
were trying to hold me back from the only thing that mattered--getting 
to my little girl. I still have nightmares about those arms, those 
obstacles keeping me away from Kayce. I am here today to ask you to not 
be an arm, an obstacle, that makes it harder for parents to keep their 
children safe.
    We believe the Heath High School shooter was influenced by the 
movies he watched, the video games he played, and the Internet sites he 
accessed. With his easy access to guns, his violent urges were allowed 
to take on a life outside his own troubled mind.
    Video games are a common form of entertainment for many young 
people and more and more often the games are violent. Even before Kayce 
was killed, I did not allow my kids to play violent games, but I did 
not know how big the monster was. It isn't Pong or Pac-Man these kids 
are playing. Despite what some parents think, these are not the video 
games we played.
    Today's games are so sophisticated that some of them even have a 
recoil after a shot is fired. They are so real that the military uses 
them to train soldiers. But, the soldiers are adult men and women, not 
impressionable children. And, the simulations are carefully controlled 
and monitored, not played whether or not there is adult supervision.
    Yet, the video games are as effective as the simulators. Just how 
deadly are they? The Heath High School shooter did not miss one shot. 
From the criminal investigation, we know he practiced only one time 
with the gun prior to committing murder. A recent case in the news 
involved police officers firing 41 rounds and striking one man with 19 
shots. Less than half of the shots fired by trained policemen hit their 
target, but 100% of those fired by a teenager hit students in the kill 
zone, one shot per victim. He didn't shoot until they fell. He learned 
his game all too well.
    Statistically, the average twelve-year-old has seen 8000 murders. 
Today I am here to tell you about one murder that affected one family, 
my family. It is being lived out in different stages by the families of 
the 13 people killed by gun violence every day, 365 days of the year.
    My son Dustin was nine when his sister was gunned down. He was at 
the hospital when she arrived. He saw Kayce taken out of the ambulance 
with paramedics doing CPR on her. He saw her lying lifeless on a 
stretcher a little later. He looked at his parents, the ones who could 
not protect Kayce, and wondered if they could take care of him. He and 
his sister Becky saw their home change from a place of laughter to a 
place of tears. In so many ways, they saw their own childhoods end that 
day. No more innocence, no more carefree days--their lives and futures 
were forever changed the second that the killer decided to pull the 
trigger.
    There are plenty of kids, who like most adults, who do not want 
gratuitous violence in video games. My son has a Playstation and he 
enjoys racing and sports games. For a long time, he wanted a 
skateboarding game. He finally got it, but he was quickly disappointed. 
The tricks are ``sweet'' (for anyone without kids, that means real 
good), but every time the skateboarder falls blood squirts. Dustin does 
not want to see the blood, but there aren't any controls to stop it. My 
son who does not chose blood and guts does not have the choice to play 
the game the way he wants to. The game is very seldom played.
    Violent video games and movies desensitize users to the violence by 
making it sterile, acceptable and even desirable. Defilement and 
carnage all too prevalent on the silver screen is easily transferred to 
any home by video games seen through hand held screens, TV screens and 
computer monitors.
    Blood on the screen has no odor and it cannot be touched. Screams 
are controlled by the volume button, and slaughter by the on/off 
button. But, the button is too often ``on,'' the volume on high, and 
death repeated each time the restart button is touched.
    Some question if video games can have that much influence on young 
people. The entire advertising industry is built on the knowledge that 
30 to 60 second advertisements influence what soft drink or car we buy, 
and what candidate we vote for. How can we then deny that hours on end 
of repetitive video game violence does not have a gargantuan impact on 
impressionable children and adolescents?
    For months after Kayce died, I was in denial. My head knew she was 
dead, but my heart did not believe it. Part of me believed that she was 
going to walk through the back door again. I was going to hug her for a 
week and ground her for a month.
    As a nurse I am in the business of recognizing illness and injury 
and being proactive about healing. And, I see an America both addicted 
to violence and in denial about this addiction. It permeates our homes, 
playgrounds, and schools. We try to tell ourselves that its somebody 
else's problem, and isolated incidents. My isolated incident was 15 
years old with cute little dimples and the dream of becoming a police 
officer. She had a heart, a soul, a face, and a name, Kayce Michelle 
Steger.
    Numbness helped me get through the first months after Kayce died 
and frankly, there are still times when I wish for the numbness. It is 
a buffer; it protects our emotions from the horrors of reality. For me, 
numbness helps me to function during a bad day. For our country, 
numbness allows more children to die. When we are numb, we don't deal 
with the issue. With violent video games, time is life.
    Studies show that one of the most common effects of violent video 
is desensitization, a type of numbing affect. Scientific studies since 
the 1960s prove that kids are affected by the violence. One recent 
study even demonstrates a change in brain patterns measured by a 
scanner. My daughter's killer, who played Doom and Mortal Kombat, 
planned for months to take over the school. He dreamed of being in 
control of the lives of his classmates and he intended to return to the 
school the next day to be admired for his bravery.
    The game industry knows how to make games and they know kids. They 
know that some adolescents have feelings of being vulnerable during a 
time of many physical and emotional changes. The games promise them 
power and control that is as intoxicating to some kids as alcohol or 
drugs. And just like with alcohol or drugs, kids deny the effects it 
has on them.
    The game industry also knows how to make a better game. But new 
games that are safer for children to use cost more money to produce and 
market. The first-person shooter game is cheap and easy and there are 
thousands of young kids waiting for a new gun to blow away more 
victims. It is time for a new generation of games--a generation that 
places value on human life.
    As early as the 1960s we recognized the harmful effects of other 
adverse influences. So great was the public outcry against tobacco and 
alcohol it forced bans on TV advertising and limited availability of 
tobacco and alcohol products. It is time to raise our voices again.
    The United States is committed to the rights of free enterprise, 
and I say ``bravo.'' And, I say just as strongly ``here, here'' to the 
notion that with rights comes responsibilities. We are suing the makers 
of the violent video games that so profoundly influenced and warped 
Kayce's, Jessica's and Nicole's killer. Our lawsuit is not about free 
speech. It is about product liability. Plain and simple.
    Any person or company that makes a product is responsible for the 
harm that comes from the use of the product. The same standard holds 
true if the product influences a person to harm himself or others. Car 
makers learned to make safer cars partly as a result of product 
liability cases. The same product liability standards that apply to any 
other manufacturer are the standards we expect of those who produce 
violent entertainment.
    By holding entrepreneurs of violent entertainment to the these 
standards we are taking steps to keep us all safer. Let them make games 
as they wish. But, when they do the equivalent of falsely yelling 
``fire'' in a crowded movie theater, then they have to accept moral and 
legal responsibility for their irresponsibility. We do not ask them to 
conform to any standard of decency. We expect them to be accountable 
when their product cause harm to others. Sometimes, the best way to 
make a company understand safety and responsibility is through their 
pocketbooks.
    I looked into a casket and saw my little girl. There are no words 
that come close to describing how it feels. Before Kayce died, I was an 
Intensive Care Unit nurse, taking care of dying children. I tried to 
put myself in the parents' place as I cried with them when their 
child's heart wasn't beating any more. I thought I was as close as I 
could be without losing a child of my own. I know now that I wasn't 
even on the same planet. Nothing looks the same or feels the same after 
seeing your own child lying in a casket.
    A few months after Kayce was killed, someone suggested that we 
should quit talking about the murders and forget about any lawsuits and 
just get back to ``normal.'' It is normal for us to have three children 
at the dinner table, but there are only two. When my husband and I 
should have been discussing college choices for Kayce, we were 
discussing tombstone choices. When my daughter Becky asked, mom, how do 
I be older than my big sister. I didn't find any answer from Dr. Spock. 
The shooter took normal away from my family, and all shooters do with 
every victim of gun violence.
    The person who wanted us to get back to normal was saying that we 
upset him and made him uncomfortable by reminding him of something bad. 
Video game makers want us to go away too. They don't want us to speak 
out about the poison they put into children's minds. They don't want us 
to demand changes that might affect their pocketbooks. But all of our 
children are worth more than any bottom line. I live with the fact that 
I was powerless to prevent Kayce's death that morning. I would be 
letting her down, making her death more senseless if I didn't do 
whatever I could to try to prevent the death of another child.
    They say that losing a child is the ultimate tragedy. Its even 
worse when the senseless death of a child shows us nothing and allows 
the senseless death of another little girl and another little boy.
    I may not have much power, but the United States Senate does. Let 
accountability stand on its own merits in the court room, and not be 
abridged by favoritism in the back rooms. Please help us prevent the 
death of innocent children, the victims of killers influenced by 
violent video games.

        <bullet> First, ban the sale of these games to minors.
        <bullet> Next, fund a public awareness campaign to educate 
        Americans about the dangers of these games.
        <bullet> And finally, help us hold accountable the makers of 
        these dangerous products.

    Ending violence as we know it is both a public health and a civil 
rights struggle. It is time to leave the comfort and stupor of denial. 
It is time to heal, and in doing so, open our arms to balancing rights 
with responsibilities, and remedying our horrible national addiction to 
violence.

    Senator Brownback. Thank you for sharing that powerful 
testimony of a difficult situation for you and your family. We 
deeply appreciate your willingness to come here today and to 
share that with us.
    Our final witness on this panel is Miss Danielle 
Shimotakahara from North Bend, Oregon. Danielle is, I believe, 
12-years-old, and has started her own campaign dealing with 
violent video games. Danielle, we would love to have you 
testify. If you could get those microphones up right next to 
your mouth, it is pretty directional, so you need to talk right 
into it.

STATEMENT OF MISS DANIELLE SHIMOTAKAHARA, STUDENT, NORTH BEND, 
                             OREGON

    Miss Shimotakahara. On the day of the Columbine massacre in 
April 1999, I came home from school and told my mom about the 
graphically violent video games that are at pizza parlors, 
bowling alleys, skating rinks, and other places where kids hang 
out. I told her that I did not think that little kids should be 
playing them. I asked her what we could do to get rid of them.
    I felt that a petition signed by kids might influence 
businesses to move or replace them with nonviolent ones. I 
designed a petition to get rid of violent video games in places 
where children hang out. I brought my mom to see these games 
because she had never seen them. She was shocked. She helped me 
with the design for a petition. She helped me do research about 
violence in the media and on electronic games. I made a 
bibliography and put it with the petition.
    I think these types of games are disgusting. Kids as young 
as 3 years old can use mounted guns to shoot people to pieces 
and watch blood splatter on the screen. Kids get points for 
killing people. Parents eat pizza while their kids blow 
somebody up. I have friends who play them. Their eyes look 
crazy when they play them, and they get excited when the blood 
splatters and parts of bodies fly.
    On some machines they can make choices about what type of 
gun to use. I think it teaches kids bad things. Some older kids 
can get bad ideas from it, and little kids can have nightmares. 
I think it is important to keep these types of coin-operated 
video machines away from the eyes and hands of children. I do 
not think these games are entertainment. I do not think it is 
entertaining for a kid to eat pizza or a hot dog and watch 
someone kill someone on a gaming machine.
    These machines are almost everywhere that kids go. I think 
it is important to especially keep little kids away from them, 
because they do not know whether they are real or not. Little 
kids still believe in Santa Claus. Psychological research says 
that children under the age of 7 do not know the difference 
between fantasy and reality.
    I think it gives a message to older kids that it is okay to 
kill people. The killer is the hero even if he is killing 
policemen. Kids identify with the hero. Kids play them so many 
times they become desensitized to seeing blood or bodies 
exploding. The more people they explode, the more blood 
spattering they see in some games. They are also learning 
conditioning, when they shoot guns at people and get points for 
it.
    I think it is sad that they are laughing while they are 
doing it. The boy who did the killing in Arkansas a few years 
ago learned to shoot a gun by playing these types of games. He 
had excellent marksmanship. I think that it teaches some kids 
to be violent, and I think a few of those kids will think about 
acting it out on innocent people. Others actually might be 
influenced to do it. I think it is the same as selling alcohol, 
drugs, pornography, or tobacco to kids.
    These video machines are similar to the ones that are used 
to train police officers and the military. Parents are not 
always with older kids to see what they are playing, and so a 
lot of kids do not know, and I think they need to know. I 
became even more inspired later in May when I read that Disney 
removed its violent video games from its arcades, and my mother 
saved the article to show people.
    I think everyone needs to be educated on the potentially 
harmful effects of these machines on kids. Little kids get 
nightmares from playing these games. I had an educational table 
at Children's Health Carnival on March 10. One kid who was 
probably 8 or 9 says he likes playing these games, but he also 
gets nightmares from them.
    Violent blood-spattering gun-mounted coin-operated video 
games are almost everywhere young children go. I feel these 
machines are a bad influence on young children. Children climb 
on chairs or get on footstools to use them at pizza parlors, 
skating rinks, and movie theaters.
    Mom and I watched a 3-year-old girl splatter blood on one 
of these machines at a pizza parlor while the babysitter helped 
her balance on the footstool. She was holding a mounted gun, 
and when she missed the mother hollered from the table, ``Aim 
higher next time.'' I told my mom that the babysitter should be 
fired, and she said, ``I think the parent should be fired.'' We 
talked to the mom about how dangerous it is to expose little 
kids to this violence, and I think she understands now.
    I want people to learn and think about these machines. I 
know that a lot of parents did not even know that these types 
of games were being played by their kids until I started this 
petition. Parents do not go into the game room at pizza 
parlors. They just give out the quarters and eat their pizza 
with other parents. Every parent should go in the game room and 
check out what games are there. It makes you feel sick just to 
watch them. I get cards and letters and phone calls from 
parents telling me that they threw out violent software video 
games when they heard about my petition.
    The petition is not a valid petition because it contains 
the names of both children and adults. Some are 5 years old. 
They can hardly print. They print in very large letters. Their 
big printing makes an even bigger statement. I believe that 
this is our voice as children. There are 3,000 to 4,000 
signatures on the petition, and people and kids are still 
signing it. We are young, and we cannot vote, but we can 
express our opinions in this way.
    The project is going to continue for a long time, because 
it is really hard to convince some people about the dangers. 
Some will not even listen. Some parents do not think it is 
harmful for a child to make blood splatter and body parts 
explode. I do not understand why they think it is okay to do 
this killing.
    It takes a lot of time to make a change, and I discovered 
that some people can be very stubborn and refuse to listen when 
they are making a lot of money from something, even if that 
something is not a good thing. I learned that wording is 
important on a petition. The petition states, ``We are asking 
businesses to voluntarily remove these machines.'' Until a law 
is passed, a business needs to make its own decision.
    Teresa Sherwood, the owner of Dave's Pizza in North Bend, 
Oregon, said that she was having trouble getting the business 
that she leased her violent machines from to come and take it 
away. She said, ``I had to be persistent to get nonviolent 
ones. He said that he only had a few nonviolent ones and they 
were in other places.'' She said, ``After your petition came 
around, I got pushy. I told him my patience was gone and he had 
to come and get it. It sat there for a month unplugged before 
he came for it.''
    She said that she had not noticed any change in the amount 
of business that she gets since she took out the violent ones, 
and there are still lots of kids there. She said, ``The kids 
loved the new basketball one. They go crazy over it.'' Some 
business owners told me that they would lose money if they took 
them out, but her story proves otherwise.
    More parents now pay attention to the video games that 
their kids play. Some businesses moved them into an adult area 
or turned them off. One businessman said that he would not 
renew the lease for his machine. I think that all of society 
will benefit and the world will be a better place when these 
machines are not in places where kids go to eat and play.
    Some of these machines include Area 51, with two mounted 
guns, all the Mortal Kombat machines, where they use their 
fists to make body parts splatter, Police Trainer, where they 
use sniper rifles and two mounted guns and look through a 
scope, CarnEvil, that uses two mounted shotguns, and Silent 
Scope, where they use mounted sniper guns and sneak up on 
ordinary people and shoot them for no reason.
    I think that it would be a good idea for Senators to go to 
a place like an arcade or a pizza parlor and try out these 
machines so you know what they do. If you feel too embarrassed 
to go by yourself, offer to bring your teenager or a close 
friend's son or daughter to play or watch a violent video blood 
splatterer. You will see first-hand what it is all about.
    I took my petition to the Oregon State Senate, where 29 out 
of 30 Oregon State Senators signed it. Senator Veral Tarno 
invited me to the Senate, where I spoke to the Judiciary 
Committee. I presented the petition to city councils, churches, 
and civic officials. Resolutions were written and passed as a 
result. The Oregon-Idaho Conference of United Methodist 
Churches passed two resolutions, and one will go to the 
National Conference in Cleveland in June. Coos Bay passed 
Resolution 99-18. Oregon State Senator Veral Tarno is presently 
working on a draft for legislation regarding violent video 
gaming machines.
    My project involves other activities: an educational play 
on video game violence that I am going to work on with my 
church youth group, lapel buttons, and a Cool-No-Violence 
window/door sticker that I designed for businesses that do not 
allow children access to these types of machines. This sticker 
is like the No Smoking sticker, except it has a violent video 
game image on it and a slash across it with the words, Cool-No-
Violence, and C-NO-V. I designed it and Fran Holland, who is a 
local graphic artist, further developed it on her computer. I 
had a donation for a few tee-shirt transfers for the Cool-No-
Violence logo.
    It is a controversial issue. I have been called names. Some 
business owners got very angry. They said that they make money 
from these machines and they do not want to lose money. It is 
not an easy project. It is really hard to do, but I think it is 
important, and maybe there will be fewer kids thinking that 
they should kill somebody.
    I would tell other young people that it was a really good 
thing to do. If you feel something needs to be changed to make 
society safer and better, you can do it. It is a lot of hard 
work, but it pays off. Do not think just because you are young 
people will not listen to you. I discovered that adults do 
respect us as kids.
    I strongly feel that young children should not be exposed 
to these types of games, and that if a business wants to have 
them, they should put them in an area of their business that 
restricts access by young children to playing them, as well as 
seeing someone else play them.
    [The prepared statement of Miss Shimotakahara follows:]

      Prepared Statement of Miss Danielle Shimotakahara, Student, 
                           North Bend, Oregon
    My name is Danielle Shimotakahara and I am 12 years old.
    On the day of the Columbine massacre in April of 1999, I came home 
from school and told my Mom about the graphically violent video games 
that are at pizza parlors, bowling alleys, skating rinks and other 
places where kids hang out. I told her that I didn't think that little 
kids should be playing them. I asked her what we could do to get rid of 
them. I felt that a petition signed by kids might influence businesses 
to remove or replace them with nonviolent ones. I designed a petition 
to get rid of violent video games in places where children hang out. I 
brought my Mom to see these games, because she had never seen them. She 
was shocked. She helped me with the design for a petition. She helped 
me do research about violence in the media and in electronic games. I 
made a bibliography and I put it with the petition.
    I think these types of games are disgusting. Kids as young as three 
years old can use mounted guns to shoot people to pieces and watch 
blood splatter on the screen. Kids get points for killing people. 
Parents eat pizza while their kids blow somebody up. I have friends who 
play them. Their eyes look crazy when they play them and they get 
excited when the blood splatters and parts of bodies fly in pieces. On 
some machines, they can make choices about which type of gun to use. I 
think it teaches kids bad things. Some older kids can get bad ideas 
from it, and little kids can have nightmares. I think it is important 
to keep these types of killer coin-operated video machines away from 
the eyes and hands of children. I don't think these games are 
entertainment. I don't think it is entertaining for a kid to eat pizza 
or a hot dog and watch a person kill somebody on a gaming machine. 
These machines are almost everywhere that kids go. I think it is 
important to especially keep little kids away from them, because they 
don't know whether they are real or not real. Little kids still believe 
in Santa Claus. Psychological research says that children under the age 
of seven do not know the difference between fantasy and reality.
    I think it gives a message to older kids that it is O.K. to kill 
people. The killer is the hero, even if he is killing policemen. Kids 
identify with the hero. Kids play them so many times that they become 
desensitized to seeing blood or bodies exploding. The more people that 
they explode, the more blood splattering, they see in some games. They 
are also learning conditioning when they shoot guns at people and get 
points for it. I think it is sad that they are laughing while they are 
doing it. The boy who did the killing in Arkansas a few years ago 
learned to shoot a gun by playing these types of games. He had 
excellent marksmanship. I think that it teaches some kids to be 
violent, and I think a few of those kids will think about acting out 
that violence on innocent people. Others actually might be influenced 
to do it. I think it is the same as selling alcohol, drugs, 
pornography, or tobacco to kids.
    These video machines are similar to the ones that are used to train 
police officers and the military. Parents are not always with older 
kids to see what they are playing so a lot of parents don't know, and I 
think they need to know. I became even more inspired later in May when 
I read that Disney removed its violent video games from its arcades and 
my mother saved that article to show to people. I think everyone needs 
to be educated on the potentially harmful effects of these machines on 
kids. Little kids get nightmares from playing these games. I had an 
educational table at a Children's Health Carnival on March 10. One kid 
who was probably eight or nine says he likes playing these games, but 
he also said he got nightmares from them.
    Violent blood splattering gun mounted coin operated video games are 
almost everywhere young children go. I feel these machines are a bad 
influence on young children. Children climb onto chairs or get up on 
footstools to use them at pizza parlors, skating rinks, movie theaters. 
Mom and I watched a three year old girl splattering blood on one of 
these machines at a pizza parlor while the babysitter helped her 
balance on the footstool. She was holding a mounted gun, and when she 
missed, the mother hollered from the table, ``Aim higher next time.'' I 
told my Mom that the babysitter should be fired and she said, ``I think 
the parent should be fired.'' We talked to the Mom about how dangerous 
it is to expose little kids to this violence and I think she 
understands, now.
    I want people to learn and think about these machines. I know that 
a lot of parents didn't even know that these types of games were being 
played by their kids until I started this petition. Parents don't go in 
the game room at pizza parlors. They just give out the quarters and eat 
their pizza with other parents. Every parent should go in the game room 
and check out what games are there. It makes you feel sick just to 
watch them. I get cards and letters and phone calls from parents 
telling me that they threw out violent software video games when they 
heard about my petition.
    The petition is not a valid petition because it contains the names 
of both children and adults. Some are five years old. They can hardly 
print. They print in very large letters. Their big printing makes an 
even bigger statement. I believe that this is our voice as children. 
There are 3000-4000 signatures on the petition and people and kids are 
still signing it. We are young and we can't vote but we can express our 
opinions in this way.
    I discovered that a lot of kids that I thought were playing these 
games were surprisingly not playing them. One of those was a boy in my 
school, Jack Rabin, who later helped me do a presentation to a City 
Council meeting. I definitely learned not to judge people by what I had 
heard about them from others. You have to meet and talk with them, 
yourself. I realized that it is easier to prevent younger kids from 
playing these machines than it is teenagers, because teenagers have 
been playing them for a long time. I determined that parents have to be 
involved in what their kids are doing, and that kids need to have 
limits, even though we sometimes disagree.
    The project is going to continue for a long time, because it is 
really hard to convince some people about the dangers. Some won't even 
listen. Some parents don't think it is harmful for a child to make 
blood splatter and body parts explode. I don't understand why they 
think it is OK to do this killing. It takes a lot of time to make a 
change and I discovered that some people can be very stubborn and 
refuse to listen when they are making a lot of money from something, 
even if that something is not a good thing. I learned that wording is 
important on a petition. The petition states, ``we are voluntarily 
asking businesses to remove these machines.'' Until a law is passed, a 
business needs to make its own decision.
    Teresa Sherwood the owner of Dave's Pizza in North Bend, Oregon 
said that she was having trouble getting the business that she leased 
her violent machine from to come and take it away. She said, ``I had to 
be persistent to get nonviolent ones. He said that he only had a few 
nonviolent ones and they were in other places.'' She said, ``After your 
petition came around, I got pushy. I told him my patience was gone, and 
to come and get it. It sat there for a month unplugged, before he came 
for it.'' She said that she has not noticed any change in the amount of 
business that she gets since she took out the violent ones, and there 
are still lots of kids there. She said, ``The kids love the new 
basketball one. They go crazy over it.'' Some business owners told me 
that they would lose money if they took them out, but her story proves 
otherwise.
    More parents now pay attention to the video games that their kids 
play. Some businesses moved them to an adult area or turned them off. 
One business said that he would not renew the lease for his machine. I 
think that all of society will benefit and the world will be a better 
place when these machines are not in places where kids go to eat and 
play.
    Some of these machines include Area 51 with two mounted guns, all 
the Mortal Kombat machines where they use their fists to make body 
parts splatter, Police Trainer where they use sniper rifles and two 
mounted guns and look through a scope, Carnevil that uses two mounted 
shotguns, Silent Scope where they use mounted sniper guns and sneak up 
on ordinary people and shoot them for no reason. I think that it would 
be a good idea for Senators to go to a place like an arcade or a pizza 
parlor, etc. and try out these machines so you know what they do. If 
you feel too embarrassed to go by yourself, offer to bring your 
teenager or a close friend's son or daughter to play or watch a violent 
video blood splatterer. You will see first hand what it is all about.
    The project is still ongoing and I still have more educating to do. 
With the help of many organizations, I have been working with the 
Southwestern Oregon Medical Society Alliance to raise more than $8000 
to bring an internationally recognized speaker to the area to speak on 
this issue on April 24, 25, and 26. I will be appearing with this 
speaker as he does presentations at seven middle schools. He will also 
speak at parent, student, mental health professional, and police 
groups, and for the general public. The speaker will be Lt. Col. David 
Grossman, an expert on TV, movie and video game violence. I will answer 
questions on a radio call in show with him as well.
    I took my petition to the Oregon State Senate where 29 out of 30 
Oregon State Senators signed it. Senator Veral Tarno invited me to the 
Senate, where I spoke to the Judiciary Committee. I presented the 
petition to city councils, churches and civic officials. Resolutions 
were written and passed as a result. The Oregon-Idaho Conference of 
United Methodist Churches passed two resolutions and one will go to the 
National Conference in Cleveland in June. Coos Bay passed Resolution 
99-18. Oregon State Senator Veral Tarno is presently working on a draft 
for legislation regarding violent video gaming machines.
    My project involves other activities--an educational play on video 
game violence that I am going to work on with my church youth group, 
lapel buttons, and a Cool-No-Violence window/door sticker that I 
designed for businesses that do not allow children access to these 
types of machines. This sticker is like the No Smoking sticker except 
it has a violent video game image on it and a slash across it with the 
words, Cool-No-Violence and C-NO-V on it. I designed it and Fran 
Holland, who is a local graphic artist further developed it on her 
computer. I had a donation for a few tee-shirt transfers for the Cool-
No-Violence logo. I gave one to Bishop Paup at the church conference 
where there were more than 900 delegates. I read a quote from Martin 
Luther King Jr. about peaceful means to achieve peaceful ends. I have 
no more Tee-shirts but I will pay for the other materials by putting my 
clothing on consignment. A local business, concerned with the health of 
children, may sponsor the making of Tee-shirts that have this logo on 
them.
    The local newspaper in Coos Bay called The World, has been covering 
this peace project on the front page and a recent editorial discussed 
it. Education Week and Guideposts for Kids also interviewed me for an 
article. The Oregonian newspaper will have an article on it today, 
March 21.
    I just received the Prudential Spirit of the Community Award as the 
top Oregon Middle School Volunteer for 2000. My project was chosen from 
20,000 applications and I get to come back to Washington, D.C., where I 
will meet 103 other honorees and participate in national recognition 
events in May for four days. One event will be a Congressional 
breakfast. I just found out my project has also been selected as a 
finalist for another award chosen from 100,000 applications from 99 
countries.
    It is a controversial issue. I have been called names. Some 
business owners got very angry. They said that they make money from 
these machines and they don't want to lose money. It is not an easy 
project. It is really hard to do this, but I think it is important and 
maybe there will be fewer kids thinking that they should kill somebody. 
I would tell other young people that it was a really good thing to do 
and if you feel something needs to be changed to make society safer and 
better, you can do it. It is a lot of hard work but it pays off. Don't 
think just because you are young, people won't listen to you. I 
discovered that adults do respect us as kids.
    I strongly feel that young children should not be exposed to these 
types of games and that if a business wants to have them, they should 
put them in an area of their business that restricts access by young 
children to playing them as well as seeing someone else play them.
Added written Testimony of Danielle Shimotakahara, age 12, to the 
        members of the United States Senate Commerce Committee on 
        Science and Transportation on March 21, 2000.
    This is a list of some of the commonly found coin operated violent 
blood splattering video games in public places that I know about.

          CarnEvil--Mounted guns and blood and body exploding. The head 
        comes off first when you shoot, then the characters walk around 
        with their heads off and after 5 or so more shots they explode. 
        Many of the characters are covered in blood. It is a two player 
        shooter. CarnEvil is in a movie theater lobby in my hometown. 
        It has an advertisement that says ``CarnEvil is more than just 
        the scariest shooter around, it's an awesome cinematic 
        experience . . . the most frighteningly realistic first person 
        shooter ever unleashed on the living.'' Tort and Rodz are two 
        characters ``plucked from the most vile insane asylums . . . 
        their urge to kill is fueled by self-torture-making them almost 
        unstoppable.''
          Police Trainer has sniper rifles. There is no negotiation, 
        and the police just shoot everybody. There are 2 mounted guns 
        and a scope.
          Lethal Enforcers--You leave different kinds of bullet holes 
        in your victims. Female hostages who plead ``help me'' too 
        often are shot.
          The House of the Dead and House of the Dead 2--These are 
        called light gun games. You have a handgun and it is important 
        to do head shots to kill your victim. Bodies lose their limbs, 
        heads and chests and they also can have gaping wounds that you 
        can see through.
          Silent Scope has a mounted sniper gun with a scope. You sneak 
        up on people and shoot ordinary people for no reason. When you 
        kill, blood splatters everywhere. You get extra points if you 
        shoot your victims in the head.
          Time Crisis and Time Crisis 2--This has a realistic recoil 
        action gun. Guns make sounds like real gun sounds. It is 3D.
          Mortal Kombat series, Mortal Kombat Ultimate--This has 
        joysticks. You use your fists and legs and feet. Bodies explode 
        blood when you hit them. Mortal Kombat Ultimate says on the 
        screen--``There is no Knowledge that is not Power.'' Does that 
        mean that if you know how to kill someone, then you will have 
        power?
          Area 51--This one has 2 mounted guns. Bodies explode and 
        blood splatters on the screen. The gunfire sounds realistic.
          Steel Gunner 2--This one has mounted guns. Bodies are blown 
        in half, arms fly off, blood splatters and a charred lower body 
        remains on the screen.

    Games like Doom, Quake, Blood, Resident Evil, Carmaggedon and Duke 
Nukem all shoot people to pieces. Eating the corpses of soldiers 
happens in one software game. Duke Nukem has nearly naked women who ask 
to be killed. They combine sex and violence. They have people with sexy 
bodies blowing one another up, and getting power because of it. Men and 
women in hardly any clothing fight one another.
    Carmaggedon, which is also a coin-op game was banned in Brazil, 
because it caused road rage. You get points for killing pedestrians 
with your car. A girl wearing a bikini will splatter on the windshield. 
You can chase an old man who walks with a cane and hunt humans with 
your car. Pedestrians scream and blood splatters.
    My Mom and I were at a pizza place taking notes on these machines 
when two 8 year boys, that we knew came up to play. My Mom and I had 
just used Steel Gunner 2 to see what it would do and she said out loud 
``This one makes bodies explode.'' The kid said ``Cool.'' My Mom asked 
him if he really said ``cool'' and he said ``yes.'' Then she said, ``So 
you think it is cool to blow somebody to pieces and watch the blood 
splatter everywhere? He got really quiet. Then his mother came rushing 
around the corner, and said--``No, you are not playing that one.'' She 
said that she did not know about these games until my petition and now 
she is watching for them everywhere. She said that if you turn your 
back for a minute, they are playing them, and she was ordering a pizza. 
His mother said she saw a father playing CarnEvil with his young son, 
that evening in the lobby of the movie theater as they were waiting for 
a movie to start. Another boy who was maybe 10 came by later, and he 
didn't have any money. He went to the Steel Gunner 2 and just stood 
there looking at the screen. He held the gun in his hand for 5 minutes, 
just watching the screen. I think it must be really hard for parents, 
because these games are everywhere. I think these kids feel they have 
power when they hold the guns. I think they get addicted to them, and 
they want to do it more and more.
    I am going to ask city councils to start work on passing ordinances 
so that these machines will not be seen or used by young children in 
places where we hang out. Another problem is that the violent games are 
often right beside basketball or car racing games. When you play a car 
racing game, and someone plays a violent one beside you, you still see 
the blood splatter on their screen.
    On March 28, I spoke to the North Bend City Council. They gave me 
an award for the work I am doing to make everyone aware of these 
machines and for trying to figure out a way to get rid of them in 
public places.
    I asked the mayor and the City Council to help me. I told them 
about the Entertainment Software Ratings Board. I asked them to figure 
out a way to enforce those ratings. Area 51 and Ultimate Mortal Kombat 
are rated M, meaning 17 and up. I don't think anyone should be using 
these machines, but there must be a way to enforce the present ratings, 
so at least little kids can't see or play them.
    The ESRB does not always rate these games properly, so I think they 
need to work on that. A software one called DeerAvenger is rated T, 
which is 13 and up. The deer hunt humans and use an M-16 to blow 
hunters to pieces. The assistant manager at my local Wal-Mart said that 
people and parents keep bringing that one back because there is 
pornography in it.
    I am asking people to start writing letters to their mayors, city 
councillors, newspapers, and government officials about these violent 
games and they are doing that. I was the guest speaker at a banquet for 
Court Appointed Special Advocates for children. They are volunteers 
that speak in court for abused children. I told them about these games 
and they were surprised. They wanted to know where they could find 
them. They gasped when I told them about bodies exploding and blood 
splattering. Parents and others really don't know but they are 
learning.
    In conclusion,

          1. I think the ratings by the ESRB need to be made stricter.
          2. Until the ratings are made stricter, I think City Councils 
        need to enforce the present ESRB ratings, because that would at 
        least prevent some kids from playing or seeing some of the 
        violent ones.
          3. I think these games are not good or useful for anyone.
          4. I think everyone needs to learn and become educated about 
        the harmful effects of these games (machines) on kids.
          5. I think people should try one or two of these games or 
        watch somebody else play them to see what they do.
          6. I think people should call or write lawmakers, mayors, 
        etc. and express their opinions about these violent blood 
        splattering games/machines.

    Senator Brownback. Thank you very much, Danielle, for your 
testimony, for giving up your spring break to come here, but 
more importantly, for your heart, for getting out and taking 
that petition forward. I hope you get 3 million signatures on 
it. I think it is very possible.
    There are a number of Senators on the panel with us. 
Senator Dorgan has another committee mark-up he has to go to, 
so I would like to give the floor to Senator Dorgan first, then 
when we go to questions, we will run the 5-minute clock. 
Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, Thank you very much. I have 
an Appropriations Subcommittee meeting that started at 10, and 
I regret that I must go to that at this point, but I wanted to 
just make a brief comment or two.
    First, Senator Brownback, let me thank you for holding this 
hearing. We have been involved, I guess I have been involved 
about seven years here in the U.S. Senate in hearings on the 
subject of television violence, and I have introduced 
legislation, worked on the V chip and a range of things with 
Senator Kerry and others, but this is an important issue, the 
issue you raise about violence. Violence on television--
violence on interactive games--is an important issue.
    Mrs. Steger, I know the pain of losing a child, and I can 
barely speak about it, and the strength that you have 
demonstrated, coming to the Senate and bringing to life the 
memory of your daughter, and a description of that tragedy, and 
describing the things you think should be done to avoid 
tragedies like it in the future is quite remarkable, and I want 
to thank you for being willing to do that, and to share that 
story with the U.S. Senate.
    Danielle, thank you for coming here from Oregon and taking 
your time to appear, and thank you for the spunk and the energy 
you describe, and the efforts you are making.
    Dr. Walsh, I appreciate your testimony. Just as with the 
subject of television violence, in my judgment, there is no 
question--there is no question at all any longer of whether 
this kind of excessive violence that is projected to our 
children affects their behavior. Yes, of course it does. Of 
course it does.
    We had the study of this community in Canada that for some 
unusual reasons was unable to get television for some time. 
Almost a couple of decades before, the rest of the surrounding 
communities had television, and comparing the children in that 
community with the other communities showed a dramatic 
difference in aggressive behavior. Why? Because one was subject 
to a steady diet of violence suggesting that grownups solve 
their problems by shooting each other, stabbing each other, and 
hitting each other.
    We should be able to entertain adults in our country 
without hurting our children, and that is the question here. 
With respect to the excessive violence in television 
programming, yes, that still exists, with excessive violence in 
some areas, and also these interactive games.
    I have children who--well, let me rephrase it. It is very 
hard to be a parent and be vigilant all the time, watching what 
is coming into your living room on that television set, and 
watching these video games, and so people say, well, this is 
none of anybody's business except the parents. Well, that is 
not true at all.
    Yes, it is the parents' business first, and there is no 
substitute for good parenting. That is certainly true, no 
substitute for good parenting, but it is almost impossible for 
the best parents in our country to try to create a curtain 
beyond which this excessive culture of violence is not 
permeating the lives of our wonderful children.
    So again, Senator Brownback, I spoke longer than I 
intended, but these are important issues. They are issues we 
cannot and should not ignore. Difficult, yes. Do they involve 
questions people will relate to with censorship and so on? Yes. 
These are all difficult questions, but all of us want to 
protect children in this country. We have the right, it seems 
to me, to expect that we can protect our children, and we also 
have the right, as Mrs. Steger said, to hope and believe that 
when we send our children to school we are sending our children 
to safe places of learning, not places where someone will come 
with guns and destroy our childrens' lives.
    So let me again thank you for the hearing, and thanks to 
the witnesses. I apologize that I cannot stay for the entire 
hearing. I really would like to do that. Mr. Chairman, thank 
you.
    Senator Brownback. Thank you, Senator Dorgan. Thank you for 
your leadership on this topic for a long period of time. I 
think we are going to start getting into some of the nuts and 
bolts of what we can do to move this debate forward, and we 
need to begin that now. I have some questions for the 
panelists. As I said, we will go through 5 minutes of questions 
for each of the Members.
    Dr. Walsh, I have been very disappointed, as I stated at 
the outset, that the industry would not come forward and 
testify. I am curious, have you had direct discussions with the 
video game industry about these video games, and how did they 
respond to you about these violent products that they are 
putting out?
    Dr. Walsh. Senator, we at the National Institute on Media 
and the Family have published the annual video and computer 
game report card each of the last 4 years, and at the 
conclusion of that report card we always make recommendations 
as to things that we think could be improved, and that has 
brought us into fairly regular dialog with the industry.
    The industry representatives that I talk to deny that there 
is any causal link, that there is any harmful effect.
    Senator Brownback. Have they studied this? Have they 
commissioned studies to find that out, or do they just deny it?
    Dr. Walsh. Not that I am aware of. When there is, when 
there is something in print that kind of speaks to their side--
for example, there is a theory that some people will sometimes 
write about and which I like to call the catharsis hypothesis, 
which basically says that actually these games are helpful, 
because it helps kids drain off this aggressive energy. It is a 
theory, but there is absolutely no research to back it up. All 
of the research in terms of the catharsis hypothesis actually 
goes in the opposite direction.
    And so when people write about those things, they share 
that information, but in terms of hard research showing there 
is no effect, one of the difficulties with research is that it 
is very difficult to get it done. It is very difficult to get 
it funded. This is very quickly advancing technology. I mean, 
literally the game processing, or the power of the game 
processors, is jumping by light years from month to month.
    Senator Brownback. You made a statement that we will just 
around the corner have virtual reality experiences in these 
games, so that we will be, what, in a surround-sound room?
    Dr. Walsh. 3-D. Holographics.
    Senator Brownback. We will be able to use chain saws on 
people with virtual reality?
    Dr. Walsh. The stated goal of the industry is virtual 
reality experience, and technologically they are making 
wonderful progress and a lot of the good game producers are 
producing very good games.
    Senator Brownback. Will it be likely those virtual reality 
experiences will involve killing?
    Dr. Walsh. Well, if past history is any indication, yes, 
they will. With the new gaming platforms that are coming out, 
the Sega Dreamcast which came out last September--if I could 
just share some numbers to give the Senators an idea, the power 
of a game is measured in processing polygons per second. The 
polygon is the little picture element, the pixel that makes up 
the picture.
    If we were meeting this time last year, a Nintendo 64 was 
kind of the state-of-the-art. It processed 350,000 polygons per 
second. The Sega Dreamcast came out in September. It processes 
3 million polygons per second. Sony Play Station 2, which was 
released in Tokyo on March 4, processes 66 million polygons per 
second, and Bill Gates announced 2 weeks ago that the X-box 
that Microsoft is producing and will release in 2001, processes 
150 million polygons per second, so the technical advances are 
just absolutely staggering.
    Senator Brownback. Do we know what the impact would be of a 
virtual reality killing spree game on a person's----
    Dr. Walsh. We can hypothesize. We do not really know, 
because we are unable to do the research, because it does not 
exist. What we do know from some of the research, and you are 
going to hear from some of the best researchers in the country 
in a couple of minutes, is that these things do have an effect.
    Some of the research we have done at the National Institute 
on Media and the Family, what I think is interesting and 
important, is that not everybody reacts the same. What we found 
is that it is kids who are already angry and hostile who get 
the biggest effect from these games, and they get more angry 
and hostile. So it seems that one of the things that happens 
with research is, if you take a look at all kids, that a lot of 
the effects get masked because different kids have different 
reactions. As we get more sophisticated, we have to develop the 
ability to figure out which kids are most likely to be 
affected.
    Senator Brownback. Very interesting.
    Mrs. Steger, again, thank you for your testimony, and I 
know it is a very difficult thing to relive here, as I am sure 
you relive it many times every day, what you and your family 
went through. Do you think Michael Carneal's immersion in 
violent entertainment contributed to his murderous actions?
    Mrs. Steger. Yes. Plain and simple, yes, I do.
    Senator Brownback. Why do you say that?
    Mrs. Steger. Based on all of what we have understood, he 
did spend a lot of time doing that, and he spent--he came from 
a two-parent home. He did not have any socioeconomic 
disadvantages. You know, it is like, how do you blame a lot of 
other things that we want to blame kids. We want to say kids 
are angry because they are not intelligent, they do not have a 
good home, they do not have this or that. Well, this killer had 
all of those things, so it came from some place else.
    Senator Brownback. Danielle, you said in your testimony, 
that parents do not know their kids are playing these games. Is 
that what you found out as you carried your petition around?
    Miss Shimotakahara. Yes. Most parents do not know what 
their kids do when they go into the arcades. They just sit 
there, give out the quarters, do whatever they want and their 
kids go off and do whatever.
    Senator Brownback. You said in your testimony, too, that 
when some of these kids come away from playing these games they 
look really different. Could you describe that for me?
    Miss Shimotakahara. Well, when they play them they are 
focused on that. Nothing else matters. Nothing else is 
happening, just the game. That is all there is, and when they 
come away from it, sometimes that is all they think about. Like 
in school, they do not focus on school. They think about going 
home and playing their game.
    Senator Brownback. Are your friends and classmates ever 
stopped from buying a violent video game?
    Miss Shimotakahara. Because of my petition?
    Senator Brownback. No, when they go to a store to buy a 
video game, are they ever stopped from buying a violent one?
    Miss Shimotakahara. I only think they would be if their 
parents say that they cannot buy that. I think if it was up to 
them, they would probably buy whatever they could.
    Senator Brownback. What is the most popular video games 
that kids are playing?
    Miss Shimotakahara. I have seen most people play Area 51. I 
think that is one of the most popular ones.
    Senator Brownback. Do you think violent video games affect 
the students that you know?
    Miss Shimotakahara. I think that they do not care when they 
are playing the games, and there are a lot more wanting to 
fight. They want to argue. They do not want to just have a nice 
conversation.
    Senator Brownback. Thank you. Senator Kerry, thank you very 
much for being here today.
    Senator Kerry. Well, Mr. Chairman, thank you very much for 
having this hearing on a topic that is obviously deeply 
troubling to a lot of people. It has got a lot of question 
marks out there, but I think common sense sort of dictates to a 
lot of us what Mrs. Steger has been saying and what Danielle 
has been saying. Thank you, both of you, for your testimonies. 
It is terrific to have you here, and I know very difficult for 
you, Mrs. Steger.
    Paducah, as Columbine and others, has sort of become seared 
in all of our consciousness in this country and, unfortunately 
there are more lamentations than there are substantive actions 
that somehow really make a difference, and I think that 
troubles all of us, which is obviously one of the reasons for 
this hearing.
    Danielle, let me ask you a couple of questions, if I can. 
Have you played some of these violent games?
    Miss Shimotakahara. I have not played them for fun, but I 
have gone into pizza parlors to see what they actually do. I 
have played them to see, like, first-hand what you have to do, 
but I have not played them out of fun.
    Senator Kerry. And when you say you have not played them 
for fun, did you have an initial sort of reaction to them, that 
you just did not like them, or did they disturb you? What was 
it about these games that made you make this conscious sort of, 
they are not fun, I do not want to do them for fun?
    Miss Shimotakahara. Well, I have just found better things 
to do than play video games so I never really played them 
before, and I was never really around them, so I never really 
liked them.
    Senator Kerry. Now, would you say that most of your friends 
who play them, do they play by and large in the pizza parlors 
and various places where they can find these machines in 
public, or do they play them more on their own computers 
privately at home?
    Miss Shimotakahara. Well, I have some friends who mainly 
play them in the pizza parlors, and they play some of the games 
on their computers, but I would say they mainly play them in 
public areas.
    Senator Kerry. Well, it seems to me that that is sort of a 
key here, which I will mention in a minute.
    Dr. Walsh, I was very interested in your testimony, which I 
read, and I am sorry I was not here, but you draw the 
conclusion that at-risk teens perform more poorly in school. 
At-risk teens name more violent games as their three favorite 
video games. At-risk teens get into arguments with parents, 
peers, and teachers more frequently than general teens, and 
among boys only, at-risk boys are less likely to say they 
usually feel positive after playing video games.
    In addition to that, boys are more familiar with video 
games than girls. Boys play more frequently than girls. Boys 
are more likely to own their own games than girls. Boys play 
longer at each sitting than girls, almost double, 84 minutes to 
40 minutes. Boys like more violence in their video games than 
girls. Boys play more each week than girls, 10 hours versus 3 
hours. Boys name more violent games as their three favorite 
games than girls, and boys expose themselves to more video game 
violence than girls.
    If I am correct, no girl has engaged in any shooting or 
violent act in a school in this country. Am I correct in that?
    Dr. Walsh. Not that I am aware of. I am not aware of any.
    Senator Kerry. Now, is there something particular about the 
interactivity that makes a difference?
    When I grew up, and when we grew up, we obviously saw a lot 
of killing on TV, whether it was Hopalong Cassidy, or Treasure 
Island, or the Road Runner. I mean, there was violence. The 
Road Runner gets killed. The Road Runner gets back up and he 
runs again, and you have your next incident, and he usually 
gets run over, mashed, killed, or something, but we did not 
relate to it, obviously, in the same way.
    This interactivity clearly--and I have played some games--
not some of the violent ones like that, but some of the early 
ones, and it gets you going. It churns you up. You are kind of 
into it, and clearly for a younger mind to have that level of 
violence engaging you, I would assume, as a parent and just as 
a person, it has an impact on you. I mean, I can remember 
finishing a Pac-Man game and sweating, and there is an 
intensity to it.
    Is it the interactivity that is so different, that really 
does something to a mind? What is it about that interactivity 
that then might lead somebody to not have a sense of 
consequences about their actions, or that distinguishes between 
the normal sort of violence you see and this particularized 
kind of violence?
    Dr. Walsh. I think you bring up a very important point, 
Senator. Psychologically, I am in a completely different role 
when I am playing an interactive game. When I am watching a 
movie, and that can be engaging as well, as we all know, I am 
in the role of observer.
    When I am playing one of these games, I am in the role of 
participant, and so the entire psychological position is 
different, and so it is my actions that are causing the 
reaction, which makes it much more engaging and, as you said, 
you experience yourself--and I think many of us have, it is 
much more engrossing.
    Getting kids, when they are playing video games, to kind of 
pay attention to something else is very difficult, and recent 
research we did, we asked the kids, is it interfering with your 
school work, and you will see, I do not remember the exact 
percentages, but a significant percentage said yes.
    We asked kids, have you tried to limit the amount that you 
play, and the kids say yes. Only a fifth of them are successful 
in limiting the amount that they play, and so it is a very, 
very engaging, and depending on the type of the game then, you 
kind of almost start to take on the mind set, because you are 
playing it from the point of view of the perpetrator.
    Senator Kerry. Well, I am convinced--I mean, I remember 
when I was a prosecutor in the DA's office, certain kinds of 
games were not allowed in certain kinds of establishments. 
These were in adult establishments, and they usually had to do 
with gambling of one form or another, but nevertheless there 
was restricted access with respect to certain kinds of games 
for reasons of public policy, for judgments of morality and so 
forth.
    It seems to me, I mean, I think all of us would be pretty 
loath to have some kind of grandiose Federal reach here, and 
needless to say, there were obvious constitutional questions we 
are all aware of, but I for the life of me do not understand 
why, given the level of violence we are witnessing, given the 
correlation that so many studies now have made, what is it that 
is happening on our city councils, and what is that is 
happening in the mayors' offices, and what is it that is 
happening or not happening in chambers of commerce, Lion's 
Clubs, Elks, and all of these civic institutions of a community 
that are permitting these kinds of games in a community? They 
have local ordinance capacity to prevent any of these games 
from appearing in a public place today.
    Dr. Walsh. Senator, one of the barriers we have to overcome 
with adults is ignorance about the games. I am not talking 
about ignorant people. I am talking about ignorance about the 
games. There is a technological barrier. With other forms of 
media we can share the media, so, for example, my kids watch 
television, I watch television. My kids watch films, I watch 
films. My kids play video games. I cannot do it.
    The technology is only 30 years old, and so typically, with 
exceptions, most people over 30 are not adept at the 
technology, and so they cannot play the games. Therefore, they 
do not pay as much attention, and they are called games, and so 
most people assume from that that they are harmless.
    The knowledge gap that we have to overcome I think is an 
educational challenge, and I think my experience is, once 
people start to find out what is in these games, then they 
start to take it more seriously.
    Senator Kerry. Well, I think, Mr. Chairman, that we should 
undertake a major effort to educate. I mean, we should be 
writing and sending to city councils and boards of aldermen and 
mayors and all of the civic institutions of the communities 
across this country notice of these studies, and of the level 
of violence that is at large, and the testimonies of people 
like Mrs. Steger and Danielle Shimotakahara, and try to have an 
impact here, because they have the ability to make these 
determinations.
    We do not need some great legislative effort. We need to 
educate people and make them aware. Now, I wonder if we need 
more studies? Do we have, sort of, the conclusive link that 
would allow people to be able to make this nexus that is so 
critical?
    Dr. Walsh. We are really in the early stages of the 
research, Senator. We do need more studies to be able to really 
identify the cause and effect and, of course, the technology is 
changing so quickly. Games kids are playing today have faint 
resemblance to games they were playing 6 years ago.
    Senator Kerry. I will lay odds that the vast majority of 
parents in this country do not have a clue what virtual killing 
looks like or feels like. They do not have a clue how real it 
is and how subversive it could be to a kid who already does not 
have good communication with the parent, or who already feels 
alienated, or who already is growing up with all the problems 
teenagers have.
    I mean, you look at what these kids were doing out in 
Columbine, and they may come from a quote, good home, and they 
may have two parents, and they may--but there are plenty of 
kids from good homes and two parents who are not connected to 
reality or to their parents, or to any of the goodness around 
them, and it seems to me it is just common sense. We have got 
to have a little more common sense applied.
    Dr. Walsh. Common sense really does work. We have a 
community education initiative at the National Institute on 
Media and the Family, and we have a community education program 
in that we have some video clips of video games. Invariably, 
when we show parents those clips, you can hear a pin drop when 
it is finished. Parents are saying, I had no idea. You are 
absolutely right.
    Senator Kerry. Well, Mr. Chairman, my time is up. I would 
just like to perhaps invite you to work, and maybe we could 
work on some kind of a significant outreach educational effort 
that is obviously not legislative, but might have far more 
impact faster if we were to engage in that.
    Senator Brownback. I think that is an excellent suggestion, 
and it is one that one of the panelists made. Mrs. Steger is 
making that point, that we need a public relations, we need a 
public education campaign about what these are all about, and 
what they are doing to our children, and that those abilities 
to deal with this do exist at the local level.
    Senator Kerry. Can I make one final comment?
    Senator Brownback. Please.
    Senator Kerry. Danielle made the best point of all, that it 
is the parents who need to be fired. Now, obviously we do not 
want to fire them. We want to get them engaged.
    But the bottom line here is, Danielle, you have got a 
parent or two parents who are deeply involved in your life, and 
they have made a difference, and you are making good judgments. 
Too many of our kids in this country are going home from school 
to households that have no parent in them until 6, 7 in the 
evening, and even then parents come home and they are not 
involved, and there is no engagement.
    So the great task for America is not just to lament, or to 
sort of focus on the games themselves. It is to focus on the 
choices that we have in our communities and in our families, 
and we need to do a better job with after-school programs, with 
all of the kinds of things that engage kids in something other 
than 10 hours a week of distraction in front of a screen in 
violent endeavors, and our education system ought to be doing a 
hell of a lot better job, frankly, of making sure those choices 
are available and people are aware of these kinds of things.
    It is a big task, and there is no one solution to it, but I 
really hope we can get serious about it.
    Senator Brownback. I do, too. Thank you very much, Senator 
Kerry.
    Dr. Walsh, one final question for you. Who are these games 
marketed to? Are they marketed to adults, the violent games, or 
are they marketed to the children?
    Dr. Walsh. That is another one of the concerns, and we have 
identified that in the annual video game report cards. For 
example, Senator, there are Duke Nukem action figures that kids 
can buy in toy stores.
    Senator Brownback. At what age?
    Dr. Walsh. At any age, and of course action figures are 
attractive to younger kids.
    Senator Brownback. It is my contention that the companies 
are actually marketing all of these games to children. It would 
be 
interesting to me to find out from the companies how are they 
doing their marketing, and how are they devising their 
marketing 
strategy.
    They will not agree to testify. We know they are using 
psychological analyses to determine, how do we get these games 
to move, and move off of the shelf, and yet they will not 
respond.
    Dr. Walsh. We actually have data, documents we have turned 
over to the Federal Trade Commission, which are actual 
documents of advertising agencies for a video game producer, 
their plan to market this game to teenagers, and the game was 
rated for adults, so we actually have some data, and the 
Federal Trade Commission now has it. We have given it to them.
    Senator Brownback. We need to find out a lot more from 
these companies.
    Thank you very much. It has been an excellent panel, and we 
thank you for sharing the difficulty and your heart and your 
hope.
    The next panel consists of Dr. Craig Anderson from the 
Department of Psychology at Iowa State University, Dr. Eugene 
F. Provenzo, School of Education, University of Miami, and Dr. 
Jeanne Funk from the Department of Psychology of the University 
of Toledo.
    I might tell the people viewing this, or listening to this 
testimony, these are all expert witnesses who have studied this 
issue extensively and are here today to offer their expertise 
and what they have learned to date. I would also ask the 
panelists, if you have suggestions or recommendations based 
upon your studies and your findings, please feel free to share 
those with us as well.
    Dr. Anderson, thank you very much for joining us. The floor 
is yours.

   STATEMENT OF DR. CRAIG A. ANDERSON, PROFESSOR, IOWA STATE 
        UNIVERSITY, DEPARTMENT OF PSYCHOLOGY, AMES, IOWA

    Dr. Anderson. Thank you, Senator. Distinguished Senators, 
ladies and gentlemen, my name is Craig Anderson. I am a 
professor of psychology and chair of the Department of 
Psychology at Iowa State University. I have studied human 
behavior now for over 25 years. Much of that time has been 
devoted to studying human aggression, what we typically call 
violence.
    I am very happy to be here to speak with you today about 
the problems of exposing young people to interactive violence. 
In particular, I would like to talk about violent video games. 
Though there are many complexities in this realm of behavioral 
research, there is one clear and simple message that parents, 
educators, and public policymakers such as yourselves need to 
hear. Playing violent video games can cause increases in 
aggression and violence.
    A second message to take away from my report is also very 
important. There are good reasons to expect that the effects of 
exposure to violent video games will be even greater than the 
well-documented effects of exposure to violent television and 
movies. I will return to this point a little bit later, but 
first I want to highlight some facts concerning TV and movie 
violence.
    Fact 1. Exposure to violent TV and movies causes increases 
in aggression and violence.
    Fact 2. These effects are of two kinds, short-term and 
long-term. The short-term effect is that aggression increases 
immediately after viewing a violent TV show or a movie. The 
long-term effect is that repeated exposure to violent TV and 
movies increases the violence proneness of the person watching 
such shows.
    Fact 3. Both the long-term and the short-term effects occur 
to both boys and girls.
    And Fact 4, the effects of TV and movie violence on 
aggression are bigger than the effects in the medical field and 
in other fields that we typically believe are really huge. For 
instance, the effects of, again, TV and movie violence are 
bigger than the effect of exposure to lead on IQ scores in 
children. They are bigger than the effect of calcium intake on 
bone mass. They are bigger than the effect of homework on 
academic achievement, and they are bigger than the effect of 
exposure to asbestos on cancer.
    Now, you might ask why I consider TV and movie violence 
research when we are explicitly talking about interactive 
violence, in this case, video games. There are several reasons, 
and I will just hit these real briefly.
    First, the psychological processes underlying TV and movie 
violence are also at work when people play video games, and the 
second reason is that the research literature on TV violence 
effects is vast. It is huge. We understand what is going on 
there, whereas the literature on video game violence is 
relatively small.
    Now, let us consider some facts derived from this 
relatively small research literature that is specifically 
focused on video games. Number 1, the amount of time our 
children and youth spend playing video games continues to 
increase annually. No big surprise there.
    Number 2, young people who play lots of violent video games 
behave more violently than those who do not.
    Number 3, playing a violent video game causes an increase 
in aggressive thinking, 43 percent more aggressive thinking in 
one recent study.
    And Number 4, playing a violent video game causes an 
increase in retaliatory aggression, 17 percent more aggression 
in one recent study.
    Now, why does exposure to violent media increase aggression 
and violence? We do not have nearly enough time for that 
particular talk, but basically children who are exposed to a 
lot of violent media learn a number of lessons that change them 
into more aggressive people.
    One way to think about this is to realize that the 
developing personality is like slowly hardening clay. Various 
life experiences, including exposure to violent media, are like 
the hands that shape the clay. Changes in shape are relatively 
easy to make at first, when the clay is soft, but later on 
changes become increasingly difficult as the clay hardens.
    Earlier, I said that there are good reasons to expect that 
violent interactive media will have an even stronger effect on 
subsequent violence and violent TV and movies, and there are at 
least four different reasons for this. The first one is that 
identification with the aggressor increases imitation of the 
aggressor, and video games require stronger identification with 
violent characters than does watching violent TV or movies.
    Second, active participation increases learning. The 
violent video game player is a much more active participant 
than is the violent TV show watcher.
    Third, rehearsing an entire behavioral sequence is a more 
effective teaching tool than rehearsing only a part of it. The 
video game player must choose to aggress and physically enact 
the aggression in some way, whereas the TV viewer does not make 
any such choices or take action, so that the video game player 
really rehearses the entire behavioral sequence, whereas the TV 
watcher does not.
    And reason 4, repetition increases learning. The addictive 
nature of video games and the frequency with which aggressive 
choices and actions are required in order to win means that 
their lessons will be taught repeatedly, much more frequently 
than in most violent TV shows or movies.
    I would also like to comment briefly on just several myths 
concerning media violence.
    Myth 1, violent media have harmful effects only on a very 
small minority of people who use these media. We hear this 
myth--we have heard it for 30 years involving TV violence. We 
are now starting to hear it from the industry involving video 
game violence. It is simply not true.
    It is true that most people who play violent video games do 
not end up in prison for a violent crime. It is also true most 
people who smoke do not die of lung cancer. That does not mean 
that the smokers have not suffered other ill-effects and, 
similarly, people who play violent video games, even though 
they may not end up in prison, that does not mean they are not 
affected.
    In fact, large proportions, we do not know exactly how 
many, are affected. They become more aggressive people. That 
may involve slapping their kids or spouses, getting in more 
arguments, and so on. It does not necessarily mean they are 
actually going to become mass murderers.
    A second myth is that violent media allow a person to get 
rid of violent tendencies in a nonharmful way. This is what Dr. 
Walsh referred to earlier as the catharsis hypothesis. We have 
known for over 30 years that that hypothesis is wrong. More 
recently, it has resurfaced in the media as the venting 
hypothesis. It is still wrong. In fact, the research quite 
clearly shows playing violent video games or observing 
aggressive actions increases aggression. It does not decrease 
it.
    Now, obviously many factors contribute to any particular 
act of violence and, similarly, many factors contribute to the 
development of an aggressive personality. More importantly for 
this hearing, high exposure to media violence is a major 
contributing cause of the high rate of violence in modern U.S. 
society. Just as important, there are effective ways of 
reducing this particular contributing cause. Reducing our 
children's exposure to media violence could have an important 
impact.
    I thank you for your interest in this issue, and would 
release the floor to whoever is next.
    [The prepared statement of Dr. Anderson follows:]

  Prepared Statement of Dr. Craig A. Anderson, Iowa State University, 
                  Department of Psychology, Ames, Iowa
    Distinguished Senators, ladies, and gentlemen. I am Craig Anderson, 
Professor of Psychology and Chair of the Department of Psychology at 
Iowa State University. I have studied human behavior for over 25 years. 
My first research publication, in 1979, concerned one potential 
contributing factor in the outbreak of riots. My first publication on 
video game violence appeared in 1987. Next month, the American 
Psychological Association will publish a new research article on video 
games and violence that I wrote with a colleague of mine (Karen Dill). 
The article will appear in the Journal of Personality and Social 
Psychology, the premier scientific outlet for research in social and 
personality phenomena. I recently wrote the ``Human Aggression and 
Violence'' articles for both the Encyclopedia of Psychology and the 
Encyclopedia of Sociology.
    I am very happy to be here to speak with you today about the 
problems of exposing people, especially young people, to interactive 
violence, that is, violent video games. Though there are many 
complexities in this realm of behavioral research, there is one clear 
and simple message that parents, educators, and public policy makers 
such as yourselves need to hear: Playing violent video games can cause 
increases in aggression and violence.
    A second message to take away from my report is also very 
important: There are good reasons to expect that the effects of 
exposure to violent video games on subsequent aggressive behavior will 
be even greater than the well-documented effects of exposure to violent 
television and movies. I'll return to this point in a moment.
TV & Movie Violence: Facts & Relevance
    But first, I want to highlight some facts concerning TV and movie 
violence, many of which were reported to a Senate hearing last year by 
Professor Rowell Huesmann of the University of Michigan.
    Fact 1. Exposure to violent TV and movies causes increases in 
aggression and violence.
    Fact 2. These effects are of two kinds: short term and long term. 
The short term effect is that aggression increases immediately after 
viewing a violent TV show or movie, and lasts for at least 20 minutes. 
The long term effect is that repeated exposure to violent TV and movies 
increases the violence-proneness of the person watching such shows. In 
essence, children who watch a lot of violent shows become more violent 
as adults than they would have become had they not been exposed to so 
much TV and movie violence.
    Fact 3. Both the long term and the short term effects occur to both 
boys and girls.
    Fact 4. The effects of TV and movie violence on aggression are not 
small. Indeed, the media violence effect on aggression is bigger than 
the effect of exposure to lead on IQ scores in children, the effect of 
calcium intake on bone mass, the effect of homework on academic 
achievement, or the effect of asbestos exposure on cancer.
    Why consider the TV and movie violence research literature when 
discussing video game violence? There are three main reasons. First, 
the psychological processes underlying TV and movie violence effects on 
aggression are also at work when people play video games. The 
similarities between exposure to TV violence and exposure to video game 
violence are so great that ignoring the TV violence literature would be 
foolish. Second, the research literature on TV violence effects is 
vast, whereas the research literature on video game violence is small. 
Researchers have been investigating TV effects for over 40 years, but 
video games didn't even exist until the 1970s, and extremely violent 
video games didn't emerge until the early 1990s. Third, because the TV/
movie violence research literature is so mature there has been ample 
time to answer early criticisms of the research with additional 
research designed to address the criticisms. Thus, the various shoot-
from-the-hip criticisms and myths created by those with a vested 
interest in creating and selling various kinds of violent entertainment 
media have been successfully tested and debunked. I'll describe some of 
the more popular ones in a few moments.
Video Game Violence: Scope & Research
    Now, let's consider facts derived from the relatively small 
research literature that is specifically focused on video games.
    Fact 1. Video games are consuming a larger amount of time every 
year. Virtually all children now play video games. The average 7th 
grader is playing electronic games at least 4 hours per week, and about 
half of those games are violent. Even though the number of hours spent 
playing video games tends to decline in the high school and college 
years, a significant portion of students are playing quite a few video 
games. In 1998, 3.3% of men entering public universities in the United 
States reported playing video games more than 15 hours per week in 
their senior year in high school. In 1999, that percentage jumped to a 
full 4%.
    Fact 2. Young people who play lots of violent video games behave 
more violently than those who do not. For example, in the most recent 
study of this type exposure to video game violence during late 
adolescence accounted for 13-22% of the variance in violent behaviors 
committed by this sample of people. By way of comparison, smoking 
accounts for about 14% of lung cancer variance.
    Fact 3. Experimental studies have shown that playing a violent 
video game causes an increase in aggressive thinking. For example, in 
one study young college students were randomly assigned the task of 
playing a violent video game (Marathon 2) or a nonviolent game (Glider 
Pro). Later, they were given a list of partially completed words, such 
as mu __ __ er. They were asked to fill in the blanks as quickly as 
possible. Some of the partial words could form either an aggressive 
word (murder) or a nonaggressive word (mutter). Those who had played 
the violent game generated 43% more aggressive completions than those 
who had played a nonviolent game.
    Fact 4. Experimental studies have shown that playing a violent 
video game causes an increase in retaliatory aggression. For example, 
in one study participants were randomly assigned to play either a 
violent game (Wolfenstein 3D) or a nonviolent game (Myst). Shortly 
afterwards, they received a series of mild provocations and were given 
an opportunity to retaliate aggressively. Those who had played the 
violent game retaliated at a 17% higher rate than those who had played 
the nonviolent game.
    Fact 5. Experimental and correlational studies have shown that 
playing violent video games leads to a decrease in prosocial (helping) 
behaviors.
Why Media Violence Increases Aggression & Violence
    Why does exposure to violent media increase aggression and 
violence? There are several different ways in which watching or playing 
violent media can increase aggression and violence. The most powerful 
and long lasting involves learning processes. From infancy, humans 
learn how to perceive, interpret, judge, and respond to events in the 
physical and social environment. We learn by observing the world around 
us, and by acting on that world. We learn rules for how the social 
world works. We learn behavioral scripts and use them to interpret 
events and actions of others and to guide our own behavioral responses 
to those events. These various knowledge structures develop over time. 
They are based on the day-to-day observations of and interactions with 
other people, real (as in the family) and imagined (as in the mass 
media). Children who are exposed to a lot of violent media learn a 
number of lessons that change them into more aggressive people. They 
learn that there are lots of bad people out there who will hurt them. 
They come to expect others to be mean and nasty. They learn to 
interpret negative events that occur to them as intentional harm, 
rather than as an accidental mistake. They learn that the proper way to 
deal with such harm is to retaliate. Perhaps as importantly, they do 
not learn nonviolent solutions to interpersonal conflicts.
    As these knowledge structures develop over time, they become more 
complex and difficult to change. In a sense, the developing personality 
is like slowly-hardening clay. Environmental experiences, including 
violent media, shape the clay. Changes are relatively easy to make at 
first, when the clay is soft, but later on changes become increasingly 
difficult. Longitudinal studies suggest that aggression-related 
knowledge structures begin to harden around age 8 or 9, and become more 
perseverant with increasing age.
    The result of repeated exposure to violent scripts, regardless of 
source, can be seen in several different aspects of a person's 
personality. There is evidence that such exposure increases general 
feelings of hostility, thoughts about aggression and retaliation, 
suspicions about the motives of others, and expectations about how 
others are likely to deal with a potential conflict situation. Repeated 
exposure to violent media also reduces negative feelings that normally 
arise when observing someone else get hurt. In other words, people 
become desensitized to violence. Finally, exposure to violent media 
teaches people that aggressive retaliation is good and proper.
Violent Video Games vs. TV & Movies
    Earlier, I said that there are good reasons to expect that violent 
interactive media will have an even stronger effect on aggression and 
violence than traditional forms of media violence such as TV and 
movies. These several reasons all involve differences between TV and 
video games that influence learning processes. The following four 
reasons all have considerable research support behind them, but have 
not yet been extensively investigated in the video game domain.
    Reason 1. Identification with the aggressor increases imitation of 
the aggressor. In TV shows and movies there may be several characters 
with which an observer can identify, some of whom may not behave in a 
violent fashion. In most violent video games, the player must identify 
with one violent character. In ``first person shooters,'' for instance, 
the player assumes the identity of the hero or heroine, and then 
controls that character's actions throughout the game. This commonly 
includes selection of weapons and target and use of the weapons to 
wound, maim, or kill the various enemies in the game environment. 
Common weapons include guns, grenades, chain saws and other cutting 
tools, cars and tanks, bombs, hands, and knives.
    Reason 2. Active participation increases learning. The violent 
video game player is a much more active participant than is the violent 
TV show watcher. That alone may increase the effectiveness of the 
violent story lines in teaching the underlying retaliatory aggression 
scripts to the game player. Active participation is a more effective 
teaching tool in part because it requires attention to the material 
being taught.
    Reason 3. Rehearsing an entire behavioral sequence is more 
effective than rehearsing only a part of it. The aggression script 
being rehearsed is more complete in a video game than in a TV show or 
movie. For example, the video game player must choose to aggress, and 
in essence rehearses this choice process, whereas the TV viewer does 
not have to make any such choices. Similarly, in video games the player 
must carry out the violent action, unlike the violent TV viewer. 
Indeed, in many video games the player physically enacts the same 
behaviors in the game that would be required to enact it in the real 
world. Some games involve shooting a realistic electronic gun, for 
instance. Some virtual reality games involve the participant throwing 
punches, ducking, and so on. As the computer revolution continues, the 
``realism'' of the video game environment will increase dramatically.
    Reason 4. Repetition increases learning. The addictive nature of 
video games means that their lessons will be taught repeatedly. This is 
largely a function of the reinforcing properties of the games, 
including the active and changing images, the accompanying sounds, and 
the actual awarding of points or extra lives or special effects when a 
certain level of performance is reached.
Myths
    I'd also like to comment briefly on a number of myths concerning 
media violence. Many of these myths have been around for years. Some 
come from well-intentioned sources that simply happen to be wrong; 
others are foisted on our society by those who believe that their 
profits will be harmed if an informed society (especially parents) 
begins to shun violent TV shows, movies, and video games.
    Myth 1. The TV/movie violence literature is inconclusive. Any 
scientist in any field of science knows that no single study can 
definitively answer the complex questions encompassed by a given 
phenomenon. Even the best of studies have limitations. It's a 
ridiculously easy task to nitpick at any individual study, which 
frequently happens whenever scientific studies seem to contradict a 
personal belief or might have implications about the safety of one's 
products. The history of the smoking/lung cancer debate is a wonderful 
example of where such nitpicking successfully delayed widespread 
dissemination and acceptance of the fact that the product (mainly 
cigarettes) caused injury and death. The myth that the TV/movie 
violence literature is inconclusive has been similarly perpetuated by 
self-serving nitpicking.
    Scientific answers to complex questions take years of careful 
research by numerous scientists interested in the same question. We 
have to examine the questions from multiple perspectives, using 
multiple methodologies. About 30 years ago, when questioned about the 
propriety of calling Fidel Castro a communist, Richard Cardinal Cushing 
replied, ``When I see a bird that walks like a duck and swims like a 
duck and quacks like a duck, I call that bird a duck.'' When one looks 
at the whole body research in the TV/movie violence domain, clear 
answers do emerge. In this domain, it is now quite clear that exposure 
to violent media significantly increases aggression and violence in 
both the immediate situation and over time. The TV/movie violence 
research community has correctly identified their duck.
    Myth 2. Violent media have harmful effects only on a very small 
minority of people who use these media. One version of this myth is 
commonly generated by parents who allow their children to watch violent 
movies and play violent games. It generally sounds like this, ``My 12 
year old son watches violent TV shows, goes to violent movies, and 
plays violent video games, and he's never killed anyone.'' Of course, 
most people who consume high levels of violent media, adults or youth, 
do not end up in prison for violent crimes. Most smokers do not die of 
lung cancer, either. The more relevant question is whether many (or 
most) people become more angry, aggressive, and violent as a result of 
being exposed to high levels of media violence. Are they more likely to 
slap a child or spouse when provoked? Are they more likely to drive 
aggressively, and display ``road rage?'' Are they more likely to 
assault co-workers? The answer is a clear yes.
    Myth 3. Violent media, especially violent games, allow a person to 
get rid of violent tendencies in a nonharmful way. This myth has a long 
history and has at least two labels: the catharsis hypothesis, or 
venting. The basic idea is that various frustrations and stresses 
produce an accumulation of violent tendencies or motivations somewhere 
in the body, and that venting these aggressive inclinations either by 
observing violent media or by aggressive game playing will somehow lead 
to a healthy reduction in these pent-up violent tendencies. This idea 
is that it is not only incorrect, but in fact the opposite actually 
happens. We've known for over thirty years that behaving aggressively 
or watching someone else behave aggressively in one context, including 
in ``safe'' games of one kind or another, increases subsequent 
aggression. It does not decrease it.
    Myth 4. Laboratory studies of aggression do not measure ``real'' 
aggression, and are therefore irrelevant. This myth persists despite 
the successes of psychological laboratory research in a variety of 
domains. In the last few years, social psychologists from the 
University of Southern California and from Iowa State University have 
carefully examined this claim, using very different methodologies, and 
have clearly demonstrated it to be nothing more than a myth. Laboratory 
studies of aggression accurately and validly measure ``real'' 
aggression.
    Myth 5. The magnitude of violent media effects on aggression and 
violence is trivially small. This myth is related to Myth 2, which 
claims that only a few people are influenced by media violence. In 
fact, as noted earlier the TV violence effect on aggression and 
violence is larger than many effects that are seen as huge by the 
medical profession and by society at large. Furthermore, preliminary 
evidence and well-developed theory suggests that the violent video game 
effects may be substantially larger.
For Good or Ill
    I have focused my remarks on the negative consequences of exposing 
young people to violent video games, and on the reasons why violent 
video games are likely to prove more harmful even than violent TV or 
movies. Although this may be obvious to many, I should also like to 
note that many of the characteristics that make violent video games 
such a powerful source of increased aggression and violence in society 
also can be used to create video games that enhance learning of lessons 
that are quite valuable to society. This includes traditional academic 
lessons as well as less traditional but still valuable social lessons.
Caveats
    Obviously, many factors contribute to any particular act of 
violence. There is usually some initial provocation, seen as unjust by 
one party or the other. This is followed by some sort of retaliatory 
response, which is in turn interpreted as an unjust provocation. This 
leads to an escalatory cycle that may end in physical harm to one or 
both parties. How people respond to initial provocations depends to a 
great extent on the social situation (most people are less likely to 
respond aggressively in church than they are in a bar), on their 
current frame of mind (those who have been thinking aggressive thoughts 
or who are feeling hostile are more likely to respond aggressively), 
and on the personality of the individual (habitually aggressive people 
are more likely to respond aggressively than habitually peaceful 
people). Short term exposure to media violence influences a person's 
frame of mind, and long term exposure creates people who are somewhat 
more aggressive habitually, but many factors contribute to current 
frame of mind and to habitual aggressiveness. However, even though one 
cannot reasonably claim that a particular act of violence or that a 
lifetime of violence was caused exclusively by the perpetrator's 
exposure to violent entertainment media, one can reasonably claim that 
such exposure was a contributing causal factor. More importantly for 
this hearing, my research colleagues are correct in claiming that high 
exposure to media violence is a major contributing cause of the high 
rate of violence in modern U.S. society. Just as important, there are 
effective ways of reducing this particular contributing cause. 
Educating parents and society at large about the dangers of exposure to 
media violence could have an important impact.
Unknowns
    The research literature on video games is sparse. There are 
numerous questions begging for an answer that is simply not yet 
available. Just to whet your appetite, here are a few questions I 
believe need to be addressed by new research.
    1. Does explicitly gory violence desensitize video game players 
more so than less gory violence? If so, does this desensitization 
increase subsequent aggression? Does it decrease helping behavior?
    2. What features increase the game player's identification with an 
aggressive character in video games?
    3. What features, if any, could be added to violent video games to 
decrease the impact on subsequent aggression by the game player? For 
instance, does the addition of pain responses by the game victims make 
players less reluctant to reenact the aggression in later real-world 
situations, or do such pain responses in the game further desensitize 
the player to others' pain?
    4. Can exciting video games be created that teach and reinforce 
nonviolent solutions to social conflicts?
Conclusion
    Thank you for your interest in this issue. I'd be happy to address 
your questions at this time.

    Senator Brownback. Thank you for your research. You are 
among the first researchers to talk about causal connection and 
not just correlation. I want to explore that with you in some 
questioning.
    I think we have next on the panel Dr. Eugene Provenzo. Dr. 
Provenzo, thank you very much for being here.

  STATEMENT OF EUGENE F. PROVENZO, JR., PROFESSOR, SCHOOL OF 
                 EDUCATION, UNIVERSITY OF MIAMI

    Dr. Provenzo. Thank you for having me.
    Let me say that I am a Professor of Education and my 
perspective is different than my colleagues here, who are 
psychologists. I am concerned about the stories we tell our 
children and how they are constructed in our society. Much of 
what I will discuss this morning is found in a new book that I 
am working on entitled, ``Children in Hyperreality: The Loss of 
the Real in Contemporary Childhood and Adolescence.''
    I am arguing that children and teenagers are spending much 
of their time in simulations rather than in the real or natural 
world. This occurs at many different levels: in the video games 
that are so much a part of the experience of contemporary 
childhood, in the shopping malls and commercial civic spaces 
where our children spend so much of their time, in television 
programs, advertisements and movies, in theme parks where we 
vacation, in the online chat rooms and discussion programs 
through which we communicate and exchange information and so 
on.
    I think that this whole issue needs to be put in the 
context of a larger issue of a loss of the connection to the 
real world and an increasing movement into a world of 
simulation. Video games are a very important part of this.
    As suggested above, the hyperrealities that increasingly 
shape and define the experience of childhood and adolescence 
come in many different shapes and forms. Some are clearly more 
detrimental than others. Since this hearing focuses on the 
impact of interactive violence on children, I am going to 
concentrate on what I consider to be the most disturbing aspect 
of my research: the increasing romanticization of violence and, 
more specifically, the frightening power and potential of the 
new video game technologies.
    I would like to argue that films and video games not only 
teach children about violence, but also how to be violent. When 
violence is stylized, romanticized, and choreographed, it can 
be stunningly beautiful and seductive. At the same time, it 
encourages children and adolescents to assume a rhetorical 
stance that equates violence with style and personal 
empowerment. It does matter that we romanticize and stylize 
violence in films and video games. It does matter that children 
and adolescents can put themselves into the virtual body of a 
killer in first-person shooter games.
    It matters because a video game or computer game is a 
teaching machine. Here is where my perspective as an education 
professor, as a pedagogist, is important. The psychological 
studies are extremely useful and valuable. But there is a 
simple logic here. I am an educator, and here is my logic. 
Highly skilled players learn the lesson of a game through 
practice. As a result, they learn the lesson of the machine and 
its software, and thus, they achieve a higher score. They are 
behaviorally reinforced as they play the game, and thus, they 
are being taught.
    Have you ever considered what it is, or are we considering 
as a nation, what it is that they are being taught? In this 
context, we might consider some of the games we have seen 
displayed here. Games such as Quake, Blood, Doom, or the 
recently released game Daikatana. These are games that provide 
the player with a real-view perspective of the game. This is 
very different from the earlier tradition of video games like 
Street Fighter II or Mortal Kombat, in which the user viewed 
small cartoon figures on the screen and then controlled their 
actions by manipulating them through a game controller.
    In contrast, a first-person shooter actually puts you 
inside the action of the game. The barrels of the weapons, like 
pistols and shotguns, are placed at the bottom edge of the 
computer screen. You can look right or left, up and down, by 
manipulating the computer mouse or game controller. The effect 
is literally one of stepping into the action of the game as a 
participant holding the weapon. And as David Walsh has so well 
developed, the fact that we have these increasingly powerful 
technologies are making this more and more realistic all of the 
time.
    People like Lieutenant Colonel David Grossman, a former 
professor of psychology at West Point, argues that first-person 
shooter video games are ``murder simulators which, over time, 
teach a person how to look another person in the eye and snuff 
out their life.'' Games like Doom are in fact used by the 
military and police organizations to train people. The Marine 
Corps, for example, has adopted Doom to train soldiers in the 
Marine Corps.
    In a first-person shooter like Quake, there are no 
boundaries or limits. The more extreme you are, the more likely 
you are to win. That is the premise of the game.
    Paul Keegan explains that in John Romero's recently 
released first-person shooter game, Daikatana: ``Physical 
reality suggests that you are sitting in a chair, operating a 
mouse and a keyboard. But with the computer screen replacing 
your field of vision, you believe you are actually creeping 
around a corner, causing your breath to shorten. Afraid an 
enemy is lying in wait, you feel your pulse quicken. When the 
monster jumps out, real adrenaline roars through your body. And 
few things in life are more exhilarating than spinning around 
and blowing the damn things to kingdom come, the flying gibs, 
so lifelike, you can feel the wet blood.''
    Speaking of wet blood, this is my contribution to the 
advertising material out there. [Professor Provenzo holds up a 
recent advertisement for the video game Blood.] This is for an 
extremely violent game, a first-person shooter, called Blood, 
in which someone literally is sitting in a bath of blood. And 
this is being advertised and directed, from what I can tell, 
toward adolescent and child game players.
    Now, what is going on here is clearly different than just a 
game of cowboys and Indians. However, the creators of first-
person shooter games just do not understand that there is a 
problem. John Carmack, the main creator of Quake, for example, 
considers the game nothing more than playing cowboys and 
Indians, except with visual effects. In a recent interview, 
Carmack was reminded that in the past, kids playing cowboys and 
Indians were not able to blow their brothers' heads off. His 
response was to laugh and say: ``But maybe you wish you 
could.''
    Keep in mind this important fact. In first-person shooter 
games, players are not responsible for what they do. There are 
no consequences. There are no consequences for other children, 
for families or society. It is not like when you were playing 
cowboys and Indians, and if you hit somebody too hard the 
person you were playing with would protest or be unhappy with 
you.
    As Mark Slouka explains in reference to the CD-ROM video 
game Night Trap, the game allows its players ``to inflict pain 
without responsibility, without consequences. The punctured 
flesh will heal at the touch of a button, the screen disappears 
into cyberspace.''
    Games that employ first-person shooter models represent a 
significant step beyond the tiny cartoon figures that were 
included in Mortal Kombat in the mid-1990's. And again, the 
whole fact that this is a changing technology, and a rapidly 
changing technology, is I think something we have to keep an 
eye on. In fact, there has been a continuous evolution of the 
realism of these games as computing power has increased and 
become cheaper.
    In many respects, the content of violent video games 
represents a giant social and educational experiment. Will 
these ultraviolent games actually teach children to behave and 
view the world in markedly different ways? To repeat an earlier 
argument, video games and computer games are in fact highly 
effective teaching machines. You learn the rules, play the 
game, get better at it, accumulate a higher score, and 
eventually you win.
    As Mark Slouka argues: ``The implications of new 
technologies like video games are social. The questions they 
pose are broadly ethical, the risk they entail is 
unprecedented. They are the cultural equivalent of genetic 
engineering, except that in this experiment even more than in 
the other one, we will be the potential new hybrids, the 2-
pound mice.''
    It is very possible that the people killed in the last few 
years as a result of school shootings may in fact be the first 
victims or results of this experiment. If this is indeed the 
case, it is an experiment we need to stop at once. Some things 
are simply just too dangerous to experiment with.
    Thank you very much.
    [The prepared statement of Dr. Provenzo follows:]

       Prepared Statement of Eugene F. Provenzo, Jr., Professor, 
                School of Education, University of Miami
    My comments this morning must be brief. Much of what I will discuss 
is found in a new book I am working on entitled Children and 
Hyperreality: The Loss of the Real in Contemporary Childhood and 
Adolescence. It continues a line of inquiry I began in 1991 with Video 
Kids: Making Sense of Nintendo,\1\ as well as in a number of articles 
and book chapters.\2\ In this work, I am arguing that children and 
teenagers are spending much of their time in simulations, rather than 
in the natural or ``real'' world. It is an argument, which if true, has 
serious implications for not only our children, but also for the future 
of our society.
---------------------------------------------------------------------------
    \1\ Eugene F. Provenzo, Jr., Video Kids: Making Sense of Nintendo 
(Cambridge: Harvard University Press, 1991).
    \2\ See: Eugene F. Provenzo, Jr., `` `Brave New Video': Video Games 
and the Emergence of Interactive Television for Children,'' Taboo: The 
Journal of Culture and Education, Vol. 1, #1, Spring 1995, pp. 151-162; 
and Eugene F. Provenzo, Jr., ``Video Games and the Emergence of 
Interactive Media for Children,'' in Shirley R. Steinberg and Joe L. 
Kincheloe Kinderculture: The Corporate Construction of Childhood 
(Denver, Colorado: Westview Press, 1997), pp. 103-113.
---------------------------------------------------------------------------
    Essentially, I believe that the unreal, the simulation, the 
simulacra has been substituted for the real in the lives of our 
children. This occurs at many different levels: in the video games that 
are so much a part of the experience of contemporary childhood; in the 
shopping malls and ``commercial civic spaces'' where our children spend 
so much of their time; in television programs, advertisements and 
movies; in the theme parks where we vacation; in the online chat rooms 
and discussion programs through which we communicate and exchange 
information; and finally, in the images of beauty and sexuality that 
run as a powerful undercurrent through much of our culture and the 
lives of our children.
    As suggested above, the hyperrealities that increasingly shape and 
define the experience of childhood and adolescence come in many 
different shapes and forms. Some are clearly more detrimental than 
others.
    Since this hearing focuses on ``The Impact of Interactive Violence 
on Children,'' I will concentrate on what I consider to be the most 
disturbing aspect of my research--the increasing ``romanticization'' of 
violence--and more specifically, the frightening power and potential of 
the new video game technologies.
    Let me begin by reflecting a bit on the information included on the 
recently released videotapes made by Eric Harris and Dylan Klebold 
shortly before the Columbine High School shootings last year.
    It is very clear that Harris and Klebold wanted to tell the world a 
story whose script they seem to have learned through the entertainment 
media--particularly from ultra-violent films and video games. Harris 
tells his story in front of a video camera with a bottle of Jack 
Daniels and a sawed-off shotgun cradled in his lap. He calls the gun 
Arlene, after a favorite character in the Doom video game.
    Harris and Klebold saw themselves as important media figures, whose 
story would be worthy of a filmmaker like Steven Spielberg or Quentin 
Tarintino. The fact that Harris and Klebold created these videotapes 
reminds me of the Mickey and Mallory characters in Oliver Stone's film 
Natural Born Killers who became media stars as a result of a murderous 
rampage across the country. It is no accident that the film was a 
favorite of Harris and Klebold.
    I would like to argue that films and video games not only teach 
children about violence, but also how to be violent. When violence is 
stylized, romanticized and choreographed, it can be stunningly 
beautiful and seductive. At the same time, it encourages children and 
adolescents to assume a rhetorical stance that equates violence with 
style and personal empowerment.
    It does matter that we romanticize and stylize violence in films 
and video games.
    It does matter that children and adolescents can put themselves 
into the virtual body of a killer in first-person shooter games.
    It matters because a computer or video game is a teaching machine. 
Here is the logic: highly skilled players learn the lesson of game 
through practice. As a result, they learn the lesson of the machine and 
its software--and thus achieve a higher score. They are behaviorally 
reinforced as they play the game and thus they are being taught. Have 
you ever considered what it is they are being taught?
    Consider first-person shooter games such as Quake, Blood, Doom or 
the recently released Daikatana. These are games that provide the 
player with a real view perspective of the game. This is very different 
from the earlier tradition of video games like Street Fighter II or 
Mortal Kombat, in which the user viewed small, cartoon figures on the 
screen and then controlled their actions by manipulating them through a 
game controller. In contrast, a first-person shooter actually puts you 
inside the action of the game. The barrels of weapons like pistols and 
shotguns are placed at the bottom center edge of the computer screen. 
You can look right or left, up or down, by manipulating the computer 
mouse or game controller. The effect is one of literally stepping into 
the action of the game as a participant holding the weapon.
    Lieutentant Colonel David Grossman, a former Professor of 
Psychology at West Point, argues that first person shooter video games 
``are murder simulators which over time, teach a person how to look 
another person in the eye and snuff their life out.'' \3\
---------------------------------------------------------------------------
    \3\ Claymon, Deborah, ``Video-game industry seeks to deflect blame 
for violence,'' Miami Herald, July 2, 1999, 3E.
---------------------------------------------------------------------------
    Games like Doom are, in fact, used by military and police 
organizations to train people. The Marine Corps, for example, has 
adapted Doom to train soldiers in the Corps.
    Some critics claim that there is little difference between what 
goes on in a first-person shooter and playing a game of Paintball, 
where players divide up on teams and hunt each other in a wood or 
elaborately constructed game room. To begin with, Paintball is acting 
that takes place in the real world. You run around a little, get tired 
and winded, bumped and scrapped. There are serious consequences for 
getting out of control as you play--in other words--the fact that the 
game is physical and tangible means that it has limits. These limits 
not only include your own endurance, but the rules and procedures 
followed by your fellow players.
    In a first-person shooter like Quake there are no boundaries or 
limits. The more ``extreme'' you are (a terminology often used in 
describing the action of the games), the more likely you are to win. 
Paul Keegan explains that in John Romero's recently released first-
person shooter game Daikatana:

        Physical reality suggests that you are sitting in a chair 
        operating a mouse and a keyboard. But with the computer screen 
        replacing your field of vision, you believe you're actually 
        creeping around a corner, causing your breath to shorten. 
        Afraid an enemy is lying in wait, you feel your pulse quicken. 
        When the monster jumps out, real adrenaline roars through your 
        body. And few things in life are more exhilarating than 
        spinning around and blowing the damn things to kingdom come, 
        the flying gibs so lifelike you can almost feel wet blood.\4\
---------------------------------------------------------------------------
    \4\ Paul Keegan, ``A Game Boy In the Cross Hairs,'' The New York 
Times Magazine, May 23, 1999, p. 38.

    What is going on here is clearly different than just a game of 
Paintball or ``Cowboys and Indians.'' However, the creators of first-
person shooters just don't understand that there is a problem. John 
Carmack, the main creator of Quake, for example, considers the game 
nothing more than ``playing Cowboys and Indians, except with visual 
effects.'' \5\ In a recent interview, Carmack was reminded that in the 
past kids playing Cowboys and Indians weren't able to blow their 
brothers' heads off. His response was to laugh and say: ``But you 
wished you could.'' \6\
---------------------------------------------------------------------------
    \5\ Ibid, p. 39.
    \6\ Ibid.
---------------------------------------------------------------------------
    Keep in mind this important fact: in first-person shooter games, 
players are not responsible for what they do. There are no consequences 
for other children, for families, or for society. As Mark Slouka 
explains in reference to the CD-ROM video game Night Trap, the game 
allows its players: ``To inflict pain. Without responsibility. Without 
consequences. The punctured flesh will heal at the touch of a button, 
the scream disappear into cyberspace.'' \7\
---------------------------------------------------------------------------
    \7\ Mark Slouka, The War of the Worlds: Cyberspace and the High-
Tech Assault on Reality (New York: Basic Books, 1995), p. 13.
---------------------------------------------------------------------------
    Games that employ a first-person shooter model represent a 
significant step beyond the tiny cartoon figures that were included in 
Mortal Kombat in the mid-1990s. In fact, there has been a continuous 
evolution of the realism of these games as computing power has 
increased and become cheaper.
    Much of this has to do with the enormous increase in computing 
power. A moderately fast desktop computer with a Pentium II chip that 
could be purchased for under $1,000 today has the speed of a $20 
million Cray supercomputer from the mid-1980s.\8\
---------------------------------------------------------------------------
    \8\ David E. Sanger, ``High-Tech Exports Hit Antiquated Speed 
Bumps, The New York Times, June 13, 1999, WK 5.
---------------------------------------------------------------------------
    Even more interesting is the availability of inexpensive game 
consoles. Sony's dominance of this market has recently been challenged 
by Sega's amazing 200 Mhz Dreamcast game machine--available for nearly 
a year now in North America. It will soon be superseded by Microsoft's 
X-Box, which is designed specifically for interactive gaming, and which 
is set for release in the fall of 2001. The X-Box will be driven by a 
600 Mhz Intel Pentium III chip. It will cost less than $500 and will 
allow players to go online to play games. The machine and the programs 
that will drive it represent what is potentially an extraordinary 
virtual reality simulator.
    Larry Smarr, director of the National Center for Supercomputer 
Applications in Champaign-Urbana, Illinois, believes that systems like 
these represent ``the transition from people playing video games to a 
world where we will create our own fantasies in cyberspace.'' \9\
---------------------------------------------------------------------------
    \9\ John Markoff, ``Silicon Valley's Awesome Look at New Sony 
Toy,'' The New York Times, March 19, 1999, p. C1.
---------------------------------------------------------------------------
    In many respects, the content of violent video games represents a 
giant social and educational experiment. Will these ultra violent games 
actually teach children to behave and view the world in markedly 
different ways? To repeat an earlier argument, video and computer games 
are, in fact, highly effective teaching machines. You learn the rules, 
play the game, get better at it, accumulate a higher score, and 
eventually win. As Mark Slouka argues, the implications of new 
technologies like video games ``are social: the questions they pose, 
broadly ethical; the risks they entail, unprecedented. They are the 
cultural equivalent of genetic engineering, except that in this 
experiment, even more than the other one, we will be the potential new 
hybrids, the two-pound mice.'' \10\
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    It is very possible, that the people killed in the last few years 
as the result of ``school shootings'' may in fact be the first victims/
results of this experiment. If this is indeed the case, it is an 
experiment we need to stop at once. Some things are too dangerous to 
experiment with.

    Senator Brownback. Thank you. That was powerful testimony. 
I look forward to exploring some more of it with some 
questions.
    Dr. Jeanne Funk of the University of Toledo, Department of 
Psychology, thank you very much for joining us today.

            STATEMENT OF DR. JEANNE B. FUNK, PH.D., 
         DEPARTMENT OF PSYCHOLOGY, UNIVERSITY OF TOLEDO

    Dr. Funk. Thank you, Mr. Chairman.
    I will address three issues: the general status of 
research; my own work on violent electronic games; and my views 
about our most pressing research needs. The obvious question 
before us is whether exposure to interactive violence causes 
violent behavior in particular individuals. I would like to be 
able to answer that question for you, but the reality is there 
is not yet a sufficient body of scientific research to make a 
prediction about any individuals.
    Having said that, I must also acknowledge that there is an 
emerging body of research displayed by my colleagues which does 
identify primarily negative relationships and effects. I am a 
clinical child psychologist. And as such, my interest is in 
what may cause individual, behavioral, and emotional problems. 
Not every child who comes into contact with interactive 
violence ends up behaving in an obviously violent manner. In 
fact, most do not. My research goal is to identify which, if 
any, children are at risk specifically for negative impact.
    I began my research several years ago. In 1990, Nintendo's 
success brought video games to national attention. And shortly 
thereafter, I noticed a striking resemblance between the video 
displays used in aircraft during the Persian Gulf War and some 
popular video games. This recognition collided with my 4-year-
old son's demand for a Nintendo system.
    As a scientist, I reviewed the existing research before 
providing this technology to my child. I found that the few 
studies which had been done focused on the relatively benign 
games of the seventies and eighties, and defined violence from 
the adult experimenter's perspective. So I began my research by 
developing a category system based on children's perceptions.
    With my colleague, Dr. Deborah Buchman, and my research 
team, I have surveyed over 1,000 children to identify possible 
risk features. We found associations between a preference for 
violent games and lower self-evaluations of academics, social 
acceptance, and behavior in fourth through eighth graders. I 
would like to emphasize that this particular approach cannot 
determine causal relationships. But these findings do suggest 
that a strong preference for violent games may at least be an 
indicator of adjustment issues.
    Further, it seems unlikely that playing violent electronic 
games will improve children's negative self-evaluations. I am 
concerned that parents lack information about their children's 
exposure to interactive violence. In a comparison study, 
parents reported significantly higher estimates of supervision 
than their children. And this is similar to what Danielle 
reported from the other direction.
    Most of the parents either named an incorrect game or were 
not able to even guess their child's favorite game. And in 70 
percent of these incorrect matches, the child's favorite game 
was violent. We do have commercial ratings developed to help 
parents. I compared the commercial ratings with consumer 
perceptions of game content. For games with cartoon-type 
violence, consumers did not agree with the rating system. In 
most cases, the commercial ratings did not recommend 
restricting access for younger consumers.
    I will close with some specific recommendations. First, it 
is essential that we increase the scientific knowledge base. 
Public policy must be informed by data, not by our emotional 
reactions to even horribly tragic events. Dramatic advances in 
the realism of interactive violence intensify the need for 
major research initiatives. As Dr. Walsh noted, the technology 
now exists to personalize the visual image of game characters.
    This is a complex topic, and we must amass enough 
information to identify a convergence of findings. We need 
programmatic research which examines both the immediate and 
long-term effects of interactive violence. There are research 
techniques which can determine causal relationships, but such 
research requires a major funding commitment. Hopefully there 
will soon be an opportunity for Congress to make such a 
commitment. I am referring to the Multi-Agency Information 
Technology Research Initiative. Funds would go to the National 
Science Foundation, the Initiative's lead agency.
    I would like to recommend that research on technology's 
impact on children, both the positive and the negative, be a 
major focus, and that the issue of interactive violence be 
given special attention. Finally, I would like to emphasize 
that there is an urgent need to answer the following questions:
    How does interactive violence affect a child's behavioral, 
social, emotional, and cognitive development? Are interactive 
media more potent than other media in teaching aggressive 
behavior? And does interactive violence influence perceptions 
of reality or promote detachment from reality?
    If we do not address these issues, violence may become an 
even more serious social problem. I thank you for the 
opportunity to bring these issues to your attention.
    [The prepared statement of Dr. Funk follows:]

           Prepared Statement of Dr. Jeanne B. Funk, Ph.D., 
             Department of Psychology, University of Toledo
    Thank you, Mr. Chairman and members of the Committee, for the 
opportunity to speak with you about research on children and 
interactive violence. I would like to address three issues: the general 
status of research, my own work on violent video and computer games, 
and finally my views about our most pressing research needs. I would 
like to acknowledge that my research has been informed by the work of 
many other investigators, although I will not specifically address each 
relevant study.
    The obvious question before us is whether exposure to interactive 
violence causes violent behavior. I would like to be able to answer 
that question for you, but the reality is that there is not yet a 
sufficient body of scientific research to make a definitive statement. 
Having said that, I must also note that there is an emerging body of 
research which does identify primarily negative relationships and 
effects. Early studies suggested that playing violent video games 
increases aggressive behavior in younger children, while the results of 
studies with older children have been equivocal. Dr. Craig Anderson's 
recent studies provide evidence that 
interactive violence affects the cognitions and behavior of young 
adults, and I am currently examining this question with adolescents. 
However, much more work is needed.
    I am a clinical child psychologist. As such, my interest is in what 
may cause behavioral and emotional problems for individuals. Not every 
child who comes into contact with interactive violence ends up behaving 
in an obviously violent manner. In fact, most do not. My research goal 
is to identify which, if any, children are at risk for negative impact 
as a result of playing violent video and computer games.
    My research program began several years ago. In 1990, Nintendo's 
success brought video games to national attention. Shortly thereafter, 
I noticed a striking resemblance between the video displays used in 
aircraft during the Persian Gulf War and some popular video games. This 
recognition collided with my four year old son's demand for a Nintendo 
system.
    As a scientist, I reviewed the existing research before providing 
this technology to my four year old. I found that the few studies which 
had been done focused on the relatively benign games of the 70s and 
80s, defining violent games from the adult experimenter's perspective 
(Funk, 1992). Therefore, I began my program of research by developing a 
category system based on children's perceptions (Funk, 1993).
Development of Categories to Examine Game Preference
    To develop the category system I first asked 357 seventh and eighth 
graders to list up to three favorite video or computer games. The 211 
games listed by the initial study group were reviewed, and five general 
categories based on children's perceptions of the primary action and 
main goal were defined by me and a college student assistant with the 
help of 12 children outside the primary study group. Each favorite game 
was then categorized, again with the help of the 12 outside children. 
Next, the category definitions and the list of ``favorite'' games with 
associated categories were given to a group of 38 raters from the 
original study group who identified themselves as regular game players. 
These students were asked to indicate whether they agreed or disagreed 
with the category assigned to each familiar game. The mean rate of 
agreement with the category assignment was 94% (Funk, 1993).
    Subsequently, the system was revised to separate violent and 
nonviolent sports (Funk & Buchman, 1995), and now consists of the 
following categories:


          Revised Electronic Game Categories with Descriptions
------------------------------------------------------------------------
          Category                           Description
------------------------------------------------------------------------
General                      The main action is a story or game with no
  Entertainment               fighting or destruction.
Educational                  The main action involves learning new
                              information or figuring out new ways to
                              use information.
Fantasy Violence             The main action is a story where a cartoon
                              character must fight or destroy things and
                              avoid being killed or destroyed while
                              trying to reach a goal, rescue someone, or
                              escape from something.
Human Violence               The main action is a story where a human
                              character must fight or destroy things and
                              avoid being killed or destroyed while
                              trying to reach a goal, rescue someone, or
                              escape from something.
Nonviolent Sports            The main action is sports without fighting
                              or destruction.
Sports Violence              The main action is sports with fighting or
                              destruction.
------------------------------------------------------------------------


Surveying Time Spent and Game Preference
    The electronic game-playing habits of approximately 1000 fourth 
through eighth graders have been surveyed using the categories and 
definitions described above (Buchman & Funk, 1996). On average, boys 
spend more hours each week playing electronic games than girls across 
all grade levels. Average playing time generally decreases for both 
boys and girls as grade level increases.


  Average Hours Reported Playing Electronic Games in a Typical Week by
                       Gender,  Location and Grade
------------------------------------------------------------------------
                         Fourth     Fifth     Sixth    Seventh   Eighth
------------------------------------------------------------------------
Girls
  Home                     4.50      3.14      2.60      1.92      2.07
  Arcade                   1.18       .82       .58       .33       .45
  Total                    5.67      3.96      3.18      2.25      2.52
 
Boys
  Home                     7.14      6.12      5.40      4.87      3.89
  Arcade                   2.30      2.10      1.49      1.41      1.12
  Total                    9.44      8.23      6.89      6.15      4.97
------------------------------------------------------------------------


    Regarding favorite games, we found that children of all ages prefer 
games with violent content. Girls tend to prefer fantasy or cartoon-
style violence, while boys prefer more realistic or human violence.

                        Percentage of Favorite Games in Each Category by Gender and Grade
----------------------------------------------------------------------------------------------------------------
                                               Fourth         Fifth         Sixth        Seventh       Eighth
                                           ---------------------------------------------------------------------
                                             Girl   Boy    Girl   Boy    Girl   Boy    Girl   Boy    Girl   Boy
                                            n=289  n=241  n=197  n=187  n=157  n=169  n=126  n=177  n=166  n=183
----------------------------------------------------------------------------------------------------------------
General                                     14.0   6.3    16.8   5.9    16.0   8.9    33.3   7.3    28.9   14.2
  Entertainment
Educational                                 17.6   2.9    24.4   4.3    8.3    3.6    1.6    0.0    5.4     .5
Fantasy Violence                            32.7   27.5   30.5   26.2   44.6   24.9   43.7   24.9   44.6   19.1
Human Violence                              11.5   25.0   10.2   26.2   16.0   26.0   7.1    29.4   7.2    20.8
Nonviolent Sports                           9.3    17.9   12.7   19.8   10.5   20.1   4.3 <SUP>a</SUP>  38.4   13.9   45.4
Sports Violence                             14.7   20.4   5.6    17.6   5.7    16.6
----------------------------------------------------------------------------------------------------------------
Note. n refers to number of games listed.
<SUP>a</SUP> When seventh and eighth graders were surveyed, there was only one Sports category.


The Importance of Violent Content
    Several researchers have recently noted the importance of 
specifically examining behavioral and emotional characteristics 
associated with playing violent electronic games (Calvert, 1999; Dill & 
Dill, 1998; Funk, 1993). Such play could be linked to negative 
behaviors and emotions via various social-cognitive mechanisms: In 
violent electronic games ``justified'' aggression is demonstrated, 
practiced, and reinforced (Funk & Buchman, 1996). Violence is presented 
as entertainment with no truly negative consequences. Players are 
rewarded for choosing the pre-programmed violent actions, with little 
attention given to any other conflict resolution alternatives.
    From one theoretical perspective, playing violent electronic games 
could develop and prime aggressive thought networks (Anderson & Dill, 
in press; Berkowitz, 1993). Under certain environmental conditions, 
aggressive behaviors would be more likely to be chosen subsequent to 
desensitization and disinhibition. In addition, the repetitive nature 
of playing violent electronic games may contribute to the development 
of aggressive behavioral scripts (Guerra, Huesmann, & Hanish, 1995; 
Huesmann, 1988). Once a script has been established through 
observational learning and enactment, retention of the script will be 
strengthened through fantasy rehearsal (Guerra, Huesmann, & Hanish, 
1995). Anderson (1997) notes that repetition is a key to change in the 
long term structure of thought and affect. In addition to providing the 
opportunity for the development and rehearsal of aggressive responses, 
exposure to interactive violence would also seem likely to decrease the 
relative valence of prosocial behaviors.
Playing Violent Electronic Games and Self-Concept
    To identify those children who may be negatively impacted by 
interactive violence, I began to examine possible ``high risk'' game-
playing habits. With my colleague, Dr. Debra Buchman, and my research 
team, I have surveyed over 1,000 children.
    Because it reflects core attitudes and coping abilities, self-
concept was chosen as a target variable to examine relationships 
between electronic games and adjustment. Susan Harter's 
multidimensional, developmentally-based measure was used to examine 
links among self-concept, time commitment, and a preference for violent 
electronic games (Funk & Buchman, 1996). Using Harter's framework, 
game-playing could theoretically have positive or negative 
relationships with aspects of self-concept. If game-playing supports 
self-esteem and does not impede the development of other key abilities, 
a positive relationship would be found. However, if game-playing 
contributes to lower competence in key areas, the relationship may be 
negative. Alternately, significant correlations may simply reflect a 
common etiology such as preexisting adjustment status.
    In a group of 357 seventh and eighth graders (183 girls), a small 
but significant negative association was identified for girls between 
time spent playing video or computer games and perceptions of academic 
competence, behavioral conduct, social acceptance, athletic competence, 
and self-esteem. The one exception to the pattern of negative 
relationships occurred on the scale with the lowest reliability (Job 
Competence), and was thought to be related to the suitability of the 
questions for seventh and eighth graders. No significant associations 
were found for seventh and eighth grade boys (Funk & Buchman, 1996).
    In a group of 179 sixth graders (98 girls), for boys, a stronger 
preference for violent games was associated with lower perceived self-
competence in academic competence, social acceptance, and behavior. No 
significant associations were identified for sixth grade girls.
    In a group of 364 fourth and fifth graders (203 girls), a stronger 
preference for violent games was associated with lower self-perceptions 
of behavioral conduct for both boys and girls (Funk, Buchman, & 
Germann, 1999).
    I would like to emphasize that this research approach cannot 
determine causal relationships. However, finding only negative 
associations suggests that a strong preference for violent games may at 
least be an indicator of adjustment issues for some children. Further, 
it seems unlikely that playing violent electronic games will improve 
negative self-perceptions in key developmental areas.
Parent and Child Perceptions of Children's Game-Playing
    I have been concerned that parents lack information about their 
children's exposure to interactive violence. I examined this question 
by comparing children's and parents' perceptions of the child's playing 
time, parental supervision, and the child's favorite electronic games. 
In paired comparisons, parents reported significantly higher estimates 
of supervision time than their third through fifth grade children 
(total n = 70; 35 children). Most parents either named an incorrect 
game or were not able to even guess their child's favorite game. In 70% 
of these incorrect matches, children described their favorite game as 
being violent. This suggests that parents may underestimate their 
child's exposure to violence in electronic games (Funk, Hagan, & 
Schimming, 1999).
Electronic Game Ratings and Consumer Perceptions
    In the early 1990s, public concern about violence in electronic 
games led to the creation of ratings systems. A comparison of 
commercial ratings for popular electronic games with consumer 
perceptions of game content was performed with the help of 201 fourth 
graders, 145 college students, and 37 parents. For games with obviously 
non-violent or very violent content, there was agreement between 
consumers and the commercial system. However, there was considerable 
disagreement about notable violent content in games with cartoon-type 
violence. Despite the high level of agreement among consumers regarding 
the presence of fantasy violent content, in most cases the commercial 
ratings were unlikely to recommend restricting access for younger 
consumers (Funk, Flores, Buchman, & Germann, 1999).
Preference for Violent Electronic Games and Psychopathology
    It has been asserted that exposure to media violence is associated 
with an increase in aggressive behavior. This association is being 
examined in a small group (N = 32) of adolescents, including 12 from a 
school for children with behavioral problems. The hypothesis being 
examined is that a preference for violent games will be associated with 
more behavioral problems, particularly externalizing problems such as 
aggressive behavior.
Desensitization, Empathy, and Attitudes Towards Violence
    Desensitization has been proposed as a primary mechanism by which 
exposure to media violence may influence behavior. However, this 
conceptualization has not yet been empirically examined. To begin to 
understand desensitization as a result of exposure to electronic game 
violence, a study was designed to examine associations among preference 
for violent electronic games, empathy, and attitudes towards violence. 
A background questionnaire requesting information about game-playing 
habits, Bryant's Index of Empathy for Children (Bryant, 1982) and the 
Attitudes Towards Violence Scale (Funk, Elliott, et al., 1999) were 
administered to 52 sixth graders. Evaluation of these data is ongoing.
    Another ongoing study is examining differences in empathic and 
aggressive responses as these are related to playing a violent or 
nonviolent electronic game. Following play, children are asked to 
describe the likely sequence of events in response to descriptions of 
common situations children may encounter. Pictures are provided to help 
the children better understand the vignette. Half of the vignettes were 
structured so that an empathic response was one reasonable response. In 
the other half, an aggressive response was one possible outcome. 
Children's responses are coded by independent raters. This work is 
ongoing with elementary school age children and kindergarteners.
Recommendations
    I will close with some specific recommendations. First, it is 
essential that we increase the scientific knowledge base. Public policy 
must be informed by data, not by our emotional reactions to even 
horribly tragic events. Dramatic advances in the realism of interactive 
violence intensify the need for major research initiatives. For 
example, technology now exists to personalize the visual image of game 
characters. But gaming is not the only way in which children are 
exposed to interactive violence. Opportunities abound in chat rooms, in 
MUDs, and on the Web. We have little scientific basis to even guess 
what the impact of these experiences may be.
    Research on the impact of interactive violence on children must be 
integrated into a developmental research framework. Researchers with 
relevant interests and expertise are spread across many different 
disciplines (e.g., education, communication, psychology, sociology). 
Moreover, proprietary and market-driven research, used for the purpose 
of designing interactive media products for children, is not integrated 
into an overall understanding of how children use or are influenced by 
interactive media. To adequately examine the impact of interactive 
violence on children we must develop a multidisciplinary research 
infrastructure. This will allow us to investigate the broad issues and 
to understand the tremendous potential of interactive media as well as 
the dangers.
    The impact of interactive violence is a complex topic, and we must 
amass enough information to identify a convergence of findings. We need 
programmatic research which examines both the immediate and long term 
effects of interactive violence. There are research techniques which 
can determine causal relationships, but these studies require large 
groups of children and long-term followup. Such research requires a 
major funding commitment.
    Hopefully there will soon be an opportunity for Congress to make a 
specific funding commitment. I am referring to the multi-agency 
Information Technology Research Initiative. Funds would go to the 
National Science Foundation, which is the Initiative's lead agency. I 
would like to recommend that research on technology's impact on 
children, both the positive and the negative influence, be a major 
focus of this Initiative, and that the issue of interactive violence be 
given special attention.
    Finally, I would like to emphasize that there is an urgent need to 
answer the following questions:

        <bullet> How does interactive violence affect a child's 
        behavioral, social-emotional, and cognitive development?
        <bullet> Are interactive media more potent than other media in 
        teaching aggressive behavior?
        <bullet> Does interactive violence influence information 
        processing and perceptions of reality?
        <bullet> Does interactive violence promote detachment from 
        reality?
        <bullet> In what ways can parents counter the influence of 
        interactive violence?

    If we do not address these issues, violence may become an even more 
serious social problem. I thank you for the opportunity to bring these 
issues to your attention.
    Mr. Chairman, I would be pleased to respond to questions.
References
    Anderson, C. A. (1997). Effects of violent movies and trait 
hostility on hostile feelings and aggressive thoughts. Aggressive 
Behavior, 23, 161-178.
    Anderson, C. A., & Dill, K. E. (in press). Video games and 
aggressive thoughts, feelings, and behavior in the laboratory and in 
life. Journal of Personality and Social Psychology.
    Berkowitz, L. (1993). Aggression: Its causes, consequences, and 
control. Philadelphia: Temple University Press.
    Bryant, B. K. (1982). An index of empathy for children and 
adolescents. Child Development, 53, 413-425.
    Buchman, D., & Funk, J. B. (1996). Video and computer games in the 
'90s: Children report time commitment and game preference. Children 
Today, 31, 12-15.
    Calvert, S. L. (1999). Children's journeys through the information 
age. Boston: McGraw-Hill.
    Dill, K. E., & Dill, J. C. (1998). Video game violence: A review of 
the empirical literature. Aggression and Violent Behavior, 3, 407-428.
    Funk, J. B. (1992). Video games: Benign or malignant? Journal of 
Developmental and Behavioral Pediatrics, 13, 53-54.
    Funk, J. B. (1993). Reevaluating the impact of video games. 
Clinical Pediatrics, 32, 86-90.
    Funk, J. B. & Buchman, D. D. (1995). Video game controversies. 
Pediatric Annals, 24, 91-94.
    Funk, J. B., & Buchman, D. (1996). Playing violent video and 
computer games and adolescent self-perception. Journal of 
Communication, 46, 19-32.
    Funk, J. B., Buchman, D. D., & Germann, J. (in press). Preference 
for violent electronic games, self-concept, and gender differences in 
young children. American Journal of Orthopsychiatry.
    Funk, J. B., Elliott, R., Urman, M., Flores, G., Mock, R., (1999). 
The Attitudes Towards Violence Scale: A measure for adolescents. 
Journal of Interpersonal Violence, 14, 1123-1136.
    Funk, J. B., Flores, G., Buchman, D. D., & Germann, J. (1999). 
Rating electronic games: Violence is in the eye of the beholder. Youth 
and Society, 30, 283-312.
    Funk, J.B., Germann, J., & Buchman, D. (1997). Children and 
electronic games in the United States. Trends in Communication, 2, 111-
126.
    Funk, J. B., Hagan, J., & Schimming, J. (1999). Children and 
electronic games: A comparison of parent and child perceptions of 
children's habits and preferences in a United States sample. 
Psychological Reports, 85, 883-888.
    Guerra, N. G., Huesmann, L. R., & Hanish, L. (1995). The role of 
normative beliefs in children's social behavior. In N. Eisenberg (Ed.) 
Review of personality and social psychology: Vol. 15. Social 
development. (pp. 140-158). Thousand Oaks, CA: Sage.
    Huesmann, L. R. (1988). An information-processing model for the 
development of aggression. Aggressive Behavior, 14, 13-24.

    Senator Brownback. Thank you for the testimony and for your 
thoughts. I do not know many parents that go to quite the 
extreme that you did. I wished more did.
    I want to explore some of this with you, particularly. Dr. 
Anderson, you speak of a direct causal link and even state that 
this is a closer causation than even smoking and lung cancer in 
its impact. I want to explore that with you.
    Is this based on your review of the research? Is it on your 
research that you are tying in that causal link?
    Dr. Anderson. The causal link, specifically focusing on 
violent video games, comes from fairly recent research, much of 
which currently is unpublished. Some of it will be published 
next month. Some of it I have not gotten written up yet. I am a 
new chair of the Department of Psychology, and so I go to a lot 
of meetings and write a lot of memos. But I have been working 
on that research. So, in fact, the causal statements that I am 
making are, to a great extent, based on research that is so new 
that the other panel members have not seen it or have just seen 
very brief summaries of it.
    But it is also based on a review of the few other studies, 
the few other experiments that have been done over the last 15 
or 20 years. The vast majority of those studies--there are a 
number of them done with kids--school age, elementary, junior 
high, and high school kids--and the majority of those studies 
do find that kids who have been randomly assigned to play a 
violent video game later behaved more aggressively than kids 
who have been randomly assigned to play a nonviolent game.
    Now, it is true that not all the studies find exactly the 
same thing. And that is true if you look at the thousands of 
studies done on television violence. It is also true in any 
large area of research in any science, including medical 
research. So what you really have to do in order to come to a 
firm conclusion is look at the whole body of research.
    If I remember my history right, Richard Cardinal Cushing 
once said, when asked why he was calling Fidel Castro a 
communist: When I see a bird that looks like a duck and walks 
like a duck and quacks like a duck, I call that bird a duck. 
The point being you take several different perspectives on the 
same issue, if you start to get the same answer, even though 
each particular piece of evidence by itself is not totally 
conclusive, eventually the overall picture does become 
conclusive.
    Senator Brownback. Dr. Funk, I want to get you into this 
question as well, because you say we need to look at this 
longer. But you suggest that the desire to play violent video 
games is actually an indicator to watch for in our children as 
leading toward something else that is of a negative nature and 
behavior. So you do not necessarily dispute Dr. Anderson, you 
are saying it also takes you down a wrong path. But you would 
view it as something to watch for in children, to show a 
correlation by other negative behavior. Is that correct, from 
what your perspective is?
    Dr. Funk. Well, I think that is correct, based on some of 
the studies that I have done. And I certainly do not disagree 
with Dr. Anderson, that there is a body of research coming 
together that suggests there is a negative causal effect. I 
feel that we are not there yet and that we need to carefully 
gather more evidence before I would be comfortable saying, yes, 
for certain individuals, there is a causal effect.
    Senator Brownback. But you have no problem saying there is 
a correlation?
    Dr. Funk. Oh, absolutely, there is definitely a 
correlation. But it may be that troubled children are drawn to 
violent video games rather than the violent video games causing 
the children to be troubled. However, I would also say that the 
violent video game playing is not going to make them less 
troubled.
    Senator Brownback. You would not have any problem with the 
thought that if you are playing these violent video games, it 
does have a stimulating effect on the person that is playing 
them and a stimulating effect that is generally more 
aggressive?
    Dr. Funk. I think there is an arousal effect. One of the 
areas that I would like to look at is whether there is also a 
detachment effect and an altered state of consciousness in 
which they may even be more prone to learning, as Dr. Provenzo 
suggested. So I think we need to look at that.
    You heard Danielle talk about her friends having glazed 
eyes after spending time playing violent video games. I think 
that needs to be looked at.
    Senator Brownback. And, Professor Provenzo, your point is 
about this detachment effect, if I am understanding your 
testimony correct, that people are getting separated from 
reality. In fact, even some of the games suggest that they blur 
the line between reality and fantasy. And it stays with you, I 
think one of them even brags in their advertisement on it.
    Dr. Provenzo. Absolutely.
    Senator Brownback. That is what you truly fear; is that 
correct?
    Dr. Provenzo. Yes. I think that the culture of simulation, 
which is becoming very prevalent because of media, including 
video games, which are one form of media, are creating a 
situation where it is very easy to step into these alternative 
realities and live very heavily in them, and then to emerge 
into a real world, and then have one's behavior based on what 
one was experiencing in the virtual world. And it operates in 
lots of ways.
    I think also what it is doing, which is something we can 
point to more directly and a little more easily, is scripting 
people. We tell stories in our culture. And one of the stories 
we are increasingly telling children about and adolescents 
about is violence and that violence is not really dangerous, 
but it is just something that is highly romantic, it is 
hyperreal. So you get this sort of thing that you have in a 
movie like Natural Born Killers, where violence is 
extraordinarily romanticized, the main characters become media 
figures.
    What then happens, in turn, is you get individuals like 
Harris and Klebold, who, in their tape prior to going out and 
being involved in the shootings at Columbine, talk about the 
fact that they are going to have their story told as a movie 
and it is going to be perhaps produced or directed by people 
like Spielberg or Tarantino. And I think that is very 
frightening.
    So what we are doing is we are giving scripts to kids that 
are highly realistic, but, in point of fact, are not about a 
real world; they are about a hyperreality.
    Senator Brownback. Is there an analogy here between when we 
used to stylize and romanticize smoking in entertainment and 
violence now?
    Dr. Provenzo. I think it is very similar. I think it is 
sold in some of the same ways. This is a romanticization of 
violence clearly. It is hyperreal.
    Senator Brownback. You have got a bathtub full of blood and 
a guy holding a gun.
    Dr. Provenzo. Right. And it is for a game called Blood, 
Blood II.
    Senator Brownback. And what was the caption beside it, do 
you recall?
    Dr. Provenzo. It just says ``Blood?'' That is the only 
thing that is on the ad. But to kids, this is a very popular 
game. The kids know what it is immediately.
    Senator Brownback. So it stimulates a positive response?
    Dr. Provenzo. A romanticized response, a notion that 
violence is a style statement. It is something that is cool. I 
think that is the issue about a film like the Matrix, which, as 
a science fiction fan and as an adult, I think is an extremely 
interesting film and well done in many regards. It also has 
some very disturbing elements in terms of the romanticization 
of violence. And I think kids watching that type of film, I 
think there are real problems, particularly kids who have a 
tendency toward problems, as Jeanne was indicating.
    Senator Brownback. And children, do not they, Dr. Anderson 
or anybody on the panel, have difficulty recognizing between 
reality and fiction up to a certain age?
    Dr. Funk. I think it is very important that parents be 
aware that children who are probably below the age of 7 or 8 do 
have a tendency to become drawn into fantasy and may have 
difficulty separating it from reality. And we do not know how 
their developing personalities at those ages could be affected 
by intense exposure to this sort of interactive violence. So I 
think parents need to be especially aware of children under 10 
to 12, that they monitor what their children are exposed to in 
terms of violent interactive games.
    Senator Brownback. Because they are so susceptible to that 
blurred vision between reality and whatever image-making that 
they may be drawn into or fantasy?
    Dr. Funk. That is correct.
    Senator Brownback. Please, Dr. Anderson.
    Dr. Anderson. If I might add to that a little bit. I agree 
with Jeanne completely in her statement that we need 
considerably more research on these issues. There are a lot of 
things that we just do not know. And one of them is there are 
not any studies out there, at least in the video game 
literature, looking at how much of a difference in effect does 
sort of cartoon-like violence--we are assuming that that has a 
less effect than very realistic violence. And there are some 
good reasons for expecting that to be true, but there is no 
research on it. There is no real funding for that kind of 
research.
    When I say that there is clearly a causal impact of playing 
violent video games on aggressive behavior, there are a handful 
studies that are the basis of that statement. And I would stand 
behind that statement. But I also would say there are a lot of 
things we do not know, a lot of the details. In fact, we do not 
know hardly any of the details. And I think that is what Jeanne 
really has been focusing on, and I would agree with her 
wholeheartedly on that.
    Senator Brownback. The nation was recently just shocked by 
a 6-year-old boy in Michigan taking a gun to school and 
shooting a 6-year-old classmate. Yet, I have read one 
researcher saying that he was not surprised, given that it 
seemed like, in his environment, a violent response was not 
unusual, and the only thing that may limit us on how young a 
child picks up a gun to shoot somebody is whether they can lift 
the gun up or not.
    Did any of you have thoughts about what is happening when 
we have that type of situation, 6-year-olds shooting and 
killing other 6-year-olds?
    Dr. Funk. I think it must be that he did not realize the 
permanence of that action and the reality of that action. And 
that is really exactly what Dr. Provenzo is speaking about, 
that it felt to him perhaps like a television experience.
    Dr. Provenzo. He said at some point, if I remember the 
quote correctly: This is not like TV. This did not come out 
like TV. He was sort of shocked. It just was not working out 
like a television program.
    Dr. Funk. Right.
    Dr. Provenzo. I think it is telling you something about 
where he is constructing his view of the world from. It is 
coming from media sources.
    Senator Brownback. These are all three very good 
statements. Professor, yours is a scary one. It is almost like 
going into genetic engineering without any regulatory 
atmosphere, without any care or concern about what mutation we 
put out there. Am I characterizing what you are saying and 
capturing your feeling correctly?
    Dr. Provenzo. Absolutely. I feel very, very strongly that 
what we are doing is we are talking about the construction of 
our culture, and that this is done through educating people. We 
educate people through a very broad selection of sources in 
contemporary culture, and a lot of them are coming from media.
    I think we have a profound obligation to understand what 
the impact of those various media forms are. And what is 
happening right now, because of computerization and the 
extraordinary ability to create simulations of striking, of 
extraordinary character and nature, we just do not know what 
the consequences are of these types of simulations and the 
reality that they are constructing.
    Senator Brownback. But the likelihood of negative response 
is extraordinarily high. As a matter of fact, Dr. Anderson, you 
are saying it is causal and it is there. Dr. Funk, you are 
saying it is correlated, at least now, and it could well be 
causal as well. And under any scenario, you are saying this is 
negative.
    Dr. Provenzo. Yes. And I would like to make a comment in 
this context about the issue for funding. We are researchers. 
And I think one of the interesting things is, I know at least 
in my case and I suspect in my other co-researchers' case, this 
is not research that was funded or supported except within our 
universities. This is stuff that we pursued because of our own 
conviction and our interests. This is not an area that has 
received a lot of attention.
    It is, quite frankly, considered by some of our co-
researchers as being sort of trivial. And one of the questions 
I frequently get is: Why are you messing around with games and 
media? There are more important issues out there.
    I would argue that this is one of the most profound issues 
that we could be facing. And it is essentially an 
interdisciplinary issue. It involves having to have, I think, 
the insights of sociologists, psychologists, child development 
people, educators, and media experts. And I think it is a very, 
very complex question.
    I think we are at a point right now that is very, very 
similar to the emergence of television as a medium, in which we 
are seeing a convergence of these electronic technologies 
coming together in both the Internet, video games, television 
in a new form of a convergence of these technologies. And I 
think we have very, very little understanding of what they are 
about.
    It is sort of like we are in the year 1948 or 1949, when 
television came on the scene, and we are not taking the 
opportunity to ask ourselves: What is it that we need to 
understand? What is the impact of what we are doing on our 
children? How is it affecting our culture and society?
    This is an enormously important opportunity to ask those 
types of questions. I think we are missing that opportunity by 
not pursuing this much more aggressively.
    Senator Brownback. One of the video games that we saw a 
clip of from Dr. Walsh was Duke Nukem. It involved sexualizing 
violence. What problems would one anticipate this posing to 
young children? Particularly since most of these games are 
marketed to and played by boys, what does it do to them?
    Dr. Anderson. At this point, there is no directly relevant 
research on the video game, from the video game perspective. 
From the television and movie violence literature, we can have 
a pretty good guess that the impact is going to be anything but 
good. It is going to lead to the creation of attitudes toward 
women that are attitudes that frankly none of us in this room 
would view as positive--negative attitudes toward women, 
objectification of them, increasing sort of this notion that 
violence against women is okay.
    But, again, there is no research base that I know of 
directly looking at this from the standpoint of what effect are 
these kinds of video games having.
    Dr. Provenzo. There are some unexpected consequences, I 
think, that need to be taken into account. When I did my book 
``Video Kids: Making Sense of Nintendo,'' I did a content 
analysis of the main themes in the 47 most popular Nintendo 
games. Nine of the 10 most popular games--and this is very 
dated material, this was a book published back in the early 
nineties--but nine out of 10 of the most popular games had as 
their primary theme the murder, abduction, or implied rape of a 
woman.
    Now, when I went out and I interviewed--and some of it is 
pretty benign, you know, it was rescuing the princess in 
Princess Zelda. Other things were much more graphic and direct, 
like Street Fighter II. But when I went out and interviewed 
girls at the elementary level about being interested in video 
games and being interested in computers, they said they wanted 
to play with video games, they were interested in them, but, in 
point of fact, they could not find games that they liked 
because they all had sort of stupid boy things. I think that is 
a code for saying they did not like the idea of being victims 
playing the games.
    Now, the video game companies come out and say, and I think 
they are correct, I think it is a logical argument, video games 
are the first entry into the culture of computing for girls. 
And if girls are being discouraged from entering the culture of 
computing, then there is a very serious issue here in terms of 
gender discrimination as they progress through the educational 
system and into professional careers.
    Essentially, what we are doing is we are really 
discouraging women from seeing computing as an interesting and 
supportive environment if video games are, in fact, the portal 
for entering the computer culture, which I think it is to a 
large degree.
    Senator Brownback. That is a troubling aspect, but the 
objectification of women even more so here.
    Dr. Anderson, would it be fair to say that there is a 
public health impact to consuming violent entertainment?
    Dr. Anderson. I would definitely say that, that it is a 
public health, or should be, a public health issue. As Jeanne 
was pointing out, sometimes our colleagues think that because 
the word ``game'' is associated with some of the work that we 
are doing, they think it is not very serious. And in my own 
case, I actually had to convince some colleagues that when they 
were compiling a list of faculty whose research has some 
relevance to health psychology, that my name should be on the 
list.
    In order to convince them that my name should be on this 
list, I had to point out to them that the Surgeon General at 
one point said that death by murder is in fact a public health 
issue. That did convince them.
    Senator Brownback. Would all of you agree that there is a 
public health impact to consuming violent entertainment?
    Dr. Funk. Absolutely.
    Dr. Provenzo. Absolutely.
    Senator Brownback. As you may know, we give away spectrum 
to broadcasters. And when we do so, there is a requirement that 
their programming, quote, ``serve the public interest.'' It is 
a very specific item, and it has been in there for a long 
period of time, that since the spectrums are provided, that 
they must be used in the public interest.
    From the public health perspective, does violent 
entertainment serve the public interest or does it undermine 
it?
    Dr. Anderson. I would say it definitely undermines it. It 
is hard to imagine a redeeming feature to any of the really 
violent media that is out there now. And certainly for kids.
    Dr. Funk. Yes, especially in the case of children. I think 
it is very important that we look carefully at the impact of 
violent entertainment on children. It certainly does not serve 
their interest.
    Senator Brownback. Does it serve the public interest?
    Dr. Funk. I do not believe that it serves the public 
interest at all. But I recognize that there are certain 
freedoms that we have in this country that obviously we all 
respect.
    Dr. Provenzo. Let me go back to the storytelling issue. 
George Gerbner, is a wonderful media researcher. He talks about 
the mean world phenomena and that television constructs, as an 
example--but I think other forms of media--the idea that the 
world is much meaner and crueler than it actually is. I think 
video games do that, too. I think that is unfortunate. I think 
we need to have better stories sort of percolating through our 
brains than all the mean stories.
    There is enough meanness in the world. I do not mean to 
sound Pollyanna-ish. It is just, why do we need to excessively 
emphasize this?
    Senator Brownback. Do you believe, from a public health 
perspective, that violent entertainment does not serve the 
public interest?
    Dr. Provenzo. I am not a psychologist. I am not a medical 
health expert. But from the point of view of an educator, I 
would go back to the notion of these are not--I am not saying 
we should not have stories with violence in them. I am not 
saying that violence does not play a role in art and in the 
media. I just think that the excessive focusing on this to the 
exclusion of other types of stories is really tragic for our 
culture.
    Senator Brownback. And harmful to our culture?
    Dr. Provenzo. And harmful, yes.
    Senator Brownback. Thank you very much. I want to thank all 
the panel members for being here today. I think this has been 
very enlightening.
    I am troubled by what I see. I have five children, and two 
of them are avid video game players. And I was this weekend in 
a video arcade with my children. And you do get very concerned 
about what you see. It is the romanticized violence. It is the 
excessive violence. It is everywhere. It is every clip. It is 
all surrounding you.
    It is sexualized violence. It is objectification of others. 
It is removal of any sort of care for anybody else. And this is 
about killing. It is not about caring. We try to monitor that 
closely, and yet I cannot help but to think this is having an 
extraordinary negative impact across this country. And that is 
why we have started this set of hearings, to try to get that 
information.
    I appreciate your thoughts, too, about the need for more 
research. I am hopeful that we can provide that sort of effort 
and funding from Congress, to be able to do that, so we can 
spread the information about what is taking place and learn 
better what is occurring. Under any scenario of what any of you 
have presented, it is not positive. It is negative. We just do 
not know to what degree or how completely harmful it is to us.
    The record will remain open for the requisite number of 
days for people to provide additional statements for the 
record.
    Senator Brownback. With that, again, thank you all.
    I thank the first panelists for coming and sharing your 
great difficulty that you have been through, as well.
    The hearing is adjourned.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
                            A P P E N D I X

         Prepared Statement of Douglas Lowenstein, President, 
                Interactive Digital Software Association
    This testimony is submitted on behalf of the Interactive Digital 
Software Association \1\ the trade body representing U.S. video and 
computer game software companies that publish games for use in the 
home. In 1999, the industry generated $6.1 billion in retail software 
sales. IDSA's 32 members account for 90% of the edutainment and 
entertainment software sold in the US.
---------------------------------------------------------------------------
    \1\ IDSA's members only publish software for the home. The arcade 
game business is a different sector with its own representatives.
---------------------------------------------------------------------------
    I apologize for not being able to appear before the Committee in 
person. However, I had a long standing prior commitment in Arizona 
which could not be rescheduled. I hope the testimony and attachments 
which follow will be included in the Committee record, and I look 
forward to a continuing dialogue with the Members about these important 
issues.
    The subject of today's hearing is The Effects of Interactive 
Violence on Children. I certainly understand the interest in this topic 
in the aftermath of tragic school shootings over the past few years, as 
well as the frenzied media reports--often inaccurate and misleading--
about interactive entertainment in the months after Littleton. This is 
an important topic which deserves a fair and balanced discussion.
    By far the most exhaustive and objective analysis of this subject 
was released this past December by the Government of Australia in a 
study entitled ``Computer Games and Australians Today.'' This detailed 
report, which is provided as an Appendix to my testimony, stands out 
above all others for two reasons: first, it was carried out by a 
government with a history of tough regulation of entertainment content 
for the purpose of determining whether government regulation is 
merited; second, unlike some of those who will appear before you today, 
it was written by authors who lack preconceived points of view on the 
issue of whether violent games lead to aggressive behavior. I think it 
is especially helpful to the Committee since it provides an 
independent, unbiased, peer-based evaluation of some of the research 
you will hear about today. I will discuss this study in more detail 
later in my testimony, but let me quote to you here the key conclusion.

        ``The accumulating evidence--provided largely by researchers 
        keen to demonstrate the games' undesirable effects--does 
        indicate that it is very hard to find such effects and that 
        they are unlikely to be substantial (emphasis added).''
The Computer and Video Game Industry Today
    Any dialogue on the effects of violent video and computer games on 
children must be carried out with an understanding of the broader 
context of the interactive entertainment industry, its products, and 
its customers. So before addressing the specific question of what the 
prevailing research tells us about the effects of violent video and 
computer games on children, I want to discuss briefly some facts about 
the interactive entertainment industry as it stands today.
    There are six critical points to understand:
    Point One: The most frequent users of computer and video games are 
adults, not kids. This is a surprise to many who still perceive the 
industry as a toy-based business appealing to adolescent males. But in 
fact, 70% of the most frequent users of PC games are over 18; and 38% 
of these are over 36. The picture is similar for video game consoles: 
57% of the most frequent users are over 18, and 20% are over 36. Those 
products that contain violent content, and it is a minority of the 
total produced (see below), are made to appeal to this adult 
population.
    Point Two: The vast majority of games do not contain significant 
levels of violence, and the vast majority of top selling games are 
largely non-violent. Of the top 20 best selling games in 1999, none 
carried a Mature rating from the Entertainment Software Rating Board 
(ESRB), and only five carried a Teen rating. Looking at games sold by 
type, the data shows that just over 5% of all games sold last year were 
in the so-called ``shooter'' category which received so much attention 
after Columbine, and this category is so broadly defined that it 
includes such benign games as a Star Wars space war title and a version 
of the classic arcade game Asteroids. In fact, if one were to focus 
strictly on games like Doom, their percentage of the total market is 
even lower.
    Point Three: There is a mass market for games today which crosses 
all ages, genders, and tastes. The notion that the industry should 
homogenize content to appeal only to young users makes as much sense as 
encouraging book publishers to stop publishing Steven King novels and 
only issue books appropriate for young readers.
    Point Four: While the market is diverse, 70% of all games made are 
rated by the ESRB as appropriate for everyone. Only nine percent of the 
more than 6,000 products rated by the ESRB have earned a Mature rating 
reflecting the presence of significant levels of violence. ESRB ratings 
have been lauded for their accuracy and reliability by such diverse 
observers as Sen. Joe Lieberman and child advocate Peggy Charren. And 
we know these ratings work when parents know about them and use them. 
Last summer, a survey conducted for the ESRB by the highly regarded 
Peter D. Hart Research Associates, Inc. found that 73% of the parents 
who were aware of the ESRB rating system find it helpful in making 
informed purchasing decisions. We also know that nine out of ten games 
are actually purchased by adults for their kids so they can, if they 
choose, control the games their kids play. Finally, the Hart survey 
revealed that three out of four parents under the age of 44 provide a 
significant level of supervision over the games their kids play. So the 
control really is in their hands.
    Point Five: Between 1991-97, video game sales surged 128%. 
Meanwhile, between 1993-97, a period covering the most dramatic growth 
in video game sales, juvenile violent crime fell 40%. No one would say 
that video games are responsible for falling crime rates. But these 
numbers do suggest that those who point to games as a leading culprit 
in youth violence do not have the facts on their side.
    Point Six: Many of the games sold here which have prompted concern 
about the effects of interactive entertainment on children are sold all 
over the world. In fact, in some countries, even more violent games are 
available. Yet, despite growth rates in foreign markets similar to 
those in the U.S., youth violence in these countries does not even 
approach the levels in our country. If interactive entertainment causes 
violent behavior, why is violent crime among juveniles so low in 
foreign markets with the identical products? This suggests we need to 
look far deeper to identify the causes of youth violence than games.
Research on Interactive Entertainment
    Let me now turn to the academic research. I have attached as an 
Appendix to my testimony a report analyzing the research on video game 
violence and other issues prepared at IDSA's request by Jeffrey 
Goldstein, Ph.D., Department of Social and Organizational Psychology at 
the University of Utrecht in The Netherlands. Dr. Goldstein has 
authored and edited numerous books on media violence, including his 
latest, ``Why We Watch: The Attractions of Violent Entertainment'', and 
is a Fellow of both the American Psychological Association and the 
American Psychological Society.
    I will leave the scientific analysis to Dr. Goldstein and the 
Australian Government's study, also attached as an Appendix. But I want 
to make a few general points.
<bullet> Australian Research
    Let me turn here to the Australian study. This study updated a 1995 
study conducted by Kevin Durkin, Ph.D., Associate Professor of 
Psychology, University of Western Australia. In that study, which 
reviewed all literature on the effects of video games on users, Durkin 
concluded, ``Overall, evidence is limited, but so far does not lend 
strong support to the claims that computer games play promotes 
aggressive behavior.''
    As noted earlier, the new study reaches much the same conclusion 
after evaluating research carried out since the 1995 study was 
published.
    A few key points from the Australia study are worth reporting. 
First, government researchers found in a national survey that ``most 
people associate positive feelings such as enjoyment, happiness, 
exhilaration, relaxation, and challenge with playing computer games'': 
and that ``young players report that aggressive content is not the 
central attraction of games. Many players said that they perceive the 
aggressive content as fantastic and preposterous, with the result that 
they do not take it seriously; they do not perceive their own actions 
as harming others since they do not believe the characters are real or 
suffer pain.'' This punctures the oft-repeated statement that kids 
prefer violent games or that they take them seriously.
    I want to cite briefly a few important studies covered by the 
Australians. Derek Scott, as reported in the Journal of Psychology, had 
hypothesized that the more aggressive games subjects played, the more 
aggressive they would become. He set out to prove this point of view, 
and failed. In fact, Scott found that the moderately aggressive games 
substantially decreased feelings of aggression, whereas the highly 
aggressive game resulted in no more of an increase in aggression than 
the non aggressive game. ``Results are discussed in terms of a general 
lack of support for the commonly held view that playing aggressive 
computer games causes an individual to feel more aggressive,'' Scott 
wrote. There are several other studies which have sought to prove that 
the more aggressive the game played, the more significant the impact on 
behavior, and the have not been able to demonstrate this link, 
suggesting that there is not nexus between the level of aggression in a 
game and behavior outside it.
    The Australian authors also note a 1997 study by Dutch researchers 
Van Schie and Wiegman who believed that the more users were exposed to 
violent games, the more aggressively they would behave. In fact, they 
reported, no relationship was found between the amount of play and 
aggressiveness.
    In sum, the Australian Government study concludes that, ``Despite 
several attempts to find effects of aggressive content in either 
experimental studies or field studies, at best only weak and ambiguous 
evidence has emerged.''
<bullet> Research Methodology
    In evaluating any research on this topic, pro or con, it is 
important to carefully evaluate the methodology, definitions, and 
interpretation of the data. In this regard, Dr. Goldstein notes: 
``Neither the quantity nor the quality of research on video games does 
much to inspire confidence in solid conclusions about their effects. 
Nearly every study suffers from vague definitions (of violence or 
aggression), ambiguous measurements (confusing aggressive play with 
aggressive behavior), questionable measures of aggression (such as 
blasts of noise or self-reports of prior aggression), or 
overgeneralizations of the data.''
    Take, for example, the issue of how aggression is defined in the 
studies. Psychologists define violence or aggression as ``the 
intentional injury of another person.'' Yet, in video games, there is 
neither intent to injure nor a living victim. Nonetheless, some 
researchers loosely claim that the goal of certain games is to ``kill'' 
opponents. But there is no literal killing and it is a massive leap of 
logic to suggest that vaporizing an animated character leads to or 
causes real world killing.
    Another flaw in some research on this topic lies in how the 
research is carried out. Many of them, for example, are conducted in 
lab settings which do not replicate even remotely the environment and 
experience of those who play games for entertainment.
    Dr. Goldstein writes: ``Experiments that claim to study the effects 
of playing electronic games rarely study play at all. In reality, a 
game player chooses when and what to play, and enters in a different 
frame of mind than someone who is required to `play' on demand. Some 
have argued that the link between media violence and aggressive 
behavior is as strong as the link between cigarette smoking and cancer. 
This is not so. We can measure the presence or absence of disease with 
reasonable precision, but we cannot easily or reliably measure 
aggressive behavior in laboratory settings. We have only indirect and 
often questionable measures of aggression at our disposal.''
    It is true that some research, including some you may hear about 
today, claims that video games lead to aggressive behavior in the real 
world. But often these are conclusions and speculation not supported by 
the underlying research. It is argued, for example, that video games 
reinforce murderous behavior! Last time I checked, murder was the 
taking of a human being's life. Equating that to shooting alien 
creatures is totally unsubstantiated, and requires one to assume that 
the player will believe that what is permitted in the fantasy world he 
or she voluntarily entered is sanctioned in real life.
    In fact, rather than suggesting that playing violent games leads to 
aggressive behavior in the real world, at best there is some weak 
evidence that this activity may lead to more aggressive play. In 1999, 
British researcher Mark Griffiths reviewed the literature on the 
subject and noted that what some researchers report as aggressive 
behavior is really only an increase in aggressive play--such as mock 
battles or running around making believe you're killing aliens--with no 
intent to injure, as required by the standard psychological definition 
of aggression. This point cannot be overemphasized. There is a world of 
difference between running around making believe you're killing aliens, 
or martial arts play fighting, and picking up a real weapon and 
shooting your friends. There is not a shred of evidence in the academic 
literature to support the allegation that a violent video game leads to 
aggressive behavior in real life.
    Some researchers do claim that they have established a link between 
playing a violent game and aggressive behavior, such as Anderson and 
Dill. But their measure of aggressive behavior is not evidence of an 
actual violent act or the actual intent to injure someone, but the 
intensity and duration of noise blasts initiated by their subjects. I 
am not a psychologist but I would suggest that basing a conclusion that 
violent games lead to aggressive behavior on how loud and long someone 
blows a horn is not a sound basis for policy or pronouncements. Another 
measure used in this research is reaction time to aggressive words 
flashed on a screen after playing a violent game. A faster response was 
presumed to indicate aggressive thoughts. But it means nothing of the 
sort, anymore than if one played a golf game and then responded faster 
to the word ``putter'' means that you have golf on the brain. This kind 
of weak data represents the high water mark for research seeking to 
establish that violent video games lead to aggressive behavior, and it 
is extremely weak and ambiguous at best, and is contradicted by other 
research.
    Yet another weakness in some of the research is that it fails to 
control for the pre-existing tendencies that subjects bring into the 
research. Griffiths points out that more aggressive children may be 
drawn to more violent games. And the Australian authors suggest that 
``it would appear plausible that the direction of effect is from player 
to game. Computer games cannot turn players into boys. A more 
reasonable interpretation is that people with certain characteristics 
seek out certain types of games. It remains uncertain whether 
involvement in aggressive games by already aggressive individuals 
contributes to the exacerbation of their aggressive tendencies, 
provides a harmless avenue for its discharge, or makes no difference.''
Television vs. Interactive Entertainment
    Another statement often made about video games is that one can 
extrapolate the effects of television research to computer games. This 
is not only bad science, it may be wildly misleading. One difference 
between video games and TV is that video game players exert control 
over what takes place on the screen. They are participants in an 
interactive system that allows them to regulate the pace and character 
of the game. This, in turn, gives them increased control over their own 
emotional states during play. A substantial body of research 
demonstrates that perceived control over events reduces their emotional 
or stressful impact.
Military Simulators
    Over the last year, much attention has been paid in Congress and 
the media to claims that the military's use of video game technology in 
training suggests that these games when used in the home train kids to 
kill. There is no evidence to support this wild claim, the purveyor of 
it has absolutely no research on which the claim is based, and the 
Pentagon itself dismisses the notion that it uses simulators to teach 
soldiers to kill. I will not dwell on this issue here, but will be 
happy to provide detail on this claim should the Committee desire.
Proactive Steps by the Video and Computer Game Industry
    Does this mean we do nothing? The answer is no. Last Spring, I 
testified before this Committee and pledged to take a series of steps 
to address concerns about violent video games, including stepping up 
promotion of the ESRB, working with retailers to uphold the ratings at 
the point of sale, and addressing concerns about video game 
advertising. We have redeemed all of these pledged.
    Our industry has been and continues to be extremely proactive in 
addressing concerns about the content of the small minority of products 
which give rise to the concerns covered in this hearing. We agree that 
some games are not appropriate for young children. That's precisely 
what the ESRB ratings tell consumers. The single most meaningful step 
industry and government can take to protect children from games that 
may not be appropriate for them is to educate parents about how to use 
ESRB ratings.
    To that end, the ESRB mounted a major campaign last holiday season 
to raise awareness and use of its ratings. This campaign included paid 
ads in national publications with significant parent readership. It 
also included a PSA featuring golf superstar Tiger Woods encouraging 
parents to ``Check the Ratings'' before buying games for their kids. 
ESRB also reached out to various national groups such as the PTA, 
Mothers Against Violence in America, and the YMCA and YWCA to 
distribute information about ESRB ratings to their constituents.
    Another major element of the effort was to encourage retailers to 
carry information about ESRB ratings in their stores, and to adopt 
policies to uphold the ratings at the point of sale by not selling 
Mature or Adult Only games to persons under 17. Such national chains as 
Toys `R Us, Babbages, Electronics Boutique, and Funcoland all agreed to 
either actively restrict sales of ``M'' rated games to persons under 17 
or to use their best efforts to prevent such sales. In addition, the 
ESRB printed and distributed over 5 million brochures on how to use 
ESRB ratings to retailers.
    Separately, the three major video game console hardware companies--
Nintendo, Sega, and Sony--all agreed this Fall to include in their 
hardware packages information on the ESRB, a step which put critical 
ratings information into the hands of millions of new consumers this 
holiday season.
    IDSA was active in other areas as well. This Fall, our Board of 
Directors created a new Advertising Review Council within the 
independent ESRB organization to develop and enforce an expanded 
advertising Code which for the first time includes content standards 
and various restrictions on the placement of ads for video and PC 
games. The new ARC opened its doors for business February 1. The ARC 
has 
secured support for its content guidelines from the three major video 
game magazine chains who have agreed to adopt the ARC code as their 
internal standards and practices.
    We're also pleased that the ESRB reached an agreement late last 
year with AOL in which AOL will adopt the ESRB ratings on its game 
service, a major step toward expanding ESRB's Internet presence.
    We also welcome the study by the Surgeon General of the United 
States into the causes of youth violence, and will cooperate with that 
office as it proceeds.
    Late last year, the IDSA conducted research asking parents who is 
responsible for controlling the video games children play. The 
overwhelming majority of respondents said it is up to the parents. Our 
industry will continue to make products that appeal to people of all 
tastes and interests. Some of these will not be appropriate for younger 
consumers. But absent unconstitutional restrictions on content, and 
absent any compelling scientific research showing that playing violent 
games is harmful, the best way to ensure that kids don't play games 
that are not suitable for them is to maximize parental awareness and 
use of the existing rating system. Our industry pledges to you that we 
will continue to actively promote the ESRB system to increase its 
utilization by parents, and we hope you and others who share your 
concerns will join us in that ongoing campaign.
Conclusion
    While the subject of this hearing is the effects of violent 
interactive games on children, I want to briefly point out that there 
is a growing body of evidence that video games have many positive 
effects on players, including enhancing educational performance, 
improving spatial skills, improving cognitive development, and as 
therapeutic tools to treat attention deficit disorders, among other 
things. I hope we can address these benefits at some future hearing 
rather than continually and exclusively focusing on the issue of 
violence.
    You will hear from witnesses who have generally expressed concern 
about the effects of interactive entertainment on children. We did 
provide the Committee with the names of other experts who do not share 
these views, and we were disappointed that none of them were asked to 
appear, or that the Committee did not seek out those with different 
views on its own. For this reason, we have included two additional 
submissions which evaluate all of the current research on the topic and 
reach the conclusion that there is no compelling research which 
supports the belief that playing violent video games in the real world 
causes aggressive behavior in the real world. Put another way, there is 
no scientific basis to argue that entering the fantasy world of Doom in 
the home using a mouse causes players to gun down their friends in the 
school yard.
    But even if one were to agree with those who believe there is cause 
for concern about the effects of violent entertainment on children, the 
question is what can be done about it? Video games and computer games 
are protected forms of expression under our Constitution. Some may not 
like particular games, but the case law is clear that efforts by 
government to regulate violent content is unconstitutional. For this 
reason, I appreciate the fact that Senator Brownback has publicly said 
that this hearing is not for the purpose of pursuing legislation to 
regulate the video game or entertainment industries. Thank you.
                                 ______
                                 
 Prepared Statement of Jeffrey Goldstein, Ph.D., Department of Social 
 and Organizational Psychology, University of Utrecht, The Netherlands
    My name is Jeffrey Goldstein. I received a PhD in psychology from 
Ohio State University, following which I was professor of psychology at 
Temple University (Philadelphia) for nearly 20 years. Since 1992 I have 
been with the Department of Social and Organizational Psychology at the 
University of Utrecht, in the Netherlands. Among the books I have 
written or edited are Sports, Games and Play (Lawrence Erlbaum 
Associates), Aggression and Crimes of Violence (Oxford University 
Press), Toys, Play and Child Development (Cambridge University Press), 
and in 1998, Why We Watch: The Attractions of Violent Entertainment 
(Oxford University Press). I am a Fellow of both the American 
Psychological Association and the American Psychological Society. I 
serve on the academic advisory committee of the Entertainment Software 
Rating Board (New York), which developed a widely used system for 
rating video and online games.
    This overview of research on the effects of electronic games was 
prepared at the request of the Interactive Digital Software Association 
(Washington, D.C.), for whom I regularly review research on this 
subject. I have read nearly all the published English-language research 
on electronic games, which includes video and computer games, CD-ROM 
and online games. Neither the quantity nor the quality of research on 
video games does much to inspire confidence in solid conclusions about 
their effects. Nearly every study suffers from unclear definitions (of 
violence or aggression), ambiguous measurements (confusing aggressive 
play with aggressive behavior, or using questionable measures of 
aggression, such as blasts of noise or self-reports of prior 
aggression), and overgeneralizations from the data. Experiments that 
claim to study the effects of playing electronic games rarely study 
play at all. In reality, a game player chooses when and what to play, 
and enters in a different frame of mind than someone who is required to 
`play' on demand.
    Some have argued that the link between media violence and 
aggressive behavior is as strong as the link between cigarette smoking 
and cancer. This is not so. We can measure the presence or absence of 
disease with reasonable precision, but we cannot easily or reliably 
measure aggressive behavior in laboratory settings. We have only 
indirect and often questionable measures of aggression at our disposal.
Research on Electronic Games
    There are 4 types of research on electronic games: 1) Demographic 
surveys describe who plays which games. 2) Correlational studies 
examine the relationship between video game play and other behaviors, 
such as aggression or school performance. 3) Experiments seek to 
establish cause-and-effect relationships by requiring some individuals 
to play video games and others to play other (or no) games. 
Measurements are then taken to establish the effects of video games. 4) 
Applied research uses electronic games as a medium for education, 
training, medicine, and therapy.
The file drawer problem
    Published research in scholarly journals does not represent all the 
research on electronic games. Studies that fail to find statistically 
significant results are less likely to be accepted for publication. So 
the published record is an unknown fraction of all research, and it 
tends to consist of those studies with statistically significant 
results. This is known as `the file drawer problem' because studies 
that do not find any effects of video games remain unpublished, locked 
away in the researcher's files.
Surveys
    Industry people can provide demographics of games players of the 
growth of electronic games from a youth activity to one that cuts 
across all ages and both sexes. Research by social scientists tends to 
focus on potential problem areas, such as video game `addiction' or the 
relationship between the extent of gaming and school performance. 
Concerns about addiction to video games have lately given way to 
concerns about internet addiction (Kraut, et al. 1998).
    Studies that consider addiction to video games offer snapshots in 
time rather than dynamic pictures of play over a period of weeks or 
months. At any given moment, there are players deeply immersed in the 
gaming experience, but this obsession is temporary, according to a 
large-scale Australian survey (Durkin 1998).
    Barrie Gunter (1998) concludes in his review of video game 
research, ``There is international evidence that video games do not 
preoccupy children and teenagers to the exclusion of other pursuits. . 
. . Some children may admit to playing more than they think they 
should, but few signs have emerged so far that video game addiction is 
a growing social problem. Video game players do not differ 
significantly from non-players in terms of other activities, including 
sports.''
Correlates of Violent Video Game Play
    Some studies compare the most frequent players of electronic games 
with those who play less often (for example, Anderson & Dill in press; 
Griffiths & Hunt 1998; Roe & Muijs 1998). In some studies, frequent 
play with violent video games is correlated with lower school 
performance, more aggression, delinquency, and behavioral and emotional 
problems. The heaviest users of video game are males, and those who 
prefer violent video games are most likely to be above average in 
aggression, and to show other characteristics of aggressive men: 
namely, poorer school performance, less interest in bookish activities, 
more delinquency, and so on. These correlations do not imply causality. 
According to one study (Roe & Muijs 1998), poor performance in school 
motivates some boys to achieve success in the world of video games. 
Following are descriptions of recent correlational studies of violent 
electronic games.
    Jeanne B. Funk and her colleagues (1999) claimed to examine whether 
a preference for violent electronic games is ``associated with an 
increase in problem behaviors'' in adolescents. Boys and girls at a 
middle school and at a school for children with behavioral problems 
completed questionnaires about their video game experience and problem 
behaviors. The children were divided in half according to whether they 
played video games ``high in violence'' or ``low in violence.'' For 
girls, playing violent video games was not associated with any clinical 
problems. Those who played violent video games scored higher on 
something called ``thought problems,'' but this is not further defined 
or described. Boys who played video games low in violence had higher 
delinquency scores than boys who played more violent video games! Other 
studies also fail to find that higher levels of violence in video games 
has stronger effects than lower levels of violence (for example, 
Anderson & Ford, 1986).
Comments on the Funk et al. study
    The study cannot possibly show whether violent electronic games are 
related to an increase in adolescent problems because it does not 
measure changes in problem behaviors. It is a static study that 
measures self-reports of play with violent games and self-reported 
problem behaviors at one point in time. The study did not find more 
violent video game playing among children at the school for adolescents 
with behavior problems. Suppose instead of finding very little, Funk et 
al. had found that those who played violent electronic games had more 
behavior problem behaviors. What would that tell us about violent 
electronic games? It would not imply that games cause these problems. 
Some youngsters with problems may use video games as a way of coping 
with problems. There is no way to draw sound conclusions from such a 
study.
    Craig Anderson and Karen Dill (in press) conducted a study on the 
correlates of experience with violent video games. Seventy-eight men 
and 149 women undergraduates at a midwestern university completed 
questionnaires about their exposure to video game violence and paper-
and-pencil measures of delinquency, aggression, irritability, world 
view, and grade point average. The university students indicated their 
favorite games, and were asked to recall how often they played video 
games in recent months, during the 11th and 12th grades, during the 9th 
and 10th grades, and during the 7th and 8th grades. Also measured were 
perceptions of crime and feelings of safety.
    Results. As in some previous research, Anderson and Dill found a 
positive correlation between experience with violent video games and 
measures of aggression and delinquency. This does not mean that the 
former is a cause of the latter. Highly aggressive youngsters are 
attracted to violent video games (Goldstein, 1998). Both aggression/
delinquency and involvement with violent video games may be the result 
of other factors, such as a high need for arousal, excitement, or 
attention. Perception of crime was not significantly related to play 
with violent video games. George Gerbner and others found that people 
with the most exposure to television overestimate crime rates. Anderson 
and Dill did not find that here; experience with violent video games 
was not related to perception of crime.
    Anderson and Dill write of their data as though they are describing 
a causal sequence. ``The positive association between violent video 
games and aggressive personality is consistent with a developmental 
model in which extensive exposure to violent video games (and other 
violent media) contributes to the creation of an aggressive 
personality.'' In sum, Study 1 indicates that concern about the 
deleterious effects of violent video games on delinquent behavior, 
aggressive and nonaggressive, is legitimate,'' write Anderson and Dill. 
But their study has nothing to do with the effects of video games, 
deleterious or otherwise [emphasis added]. Correlation is not 
causality, no matter how tempted one may be to argue otherwise. The 
authors acknowledge this when they write, ``However, the correlational 
nature of Study 1 means that causal statements are risky at best. It 
could be that the obtained video game violence links to aggressive and 
nonaggressive delinquency are wholly due to the fact that highly 
aggressive individuals are especially attracted to violent video 
games.''
Experiments with Violent Video Games
    Much of what is written about video games with violent themes 
assumes that 
the media (including electronic games) affect vulnerable groups of 
people in ways 
that go against their grain, a `magic ray' approach to the media. In 
contrast, I believe that people are extremely selective in the media 
they use and attend to, and that the effects the media have on them are 
pretty much the effects that the user is seeking.
Physiological reactions to video games
    Electronic games are challenging, sometimes frustrating, exciting, 
surprising, and often funny. While playing, individuals may experience 
a range of emotions accompanied by physiological changes. In one study 
with university students, heart rate accelerated while playing a 
violent video game, and returned to baseline within 15 minutes 
following play (Griffiths & Dancaster 1995).
    Winning a competitive video game did not result in a rise in 
testosterone level, as happens with the victors of competitive sports 
and chess matches (Mazur, et al., 1997). This may be because players do 
not regard video games as truly competitive, but see video game play 
instead as a cooperative activity.
    Positron emission tomography (PET) scans were taken while healthy 
men played a video game. The neurotransmitter Dopamine, thought to be 
involved in learning, reinforcement of behavior, attention, and 
sensorimotor coordination, was released in the brain during play (Koepp 
1998).
Violence and `violence'--Matters of definition
    When people refer to ``violence in the media'' or ``violent video 
games'' they rarely distinguish between real violence--people hurting 
one another as in warfare or a slap in the face--and symbolic or 
fantasy violence, in which characters engage in mock battle. Nor do 
they distinguish between cartoon characters, fantasy figures in 
electronic games, dramatic violence portrayed by human actors, and real 
violence in news and documentary programs. Psychologists define 
violence or aggression as ``the intentional injury of another person.'' 
However, there is neither intent to injure nor a living victim in an 
electronic game. Anderson and Dill (in press) write that ``the goal of 
the player in Mortal Kombat is to kill any opponent he faces.'' But 
there is no literal killing here; something else is going on, namely, 
play and fantasy. When discussing ``violence in the media'' people do 
not usually mean literal violence.
    An article by Dill and Dill (1998) further illustrates this 
confusion. They write, ``If violent video game play indeed depicts 
victims as deserving attacks, and if these video games tend to portray 
other humans as `targets,' then reduced empathy is likely to be a 
consequence of violent video game play, thus putting the player at risk 
for becoming a more violent individual.'' The Dills write that perhaps 
video games would have stronger effects than television because of the 
active involvement of players. They argue that players must ``act 
aggressively'' and are then reinforced for this ``aggression.'' ``In 
violent video games, aggression is often the main goal, and killing 
adversaries means winning the game and reaping the benefits. While in 
real life, murder is a crime, in a violent video game, murder is the 
most reinforced behavior. . . . The violent video game player is an 
active aggressor'' according to the Dills, and ``the players' 
behavioral repertoire is expanded to include new and varied aggressive 
alternatives.''
    Likewise, Anderson and Dill (in press) write, ``Each time people 
play violent video games, they rehearse aggressive scripts which teach 
and reinforce vigilance for enemies, aggressive action against others, 
expectations that others will behave aggressively, positive attitudes 
towards use of violence, and beliefs that violent solutions are 
effective and appropriate. Furthermore, repeated exposure to graphic 
scenes of violence is likely to be desensitizing. . . . Long-term video 
game players can become more aggressive in outlook, perceptual biases, 
attitudes, beliefs, and behavior than they were before the repeated 
exposure. . . .'' To my knowledge, there are no studies of the long-
term effects of video games. There is no evidence that video games 
actually have any of these effects.
Effects of violent video games
    Lt. Col. Dave Grossman (1995; 1999) has stressed the similarities 
between combat training and violent video games. He could just as 
logically have stressed their differences. Among the differences 
between training soldiers for combat and playing video games are:

        <bullet> The motivations for undertaking the tasks are 
        different.
        <bullet> The individual can play or not, and can come and go, 
        as he pleases.
        <bullet> The intentions of the players are different.
        <bullet> The players' beliefs about what they are doing and why 
        differ.
        <bullet> There are many cues in video games that `this is play' 
        (for example, sound effects, fantasy figures, scorekeeping).
        <bullet> The behaviors reinforced (play vs. aggression) and the 
        reinforcements themselves are different.
        <bullet> The social relationships among the individuals 
        involved are different.

    Experiments on the effects of violent video games on the behavior 
of elementary school children typically fail to distinguish between 
aggressive play and aggressive behavior. After playing a Mortal Kombat-
style video game, children, boys especially, are likely to engage in 
martial arts play-fighting. To many adult observers, the boys are 
thought to be acting aggressively, but in fact are engaged in 
aggressive play, where there is no intent to injure anyone (Silvern & 
Williamson 1987). Media violence research is clouded by such 
ambiguities.
    According to British psychologist Mark Griffiths (1999) ``the 
majority of studies on very young children tend to show that children 
become more aggressive after playing or watching a violent video game, 
but these were all based on the observation of free play.'' This is 
precisely the problem, confusing aggressive play with aggressive 
behavior, that leads to fuzzy conclusions. In the rare study that 
measures both aggressive play and aggressive behavior (for instance, 
Cooper & Mackie 1986; Hellendoorn & Harinck 1998), violent games affect 
the former but do not affect aggressive behavior.
    In part because of these ambiguities, those who review the existing 
research on violent video games arrive at different conclusions. Among 
recent reviews, some conclude that violent video games are a cause of 
violent behavior (Anderson & Dill in press; Ballard & Lineberger 1999; 
Dill & Dill 1998), while others conclude that there is insufficient 
evidence to draw any conclusion (Australia 1999; Durkin 1995; Gunter 
1998; Griffiths 1999). Anderson & Dill review published studies on 
video games and aggressive behavior, and conclude as have others, that 
every study suffers from flaws in methodology, ambiguous definitions, 
is open to alternative explanations, or results in inconsistent 
findings. ``In sum,'' they write, ``there is little experimental 
evidence that the violent content of violent video games can increase 
aggression in the immediate situation.''
Anderson and Dill experiment
    In an experiment by Anderson and Dill (in press), students played a 
violent video game (Wolfenstein 3D) or a nonviolent game (Myst) that 
were similar in their degree of difficulty, enjoyment, and frustration 
(although men considered Wolfenstein 3D more exciting than Myst). One 
hundred four women and 106 men from a midwestern U.S. university 
visited the laboratory twice, playing each assigned video game 3 times 
for 15 minutes per time. In the first session participants played the 
game, completed the affective and world view measures, and played the 
game again, then completed the cognitive measure. The cognitive measure 
of aggressive thoughts was the time it took to recognize aggressive 
words (for example, `murder') flashed on a computer screen. Aggressive 
thoughts were not measured directly in this experiment, only reaction 
time to words flashed on a screen.
    During the 2nd session, particiants played the game again for 15 
minutes and completed the behavioral aggression measure. Aggressive 
behavior was measured during a `competitive reaction time task,' in 
which the participant is told to push a button faster than an opponent. 
If participants lose this race, they receive a noise blast at a level 
supposedly set by their opponent. As their measure of aggressive 
behavior Anderson and Dill use the intensity and duration of noise 
blasts the participant chooses to deliver to the opponent. They write 
that this is ``a widely used and externally valid measure of aggressive 
behavior,'' but this is open to doubt because there is nothing in this 
method nor in the instructions to the participants to indicate that 
there was any intention to injure anyone in this situation.
    Results: Greater exposure to violent video games predicted greater 
aggressive behavior, particularly among those who were high in 
aggressiveness to begin with, and this was especially the case with 
men. The effect of violent video games was no different from that of 
nonviolent games on state hostility, or on crime perception or feelings 
of safety. The average reaction time to aggressive words was faster 
among those who had played the violent video game. The researchers 
interpret this to mean ``the violent video game primed aggressive 
thoughts. This result suggests one potential way in which playing 
violent video games might increase aggressive behavior, by priming 
aggressive knowledge structures.'' [Does reacting quickly to aggressive 
words indicate aggressive thoughts?]
    There were ``absolutely no statistically significant effects of any 
of the independent variables--sex, trait irritability, video game 
type--on either the win or lose noise intensity settings.'' 
Participants who had played Wolfenstein 3D delivered significantly 
longer noise blasts after lose trials than those who played the 
nonviolent game Myst. ``Playing a violent video game increased the 
aggressiveness of participants after they had been provoked by their 
opponent's noise blast.''
    Anderson and Dill write, ``The present research demonstrated that 
in both a correlational investigation using self-reports of real world 
aggressive behaviors and an experimental investigation using a 
standard, objective laboratory measure of aggression, violent video 
game play was positively related to increases in aggressive behavior. .  
.  . The convergence of findings across such disparate methods lends 
considerable strength to the main hypothesis that exposure to violent 
video games can increase aggressive behavior .  .  . The present 
results confirm that parents, educators, and society in general should 
be concerned about the prevalence of violent video games in modern 
society, especially given recent advances in the realism of video game 
violence. .  .  . The results of the current investigation suggest that 
short-term video game violence effects may operate primarily through 
the cognitive, and not the affective route to aggressive behavior .  .  
. Thus, the danger in exposure to violent video games seems to be in 
the ideas they teach and not primarily in the emotions they incite in 
the player. The more realistic the violence, the more the player 
identifies with the aggressor. The more rewarding the video game, the 
greater potential for learning aggressive solutions to conflict 
situations.'' [emphasis added]
Comments on the Anderson and Dill experiment.
    Can one generalize from the Anderson and Dill studies to real-world 
video game players? Do their results justify the need to ``be concerned 
about the prevalence of violent video games,'' and their increasing 
realism? Their studies do not address the realism of video games, or 
identification, or the effects of rewards, or attitudes toward conflict 
resolution. Do more realistic games have greater impact? Do players 
really learn that aggression is the solution to conflict? We do not 
know.
    There is no sense in which the participants in this experiment 
played a video game, violent or otherwise. They were instructed to play 
a video game for a few minutes. Whatever effects are found may not 
generalize to the natural play setting in which real gaming takes 
place. Playing a game at the urging of an experimenter does not 
resemble the world of play. Almost no studies of the presumed harmful 
effects of video games have considered how and why people play them, or 
play at all.
    No evidence is given that reaction time to aggressive words is a 
valid measure of aggressive thoughts, or that noise blasts are intended 
to injure another person.
    Real acts of violence have been modeled on media images. The media 
may give form to aggressive behavior. But I am aware of no evidence 
that the media motivate individuals to commit aggression if they are 
not otherwise inclined to do so.
The Attractions of Violent Entertainment
    Some critics condemn the makers of violent entertainment for 
marketing `violence for violence sake' (Grossman 1995, 1999). But that 
is not what people seek. People are highly selective in the violence 
they seek or tolerate. Violence, if it is to be entertaining, must 
fulfill certain requirements: it must have a moral story in which good 
triumphs over evil, and it must carry cues to its unreality--music, 
sound effects, editing, a fantasy story-line, cartoon-like characters.
The audience for violent entertainment
    Many who condemn violence in video games eagerly devour the latest 
novel by Stephen King. Men particularly like violent entertainment. For 
the majority of consumers, the violence is a means to ends, a device 
valued more for what it does than for what it is. The consumers of 
violent entertainment do not share a single motive. Some play violent 
video games to experience excitement, some to become experts and 
impress their friends, others because the games are challenging. Some 
young people play widely vilified games in order to elicit predictable, 
if negative, reactions from teachers, parents, or girls. Immersion in a 
fantasy world is also conducive to the pleasant transcendental 
experience known as ``flow'' (Csikszentmihalyi 1990).
    People can choose the degree of emotional content with which they 
are most comfortable, just as they do when selecting music to listen 
to. An undeniable characteristic of violent imagery is its emotional 
wallop; it gives most people a jolt. Not everyone finds this kind of 
stimulation pleasant, but some do. Even if players find the violence 
repugnant, they can fine-tune their involvement in the game by focusing 
on its' graphics, technique, or on their score, in order to control 
their emotional involvement.
    Youngsters are willing to expose themselves to unpleasant images 
because the benefits of doing so outweigh the costs. Players, like 
media researchers, have overriding reasons for engaging with violent 
themes.
Social identity
    Violent entertainment appeals primarily to males, and it appeals to 
them mostly in groups. These are social occasions, particularly 
suitable for `male bonding' and communicating a masculine identity. 
Boys may play violent video games alone in their rooms, but they are 
almost certain to talk about them with their friends. In a survey of 
Canadian youth, Stephen Kline (1999) observes, ``For many of the male 
gamers, video gaming was part of a network of friendships and social 
affiliations making gaming into a cool thing.''
The importance of context
    Both the context of violent images and the circumstances in which 
they are consumed play a crucial role in their appeal, and probably in 
their effects. In order to experience pleasure from exposure to violent 
images players must feel relatively safe in their surroundings. 
Furthermore, there must be cues that the violent images are produced 
for purposes of entertainment and consumption. Bloody images lose their 
appeal when there are few cues to their unreality (McCauley 1998). If 
the violent imagery does not itself reveal its unreality, the physical 
environment may do so. We are aware of holding a joystick or remote 
control, of playing a game on a console or computer screen. Without 
background music, special effects, or fantasy characters, images of 
violence are unattractive.
Electronic Games in Education, Therapy, and Science
    In her book Playing with Power, Marsha Kinder (1991) notes that 
video games `have considerable educational and therapeutic value for a 
diverse range of groups--including adolescents, athletes, would-be 
pilots, the elderly in old-age homes, cancer patients undergoing 
chemotherapy, stroke victims, quadriplegics, and young children 
suffering from palsy, brain damage, and Down's syndrome.'
    Electronic games are used to teach and reinforce skills in 
education, science and medicine. Games are used increasingly to study 
learning (Blumberg 1998; Rieber 1996), memory (Shewokis 1997), 
motivation (Wong 1996), cognitive processes (Kappas 1999), attention 
and attention deficits (Pope 1996), and spatial abilities (Subrahmanyam 
& Greenfield 1998; Tkacz 1998). Electronic games have been developed to 
teach safe sexual practices to adolescents, and to help diabetic 
children better manage their illness (Lieberman 1998).
    Sometimes the hardware is of interest. Commercial electronic games 
have much to recommend them as psychological tests. The equipment is 
robust, inexpensive, small, light and portable, scoring is completely 
objective and the rules for any given game are the same for every 
player. An American mountaineering expedition to the 7,700 meter high 
Tirich Mir used two games to measure performance, Simon Says to measure 
short-term memory, and Split Second to measure pattern recognition and 
reaction time. The games operated normally even at 7,000 meters under 
the extreme conditions of the climb (but the batteries had to be warmed 
by the climbers). ``What seems beyond doubt is the possibility of 
testing performance under extreme conditions by means of electronic 
games'' (Jones 1984).
Spatial abilities
    Video games are among the most successful means of reducing the 
traditional sex difference in spatial abilities (Subrahmanyam & 
Greenfield 1994).
Video Games in Therapy
    Attention deficit/hyperactivity disorder is characterized by the 
inability to sustain attention long enough to perform activities such 
as schoolwork or organized play. Treatments include brainwave 
biofeedback training, in which systems feed back information to 
trainees showing how well they are producing the brainwave patterns 
that indicate attention. Pope and Bogart (1996) developed a video game 
that expands this concept by becoming more difficult as the player's 
brainwaves indicate that attention is waning. The trainee can succeed 
at the game only by maintaining an adequate level of attention.
Video Games and the Elderly
    Electronic games can speed reaction times, hone cognitive skills, 
and may retard memory decline among the elderly (Drew & Waters 1986; 
Dustman 1992; Goldstein 1997).
What's Missing from Games Research?
    The motivation to play is powerful. In seeking a site for a 
research project, I visited rehabilitation centers for people with 
severe handicaps. In nearly all of them, people were playing computer 
or video games, one man with his feet because he did not have the use 
of his arms, and one woman who had no movement in her arms or legs 
played by blowing through a straw. It is precisely this spirit of play 
that is missing from psychological experiments of video games.
    Young people bring their entertainment choices and experiences to 
bear on their intense concerns with questions of identity, belonging, 
and independence. Much of their public behavior--the clothes they wear, 
the music they listen to, and the games they play--has a social 
purpose. How else are we to understand the fads of body piercing and 
tattooing, or the popularity of horror films or violent video games, 
except in reference to peer groups? Until researchers look, not at 
isolated individuals forced to play a video game for a few minutes as 
part of a laboratory experiment, but at game players as members of 
extended social groups, we are unlikely to come to terms with violent, 
or any other, entertainment.
References
    Anderson, C. A., & K. E. Dill. (in press). Video games and 
aggressive thoughts, feelings, and behavior in the laboratory and in 
life. Journal of Personality and Social Psychology.
    Anderson, C. A., & C. M. Ford. (1986). Affect of the game player: 
Short-term effects of highly and mildly aggressive video games. 
Personality and Social Psychology Bulletin, vol. 12, 390-402.
    Ballard, M. E., & R. Lineberger. (1999). Video game violence and 
confederate gender: Effects on reward and punishment given by college 
males. Sex Roles, vol. 41, 541-558.
    Blumberg, F. C. (1998). Developmental differences at play: 
Children's selective attention and performance in video games. Journal 
of Applied Developmental Psychology, vol. 19, 615-624.
    Cooper, J., & D. Mackie. (1986). Video games and aggression in 
children. Journal of Applied Social Psychology, vol. 16, 726-744.
    Csikszentmihalyi, M. (1990). The flow experience. San Francisco: 
Jossey-Bass.
    Dill, K. & J. Dill. (1998). Video game violence: A review of the 
empirical literature. Aggression and Violent Behavior, vol. 3, 407-428.
    Drew, B., & J. Waters. (1986). Video games: Utilization of a novel 
strategy to improve perceptual motor skills and cognitive functioning 
in the non-institutionalized elderly. Cognitive Rehabilitation, vol. 4, 
26-31.
    Durkin, K. (1995). Computer Games, Their Effects on Young People: A 
Review. Office of Film & Literature Classification. Sydney. [255 
Elizabeth Street, Sydney NSW 2000, Australia]
    Durkin, K., & J. Low. (1998). Children, media and aggression: 
Current research in Australia and New Zealand. In U. Carlsson & C. von 
Feilitzen (Eds.), Children and Media Violence. UNESCO International 
Clearinghouse on Children and Violence on the Screen. nordicom. 
Goteborg, Sweden: Goteborg University.
    Dustman, R. E., R. Emmerson, L. Steinhaus, D. Shearer,, & T. 
Dustman. (1992). The effects of videogame playing on neuropsychological 
performance of elderly individuals. Journal of Gerontology, 
Psychological Sciences, vol. 47, 168-171.
    Funk, J. B., J. Hagan, J. Schimming, W. A. Bullock, D. Buchman, & 
M. Myers. Playing violent electronic games and indices of 
psychopathology in adolescents. (1999). Paper presented at the American 
Psychological Association annual convention.
    Goldstein, J. (1999). The attractions of violent entertainment. 
Media Psychology, vol. 1, 271-282.
    Goldstein, J. (1998). Why We Watch: The Attractions of Violent 
Entertainment. New York: Oxford University Press.
    Goldstein, J., L. Cajko, M. Oosterbroek, M. Michielsen, O. van 
Houten, & F. Salverda. (1997). Video games and the elderly. Social 
Behavior & Personality, vol. 25, 345-352.
    Griffiths, M. (1999). Violent video games and aggression: A review 
of the literature. Aggression & Violent Behavior, vol. 4, 203-212.
    Griffiths, M., & I. Dancaster. (1995). The effect of Type A 
personality on physiological arousal while playing computer games. 
Addictive Behaviors, vol. 20, 543-548.
    Griffiths, M., & N. Hunt. (1998). Dependence on computer games by 
adolescents. Psychological Reports, vol. 82, 475-480.
    Grossman, D. (1995). On Killing: The Psychological Cost of Learning 
to Kill in War and Society. Boston: Little Brown.
    Grossman, D. (1999). Stop Teaching Our Kids to Kill: A Call to 
Action against TV, Movie & Video Game Violence. New York: Crown.
    Gunter, B. (1998). The Effects of Video Games on Children: The Myth 
Unmasked. Sheffield, UK: Sheffield Academic Press.
    Hellendoorn, J., & F. Harinck. (1997). War toy play and aggression 
in Dutch kindergarten children. Social Development, vol. 6, 340-354.
    Jones, M. B. (1984). Video games as psychological tests. Simulation 
& Gaming, vol. 15, 131-157.
    Kappas, A., & A. Pecchinenda. (1999). Don't wait for the monsters 
to get you: A video game task to manipulate appraisals in real-time. 
Cognition & Emotion, vol. 13, 119-124.
    Kinder, M. (1991). Playing with Power in Movies, Television and 
Video Games. Berkeley: University of California Press.
    Kline, S. (1999). Video game culture: Leisure and play preferences 
of British Columbia teens. Simon Fraser University, Burnaby, B.C., 
Canada.
    Koepp, M. J., R. N. Gunn, A. D. Lawrence, V. J. Cunningham, A. 
Dagher, T. Jones, D. J. Brooks, C. J. Bench, & P. M. Grasby. (1998). 
Evidence for striatal dopamine release during a video game. Nature, 
vol. 393, 266-268.
    Kraut, R., M. Patterson, V. Lundmark, S. Kiesler, T. Mukopadhyay, & 
W. Scherlis. (1998). Internet paradox: A social technology that reduces 
social involvement and psychological well-being? American Psychologist, 
vol. 53, 1017-1031.
    Lieberman, D. A. (1998). Health education video games for children 
and adolescents: theory, design, and research findings. Paper presented 
at the annual meeting of the International Communication Association, 
Jerusalem, 1998. (available online at www.clickhealth.com/lieb98/
diabetes.htm)
    Mazur, A., E. J. Susman & S. Edelbrock. (1997). Sex difference in 
testosterone response to a video game contest. Evolution and Human 
Behavior, vol. 18, 317-326.
    McCauley, C. (1998). When screen violence is not attractive. In J. 
Goldstein (Ed.), Why We Watch: The Attractions of Violent 
Entertainment. New York: Oxford University Press.
    Pope, A. T., & E. H. Bogart. (1996). Extended attention span 
training system: Video game neurotherapy for attention deficit 
disorder. Child Study Journal, vol. 26, 39-50.
    Rieber, L. P. (1996). Seriously considering play: Designing 
interactive learning environments based on the blending of microworlds, 
simulations and games. Educational Technology Research and Development, 
vol. 44 (no. 2), 43-58.
    Roe, K., & D. Muijs. (1998). Children and computer games: A profile 
of the heavy user. European Journal of Communication, vol. 13, 181-200.
    Shewokis, P. A. (1997). Is the contextual interference effect 
generalizable to computer games? Perceptual and Motor Skills, vol. 84, 
3-15.
    Silvern, S. B., & P. A. Williamson. (1987). The effects of video 
game play on young children's aggression, fantasy, and prosocial 
behavior. Journal of Applied Developmental Psychology, vol. 8, 453-462.
    Subrahmanyam, K., & P.M. Greenfield. (1998). Computer games for 
girls: What makes them play? In J. Cassell & H. Jenkins (Eds.), From 
Barbie to Mortal Kombat: Gender and Computer Games. Cambridge, MA: MIT 
Press.
    Tkacz, S., & P. LaForce. (1998). Sex of player and practice in 
lateral discrimination and videogame performance. Perceptual and Motor 
Skills, vol. 84, 3-15.
    Wong, K. K. (1996). Video game effect on computer-based learning 
design. British Journal of Educational Technology, vol. 27, 230-232.
                                 ______
                                 
    The Australian Study has been retained in the Committee files.
                                 ______
                                 
      Prepared Statement of the Video Software Dealers Association
Mr. Chairman,

    Thank you for allowing the Video Software Dealers Association 
(VSDA) to submit a statement for the record at the hearing on the 
impact of interactive violence on children.
    We want to assure the committee that VSDA and our members are 
concerned about the level of youth violence in our society. While we 
have no expertise in the relationship between video game violence and 
youth violence, the home video industry believes we have a role to play 
in helping parents ensure that their children do not gain access to 
video games that the parents deem inappropriate for them. We want to 
share with you the actions we have taken to assist parents in this 
regard and enlist your involvement in this effort.
    Established in 1981, the Video Software Dealers Association is a 
not-for-profit international trade association for the $17 billion home 
entertainment industry. VSDA represents over 3,000 companies throughout 
the United States, Canada, and 22 other countries. Membership comprises 
the full spectrum of video retailers (both independents and large 
chains), as well as the home video divisions of all major and 
independent motion picture studios, video game and multimedia 
producers, and other related businesses that constitute and support the 
home video entertainment industry.
    Video game sales and rentals are an important and increasing 
segment of the home video industry. In 1998, the domestic home video 
game market generated about $2.7 billion in software sales and about 
$800 million in rental revenue.
    The members of VSDA agree with the premise that the best control is 
parental control. As stated in the final report of the Congressional 
Bipartisan Working Group on Youth Violence, which was issued two weeks 
ago, ``[p]arents and other adults responsible for the development of 
children should be vigilant about protecting them from exposure to 
inappropriate programming.'' There is no better place than in a home 
video store for parents to control the content of the video games and 
movies to which their children have access. For this reason, VSDA-
member retailers have taken action to aid parents in making more-
informed entertainment choices for their families. We do this through a 
program we call ``Pledge to Parents.''
    The centerpiece of Pledge to Parents, established by VSDA in 1991, 
is a commitment by participating retailers:

          1. Not to rent or sell videotapes or video games designated 
        as ``restricted'' to persons under 17 without parental consent, 
        including all movies rated ``R'' by the Motion Picture 
        Association of America and all video games rated ``M'' by the 
        Entertainment Software Rating Board.
          2. Not to rent or sell videotapes rated ``NC-17'' by the 
        Motion Picture Association of America or video games rated 
        ``Adults Only'' by the Entertainment Software Rating Board to 
        persons aged 17 or under.

    In addition, as part of the Pledge to Parents program, many 
retailers solicit from customers written instructions regarding what 
types of video games and movies can be rented or purchased by family 
members. For instance, a customer can limit all of his or her children, 
regardless of age, to videos rated ``E'' (Everyone: content suitable 
for age six and older) by the Entertainment Software Rating Board, or 
indicate that one child is permitted to rent ``E'' games while another 
can rent ``T'' (Teen: content suitable for age 13 and older). Thus, our 
voluntary system allows parents, if they so choose, to be even more 
restrictive than any industry- or government-enforced system would be.
    In 1999, we updated our Pledge to Parents materials and provided 
the revised kit, at no cost, to each retail member of VSDA. We have 
also offered to provide the materials at cost to any other video 
retailer that requests them.
    Each Pledge to Parents kit contains the following:

        <bullet> Customer Flyer and Parental Consent Form--These 
        materials provide information about the Pledge to Parents 
        program and allow customers to indicate their restrictions or 
        authorizations on video and video game rentals and sales by 
        their family members.
        <bullet> Terminal-Topper Sign--This sign, to be displayed near 
        the cash register, draws customers' attention to Pledge to 
        Parents and the retailer's ratings enforcement policy.
        <bullet> ID Check Sign--We encourage retailers to post this 
        sign, which indicates that IDs will be checked when 
        appropriate, throughout their store and remind customers of the 
        retailer's voluntary ratings enforcement policy.
        <bullet> Video Game Ratings Poster and Brochures--The poster 
        and brochures are designed to help customers make informed 
        decisions concerning their children's video game rentals.
        <bullet> MPAA Theatrical-Size Ratings Poster--This poster 
        provides customers with movie ratings information to further 
        assist them with their selection of movies.

    We have encouraged our members to make maximum use of the Pledge to 
Parents materials and provide ratings and content information to 
customers of all ages. We also have strongly urged our members to check 
IDs whenever appropriate. We are pleased to report that the response to 
this program from our members has been extremely positive.
    As part of the relaunch of Pledge to Parents, we conducted a 
substantial public outreach campaign that reached millions of consumers 
through television, radio, newspapers, and the Internet. The purpose of 
this campaign was to make parents aware of the resources available to 
them in video stores.
    And we think parents are taking this message to heart. By and 
large, parents appear to be making good choices for their children's 
game playing and movie viewing. According to VSDA's VidTrac for the 
week ending March 12, 2000, all of the 10 top renting video games, and 
21 of the top 25, were rated ``E'' or ``T.''
    The voluntary Pledge to Parents program demonstrates our industry's 
commitment to the communities in which we live. Video stores and their 
employees are part of the neighborhoods where they are located. They 
often know their customers by name. They know what is acceptable and 
what is not acceptable in their communities. They take pride in the 
entertainment they bring into people's homes. And they realize that 
their reputations and livelihoods are on the line every time they sell 
or rent a video game or movie. Video retailers would not put their 
businesses at risk by providing to children games that their parents 
don't want them to have.
    Finally, we must keep in mind that, in addressing the issue of 
violence in American society, the government cannot infringe the 
constitutional rights of video retailers and consumers--or of parents 
to raise their families as they see fit. Ultimately the responsibility 
for raising children lies with their parents, not the government and 
certainly not video store clerks.
    Recognizing this, the Bipartisan Working Group on Youth Violence 
recommended that members of Congress meet with the entertainment 
industry to learn more about entertainment ratings systems and how to 
communicate information about the ratings systems to parents. We would 
be pleased to work with you to implement this recommendation.
    The nation's video stores are doing their part to make sure that 
America's children are not exposed to violent video games without their 
parents' consent. Home video provides parents with the greatest control 
of their children's electronic game playing. Voluntary programs, such 
as VSDA's Pledge to Parents, are the best way to help parents exercise 
that control.
    Thank you.

                                <greek-d>

</pre></body></html>
